<html>
<title> - AVIATION SECURITY: ARE WE TRULY PROTECTED? PART I AND A FRONTLINE PERSPECTIVE ON THE NEED FOR ENHANCED HUMAN RESOURCES AND EQUIPMENT, PART II</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
   AVIATION SECURITY: ARE WE TRULY PROTECTED? PART I AND A FRONTLINE 
  PERSPECTIVE ON THE NEED FOR ENHANCED HUMAN RESOURCES AND EQUIPMENT, 
                                PART II

=======================================================================


                                HEARING

                               before the

                     SUBCOMMITTEE ON TRANSPORTATION
                      SECURITY AND INFRASTRUCTURE
                               PROTECTION

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                 OCTOBER 16, 2007 AND NOVEMBER 1, 2007

                               __________

                           Serial No. 110-77

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] CONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
48-972                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

 SUBCOMMITTEE ON TRANSPORTATION SECURITY AND INFRASTRUCTURE PROTECTION

                 SHEILA JACKSON LEE, Texas, Chairwoman

EDWARD J. MARKEY, Massachusetts      DANIEL E. LUNGREN, California
PETER A. DeFAZIO, Oregon             GINNY BROWN-WAITE, Florida
ELEANOR HOLMES NORTON, District of   MARSHA BLACKBURN, Tennessee
Columbia                             GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York           PETER T. KING, New York (Ex 
ED PERLMUTTER, Colorado              Officio)
BENNIE G. THOMPSON, Mississippi (Ex 
Officio)

                      Mathew Washington, Director

                          Erin Daste, Counsel

                   Natalie Nixon, Deputy Chief Clerk

                     Coley O'Brien, Senior Counsel

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas, a Chairwoman, subcommittee on 
  Transportation Security and Infrastructure Protection..........     1
The Honorable Yvette Clarke, a Representative in Congress from 
  the State of New York..........................................    42
The Honorable Daniel E. Lungren, a Representative in Congress 
  from the State of California...................................     3
The Honorable Edward J. Markey, a Representative in Congress from 
  the State of Massachusetts.....................................    47
The Honorable Eleanor Holmes Norton, a Delegate in Congress from 
  the District of Columbia.......................................    97
The Honorable Bill Pascrell, Jr., a Representative in congress 
  from the State of New Jersey...................................    44
The Honorable Ed Perlmutter, a Representative in Congress from 
  the State Colorado.............................................    54

                               WITNESSES
                                 Part I
                       Tuesday, October 16, 2007

Ms. Cathleen A. Berrick, Director, Homeland Security and Justice 
  Issues, U.S. Government Accountability Office:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Mr. Franklin Hatfield, Director, System Operations Security 
  Office, Federal Aviation Administration:
  Oral Statement.................................................    35
  Prepared Statement.............................................    37
The Honorable Kip Hawley, Assistant Secretary, Transportation 
  Security Administration:
  Oral Statement.................................................    29
  Prepared Statement.............................................    30

                               Witnesses
                       Thursday, November 1, 2007
                                Part II

Ms. Patricia A. Friend, International President, Association of 
  Flight Attendants-CWA, AFL-IO:
  Oral Statement.................................................    75
  Prepared Statement.............................................    77
Mr. John Gage, National President, American Federation of 
  Government Employees, AFL-CIO:
  Oral Statement.................................................    69
  Prepared Statement.............................................    71
Mr. Rogert Hesselbein, Chairman, National Security Committee, Air 
  Line Pilots Association, International:
  Oral Statement.................................................    82
  Prepared Statement.............................................    84

                             For the Record
                                Part II
                            November 1, 2007

Mr. Marcus W. Flagg, President of Passenger-Cargo Security Group, 
  and The Federal Flight Deck Officers Association:
  Prepared Statement.............................................    91

                                Appendix

Attachments:
A.  Air Line Pilots Association International, White Paper: 
  Recommendations to Improve the Federal Flight Deck Officer 
  Program, July 2007.............................................   103
B.  Air Line Pilots Association International, White Paper: 
  Secondary Flight Deck Barriers and Flight Deck Access 
  Procedures, A Call for Action, July 2007.......................   113


               AVIATION SECURITY: ARE WE TRULY PROTECTED?



                                 PART I

                              ----------                              


                       Tuesday, October 16, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
Subcommittee on Transportation Security and Infrastructure 
                                                Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:23 p.m., in 
Room 311, Cannon House Office Building, Hon. Sheila Jackson Lee 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Jackson Lee, Markey, DeFazio, 
Clarke, Perlmutter, and Lungren.
    Also present: Representative Pascrell.
    Ms. Jackson Lee. [Presiding.] The subcommittee will come to 
order.
    The subcommittee is meeting today to receive testimony on 
the Transportation Security Administration coordination with 
the Federal Aviation Administration when incidents move from a 
safety incident to a security incident and general aviation 
security. We also have the Government Accountability Office, 
GAO, before us today as well.
    However, before I begin, I ask for unanimous consent that 
Mr. Pascrell, a member of the full committee, to sit and 
question the panels during today's hearings. Without objection: 
so ordered.
    Welcome, Mr. Pascrell. You have never left us and we are 
delighted to have you here with us today.
    Let me acknowledge the presence as well of Mr. Perlmutter, 
a member of the subcommittee, and Mr. DeFazio, a member of the 
subcommittee, and of course, the ranking member.
    As we all know, the Congress, and specifically this 
committee, continue to have serious concerns regarding aviation 
security in the United States since September 11. The ensuing 
debates in Congress continue to focus on the degree of federal 
involvement needed to improve aviation security and maintain 
public confidence in air travel. This ongoing debate started 
with the Aviation Transportation Security Act, which 
established the Transportation Security Administration in 
response to the September 11, 2001 attacks on the World Trade 
Center and the Pentagon. I might add, long overdue.
    At the beginning, TSA was headed by an under secretary of 
transportation for security within the Department of 
Transportation. Within 3 months after enactment of the ATSA, 
the responsibilities for aviation security were transferred 
from the Federal Aviation Administration to the TSA. It was no 
longer FAA, but TSA was charged with managing a federal 
screening workforce and requiring screening of checks bags 
using explosive detection systems.
    Now, let me say that I am very proud and pleased at the 
work of our chairman, Chairman Thompson and Chairman Oberstar, 
for we have coordinated and collaborated. I have good working 
relationships with the chair of the Subcommittee on Aviation, 
Mr. Costello, and we have indicated that we look forward to 
working together. But it is a responsibility of the TSA to 
address the question of aviation security. However, it is a 
collaborative effort and it must be done with the two principal 
witnesses that are here that will offer their thoughts and 
testimony as to the effectiveness of that collaboration, of 
course, with the insight of the GAO.
    ATSA also significantly expanded the Federal Air Marshal 
Program requiring that all cockpit doors be strengthened and 
provided for various other aviation security measures. Let me 
also indicate that in our next hearing, we will address the 
question of the issues of the Federal Air Marshal Program, 
training, other personnel matters, effectiveness, the marshals' 
insight into whether or not the program is as strong as it 
should be, and how we can strengthen their service so that they 
can strengthen aviation security.
    We will also look at flight attendants and the training 
that is necessary that still has not been accomplished these 
many years later.
    This was not the final step in the transformation of the 
TSA. Later, the Homeland Security Act of 2002 established the 
Department of Homeland Security and completely removed the TSA 
from DOT in placing it in DHS. While there has always been a 
distinction between TSA and the FAA, these two entities will 
always have a connection. The aviation community relies on FAA 
for safety and TSA for security. However, today I want to 
explore, as I previously said, how these two distinctive 
agencies coordinate when an accident or incident goes from 
being a safety concern to a security concern.
    The committee wants to make sure that the FAA and the TSA 
are aligned and work very closely together in terms of 
understanding and implementing their respective roles in 
responding to aviation security threats. In addition to the 
coordination between the FAA and the TSA, I am very interested 
in how air traffic controllers are trained to deal with 
security incidents and what steps we can take to make sure that 
air traffic controllers have the training to be able to deal 
with the security threat.
    As you know, training of frontline workers is of paramount 
importance to this committee. In all modes of transportation, 
we must ensure that workers have the knowledge and skill to 
respond to a multitude of security issues. We need assurances 
from the TSA that aviation TSOs are indeed getting this 
training.
    But it is not just coordination I am worried about. Many 
believe that the risk-based approach implemented by the TSA 
places an overemphasis on allocating resources to screening 
airline passengers and have left the system vulnerable to 
attacks in other areas, namely air cargo operations, airport 
access controls, and protecting airliners from shoulder-fired 
missiles.
    In essence, these critics argue that the implementation of 
aviation security policy since September 11, 2001 has focused 
too heavily on protecting aircraft from past attack scenarios 
such as suicide hijackings and luggage bombs carried out by 
airline passengers, and has not given enough attention to other 
potential vulnerabilities, which speaks to the question of air 
traffic controllers and certainly speaks to the question of 
whether we are fully staffed and trained, and what are the 
vulnerabilities of the numbers of air traffic controllers that 
we have today.
    Supporting our suspicions that TSA is missing the mark, the 
GAO identified seven performance expectations which have not 
been achieved, specifically airport perimeter security, control 
access to airport secured areas--the Phoenix incident, 
biometric identifier systems, international passenger pre-
screening process, and technologies to screen air cargo.
    As members of Congress, and more specifically as members of 
the Committee on Homeland Security, we have a responsibility to 
make sure our planes and airports and other modes of 
transportation are safe. I would venture to say that if, as we 
have all speculated the possibility, a horrific incident 
occurs, I would imagine Americans would ask the question, 
``What did the Committee on Homeland Security and what did the 
Department of Homeland Security do to prevent this horrific 
incident?''
    We are at a crossroads where we must take action to find 
out what is the best way to provide a safe, secure and 
functional aviation system. If we do not put effective security 
measures in place, our nation may very well be the victim of 
another attack, which in turn will cause a major economic 
disruption and an avoidance of commercial aviation. We saw what 
happened after 9/11. We must continually earn the confidence of 
the flying public in order to ensure that the public continues 
to enjoy the freedom of mobility that flying provides. We must 
demonstrate to them that our nation's airports are secure.
    Let me finally say that we understand there have been 
significant incidences of slowdowns and a number of problems 
that have occurred to the traveling aviation public as it 
relates to the services, as has been pointed out by airlines, 
of air traffic controllers. Many argue that that is a safety 
question or a question of logistics. I argue that it is as much 
a security concern as it is a safety concern, not because of 
the witnesses who are here today, but I believe the system is 
broken and we have an obligation to fix it in order to secure 
the American public.
    With this, I am delighted to yield to the ranking member of 
the subcommittee to deliver his remarks, Mr. Lungren of 
California.
    Mr. Lungren. Thank you very much, Madam Chairwoman. Maybe I 
can be king for a day.
    [Laughter.]
    I want to thank you for scheduling today's hearing on this 
important issue, aviation security. When you started talking 
about the public's view of things, I am reminded of a recent 
poll that I saw in which 73 percent of the American people 
believe that the U.S. government has been effective in 
preventing a terrorist attack in America since 9/11.
    At the same time, the same poll shows that 56 percent of 
the American people believe that they are less safe today, that 
is, that we are becoming less safe, rather than safer. How do 
you put those two things together? I think it is because they 
recognize that we have taken steps that have been effective, 
that we are indeed in many ways safer, but that the threat 
remains and the threat is every bit as intense.
    That is why I think it is incumbent on those of us in the 
Congress to have the urgency that seems to be indicated by the 
American people's attitude both towards the effective job that 
we have done in the past, but the continuing threat that 
remains. The airplane has been and continues to be the 
terrorists' weapon of choice when carrying out attacks on our 
country. The 2006 liquid explosives plot uncovered in London 
reminded us that commercial aircraft remains a favorite weapon 
of the terrorists.
    We in Congress are often quick to criticize our government 
agencies and their employees. Today, however, I am pleased to 
congratulate TSA and its many dedicated employees on achieving 
17 out of the 24 GAO aviation security performance expectations 
in their most recent report. Maybe it is just I like to see the 
glass half full rather than half empty.
    It shows progress, in my estimation, although much more 
remains to be done. Congress has provided substantial funding 
for aviation security. While much remains to be done, it is 
reassuring to see the progress TSA has made in securing our 
airlines. One of Congress's first mandates after 9/11 was for 
TSA to screen 100 percent of airline passengers and their 
baggage. This goal has been achieved. While Americans still 
don't like the inconvenience, they I think understand 
intuitively that it is necessary to do that in order for us to 
have safer skies.
    Now, TSA is strengthening its focus on passenger pre-
screening, Secure Flight. It plans to take control of passenger 
information matching from the airlines against the terror watch 
list prior to the aircraft's departure. That is improvement. 
This involves effective use of intelligence sources to identify 
possible terrorist threats, and I fully support these efforts.
    I might just say parenthetically, the whole idea of 
intelligence is why the vote that we are going to have this 
week on Pfizer is so important. If you look at a risk-based 
assessment, it is threat vulnerability and consequence. 
Vulnerability and consequence are things within our domain of 
information. Threat is only within our domain of information 
based on the amount of intelligence we have, how effectively we 
identify it, and how we put it together, i.e. connecting the 
dots. That is why this vote this week is so important.
    Registered traveler--another TSA change that would 
immeasurably improve the travel experience for airline 
customers, and at the same time provide security, in my 
judgment, is a fully implemented registered traveler program. 
Congress directed TSA in 2002 to establish a registered 
traveler program, allowing passengers who provide their 
biometric and biographic information, access to expedited 
security processing at the checkpoint.
    Now, 5 years later, the promise of expedited processing for 
registered travelers is at best a mirage. I find it difficult 
when my wife says to me at home, ``What is the matter with you 
guys? It seems to me that is a relatively simple thing to do. 
We would like to get it done. Why can't you get it done?'' I am 
still trying to get the answer so that I may go home and answer 
my wife. I want to tell you, that is a high priority in my 
life.
    Instead of facilitating travel for participants, TSA is 
making it more difficult, in my judgment, by requiring double 
identification for the registered traveler, while demanding 
only a single government photo ID from the guy off the street. 
I have heard the arguments that have been made. I don't 
understand them.
    I am a strong believer that intelligence is our best weapon 
against terrorism, as I previously said. The more personal 
passenger information we have, the better our chances for 
identifying travelers who may pose a threat. Shouldn't we be 
encouraging programs that provide us with greater intelligence, 
particularly when that information is given voluntarily?
    I am also disturbed by the trend of some in this Congress 
away from the risk-based security model that we have followed 
in this committee since 9/11. New screening proposals advocated 
by some for passenger air cargo, maritime cargo containers, and 
airport employees seem to think that the magic of 100 percent 
by some definitions is just that, magic. I am concerned about 
whether or not we are looking for the silver bullet that we can 
never find.
    I am convinced that we need to send valuable TSA funding 
and personnel resources in a layered approach, the most 
effective approach, the smart approach. We will not be able to 
defeat those who want to destroy us by out-manning them. We 
will by the intelligent use of our technology, our information, 
and our analysis.
    We need to ensure that as we do this, we do not allow them 
either to destroy us or to destroy our commerce in the process. 
We can do this, I am absolutely convinced. Multi-layered, risk-
based security guided by intelligence is still the best defense 
against the evolving threat of terrorism.
    I thank the chairwoman.
    Ms. Jackson Lee. I thank the distinguished gentleman for 
his comments.
    Let me also acknowledge the presence of the distinguished 
gentlelady from New York, Congresswoman Yvette Clarke.
    At this time, I would like to welcome our panel of 
witnesses. Our first witness will be Ms. Cathy Berrick, 
Director of Homeland Security and Justice Issues for the 
General Accountability Office. In this capacity, she oversees 
the GAO's reviews of aviation and surface transportation 
security matters, and has developed broad knowledge of 
transportation security practices and related federal policies, 
and federal and private sector roles and responsibilities.
    She has leveraged this expertise to lead numerous reviews 
of the department and TSA initiatives to strengthen the 
security of U.S. transportation systems and to interpret the 
complex array of legislation passed and policies instituted in 
the aftermath of the September 11, 2001 terrorist attacks. Ms. 
Berrick, welcome.
    Our second witness is Assistant Secretary for 
Transportation Security Kip Hawley. Assistant Secretary Hawley, 
as usual, it is always a pleasure to have you, and we always 
look forward to your forthright testimony. We thank you very 
much for your presence here today. Let me just suggest to you 
that your very presence and your very position allows us simply 
to introduce you as the Assistant Secretary of Transportation 
Security, so the shortness of your introduction does not in any 
way measure your importance.
    The final witness of this panel is Mr. Franklin Hatfield, 
Director of the Operations Security Office for the FAA. Mr. 
Hatfield is responsible for integrating all aviation and 
aerospace security into the national airspace system. He serves 
as the nexus between operational intelligence and the NSA, and 
is responsible for balancing the needs of national security 
with the operational and economic demands of aviation commerce.
    Let me say, Mr. Hatfield, that we are delighted that you 
are here. Let me make a personal statement that we will look 
forward to the administrator's presence at some future time 
before this committee. The absence of the administrator is 
certainly not one that is going to be accepted on a long-term 
basis, but we thank you for the responsibilities that you have 
and your presence here today.
    I am now asking that the witnesses, without objection, will 
have their full statements inserted into the record. I now ask 
each witness to summarize his or her statement for 5 minutes, 
beginning with Director Berrick from the Government 
Accountability Office.
    Thank you very much again.

 STATEMENT OF CATHLEEN A. BERRICK, DIRECTOR, HOMELAND SECURITY 
   AND JUSTICE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Berrick. Thank you, Madam Chair, Representative Lungren 
and members of the subcommittee, for inviting me here to 
discuss GAO's work assessing TSA's progress in securing 
commercial aviation.
    In August, 2007, shortly after the Department of Homeland 
Security's 4-year anniversary, we reported to this committee on 
DHS's progress in satisfying its key mission and management 
functions, including TSA's efforts in securing aviation and 
surface modes of transportation.
    We based our assessment on over 400 reports and testimonies 
we have completed assessing DHS's operations, and by 
determining whether DHS generally achieved or generally did not 
achieve key performance expectations set out for them by 
Congress, the administration, and the department itself. 
Overall, we reported that TSA has made moderate progress in 
securing commercial aviation. More specifically, we found that 
TSA generally achieved about 70 percent of the 24 performance 
expectations established for them.
    In terms of progress, TSA is taking considerable action in 
hiring, deploying, training and measuring the performance of 
its aviation security workforce. These efforts include the 
development of robust training programs for TSOs or screeners, 
including enhanced explosives detection training and standards 
for determining appropriate TSO staffing levels at airports.
    TSA has also made significant progress in balancing 
security and efficiency in developing checkpoint screening 
procedures, deploying checked baggage screening equipment, and 
enhancing covert testing to assess vulnerabilities in the 
screening of passengers and checked baggage.
    TSA is also researching and developing more effective and 
efficient screening technologies, and has taken action to 
strengthen the security of domestic air cargo through the 
development of security requirements and other initiatives.
    However, we find that DHS and TSA has made less progress in 
securing airport perimeters and access to restricted areas, 
deploying technologies to detect explosives at checkpoints and 
to screen air cargo, and building a system to pre-screen 
airline passengers against terrorist watch lists for domestic 
flights, although progress is being made in all of these areas.
    One of the most critical areas in which limited progress 
has been made is in the deployment of technologies at airport 
checkpoints to detect explosives on passengers and in their 
carry-on bags. Although DHS is developing and testing 
technologies, the department has reported that the extensive 
deployment of new checkpoint technologies will not be realized 
for another 2 years.
    In addition, although TSA has taken action to strengthen 
the security of airport perimeters and access controls, covert 
tests continue to identify weaknesses in this area, and DHS did 
not identify to us how its actions have addressed all relevant 
legislative requirements, as well as respond to our prior 
recommendations.
    A variety of cross-cutting issues have affected DHS's and 
TSA's efforts in implementing its mission and management 
functions. These include developing results-oriented goals and 
measures to assess performance, developing and integrating a 
risk-based approach to guide investment decisions, and 
establishing effective frameworks and mechanisms for sharing 
information and coordinating with stakeholders. It will be 
important for the department to continue to address these 
issues as it moves forward.
    In closing, TSA has made considerable progress in securing 
commercial aviation and its efforts should be commended. 
However, the agency still has more work to do in some key 
areas, most especially related to the deployment of 
technologies to screen for explosives at checkpoints and in air 
cargo, and with respect to the security of surface 
transportation modes, more fully defining its regulatory role.
    We are currently reviewing many of these key areas for this 
committee and will continue to report to the Congress and the 
public on the results of our work.
    Madam Chair, this concludes my opening statement. Thank 
you.
    [The statement of Ms. Berrick follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Ms. Jackson Lee. Thank you very much for your insightful 
testimony.
    It is now my pleasure to recognize Assistant Secretary Kip 
Hawley to summarize his statement for 5 minutes.

      STATEMENT OF HON. KIP HAWLEY, ASSISTANT SECRETARY, 
             TRANSPORTATION SECURITY ADMINISTRATION

    Mr. Hawley. Thank you. Good afternoon, Chairwoman Jackson 
Lee and members of the subcommittee. It is a great pleasure to 
be here today to talk with you about how TSA is doing in its 
mission to improve aviation security. It is also a pleasure to 
be here to share the panel with Cathy Berrick from GAO and 
Frank Hatfield from the FAA.
    I didn't refer to it in my submitted remarks about the 
ongoing, very close work that we do with the FAA, but I look 
forward to discussing the nature of that partnership. It is one 
that is very close at all levels, and I would like to publicly 
thank Frank Hatfield and his team for the outstanding 
leadership and cooperation and coordination that we do 
together.
    I would also like to thank the committee for its continued 
support for our mission and your leadership in the area of 
improving aviation security. I particularly appreciate this 
committee's detailed understanding of TSA's operational needs 
and the committee's focus on practical solutions to complex 
problems.
    The challenges of implementing all the provisions of the 9/
11 Act are formidable, but TSA is committed to achieve the 
objectives of this committee, the Congress and the 9/11 
Commission. With all that we do, we must keep our focus on the 
highest priority items, priorities informed and driven by the 
current threat environment. Since last June, we have witnessed 
disrupted attacks in London, Denmark, and Germany, as well as a 
completed attack on Glasgow's airport in Scotland. There is no 
reason to think that we are exempt from that kind of attack 
planning.
    The national intelligence estimate indicates that over the 
next 3 years, the threat will continue, with terrorists 
attempting transportation sector attacks on a grand scale. We 
must use our security measures that are unpredictable, agile 
and adaptable to put us one step ahead of evolving threats. As 
I have said in previous meetings with this committee, TSA has 
added layers of security and additional technology to our 
airport operations. We have continued to provide more training 
and real-threat testing of our frontline officers. Federal air 
marshals move invisibly to protect Americans wherever they fly 
around the globe, and VIPR teams are deployed every week in 
support of our shared mission with our stakeholders.
    That is our focus every day. It is on that base of daily 
operations that we address the new requirements from the 9/11 
legislation. When I was before this committee recently, we 
talked about Secure Flight. I promised that we would complete 
the re-baselining of the program, build in privacy protections, 
and publish the rule. We have done these things and we are 
ready to go.
    The rule for Secure Flight has been published, and after a 
public hearing in September that was available live on the 
Internet, the comment period is open now. It closes next week 
and we expect to get the final rule out in spring, 2008. Should 
the Congress choose to fully fund the program in fiscal year 
2008, we can begin testing in 2008.
    I am mindful that despite the progress TSA has made across 
the board, much is left to do. I look forward to our work 
together to further strengthen security throughout our 
transportation network.
    I look forward to the chance to discuss these issues with 
you. Thank you.
    [The statement of Mr. Hawley follows:]

 Prepared Statement of the Honorable Kip Hawley, Assistant Secretary, 
                        Transportation Security

                            October 16, 2007

    Good afternoon Chairwoman Jackson Lee, Ranking Member Lungren, and 
distinguished members of the Subcommittee. Thank you for this 
opportunity to share with you the ongoing efforts of the Transportation 
Security Administration (TSA) to improve security in the aviation 
system by providing a better experience for travelers.

Ongoing Threat
    The effort to ensure the security of the aviation system remains as 
important now as it ever has been in the past six years. Since August 
10, 2006, the nation's threat level for all commercial aviation 
operating in or destined for the United States has been High, or 
Orange. The National Intelligence Estimate on threats to the U.S. 
Homeland issued in July confirmed publicly that the terrorist threat is 
real. This threat is persistent and evolving. Terrorists maintain an 
undiminished intent to attack the Homeland and show a continued effort 
to adapt and improve their capabilities. They are innovative in 
overcoming security obstacles. They are training to use improvised 
explosive devices (IEDs). Terror groups continue to focus on prominent 
infrastructure targets with the goal of producing mass casualties. The 
aviation threat level Orange remains operationally required based on 
the very real threats posed by those who wish to do harm to our 
aviation system.

Keeping Ahead of Terrorists
    TSA's security strategy is based on flexible, mobile, and 
unpredictable methods. To counter the evolving threat and adaptive 
capabilities of terrorists, we are staying ahead by rethinking the 
entire screening process and changing the legacy systems that 
originated in the 1970s. We are going on the offense to address current 
threats. We will be more proactive and we must anticipate the threats.
    We recognize that we cannot protect every person or all property 
against every possible threat to the system. Given the nature of the 
threats to aviation, we must manage risk consistent with what we 
understand of the threats, vulnerabilities, and consequences. We will 
prioritize our resources to protect against the high-threat, high-
consequence events.
    I previously shared with this Subcommittee an overview of the many 
layers of security protecting aviation. We continue to change what we 
do, how we do it, and where we do it. We have significantly increased 
the layers of security throughout the airport environment. Risk-based 
security means that we share resources across all risks, both high and 
low, in strategic proportions.
    The discussion of aviation security almost always starts at the 
familiar TSA security checkpoint. For the two million travelers a day 
who fly, that is TSA to them. However, TSA looks at the checkpoint as 
but a piece--an important piece--of a much larger picture. Therefore, 
before discussing checkpoint issues, I would like to point out that TSA 
looks at the entire transportation network in evaluating risk, 
including threat information. A large part of TSA's work involves 
working closely on a daily basis with the intelligence and law 
enforcement communities and our global partners to try to stay ahead of 
the current threat.
    We have to be strong at the checkpoint, but also many other 
places--including the back, front, and sides of the airport. Risk-based 
security means that we take the whole picture into account and 
implement selective and unpredictable security measures. We must first 
deny the terrorist a stationary target where a planner can take the 
time to map an attack with high odds of success. Nothing can be 
uncovered, but likewise, we cannot fool ourselves into thinking that 
fixed, robust security is impenetrable. Our security needs to play 
offense, not just defense.
    TSA is focusing beyond the physical checkpoint--to push our borders 
out, so to speak--to look more at people and to identify those with 
hostile intent or those conducting surveillance even if they are not 
carrying a prohibited item. By spreading our layers of security 
throughout the airport environment and elsewhere, we have multiple 
opportunities to detect terrorists and leverage the capabilities of our 
workforce, our partners, and our technology.

Travel Document Checking
    We are placing specially trained Transportation Security Officers 
(TSOs) at the front of the checkpoint to review travel documents to 
find fraudulent identification (IDs) and also to look at behavior. The 
9/11 Commission recognized that travel documents are akin to weapons 
for terrorists. We will make it harder for dangerous people to use 
fraudulent documents and IDs by raising the standard of inspection and 
providing additional equipment for our TSOs to perform this function. 
We ask this Subcommittee to fully support the President's budget for 
this program so that TSA can make a seamless transition from the 
airlines and continue the program with as little disruption as possible 
to the flow of passenger screening.

    Behavior Observation
    We continue to expand the Screening Passengers by Observation 
Techniques (SPOT) program, which utilizes non-intrusive behavior 
observation and analysis techniques to identify potentially high-risk 
passengers. Individuals exhibiting specific observable behaviors may be 
referred for additional screening at the checkpoint that may include 
handwanding, pat down, or physical inspection of their carry-on 
baggage. SPOT adds an element of unpredictability to the security 
screening process that is easy for passengers to navigate but difficult 
for terrorists to manipulate. It serves as an important additional 
layer of security in the airport environment, requires no additional 
specialized screening equipment, can easily be deployed to other modes 
of transportation, and presents yet one more challenge for terrorists 
attempting to defeat our security system. The SPOT program has already 
added great value to our overall security system. For example, a 
Behavior Detection Officer recently identified an individual at a 
ticket counter carrying a loaded gun and more than 30 rounds of 
ammunition.

Aviation Direct Access Screening Program
    We continue to expand the Aviation Direct Access Screening 
Program--deploying TSOs and Transportation Security Inspectors (TSIs) 
to locations throughout airports to screen airport employees, their 
accessible property, and vehicles entering a direct access point to 
secured areas of airports. The random screening at unexpected locations 
is a valuable measure to increase the protection on the ``back side'' 
of airports.
    This random and unpredictable screening allows airport workers to 
perform their duties with minimal interruptions and keeps the aviation 
industry operating. TSA's approach is both practical and effective. 
Requiring 100% screening of all airport workers, even in a pilot 
program, is contrary to this philosophy; it unnecessarily diverts 
resources from higher risk operations without providing the 
improvements in security that we need. We would like to continue to 
work with the Subcommittee to craft a pilot program that will test 
varying methods of improving an airport worker screening program that 
will offer better security.

Bomb Appraisal Officers
    We are continuing to hire and deploy Bomb Appraisal Officers (BAO) 
who provide advanced training for the workforce on explosives and IEDs 
and resolve alarms beyond the TSO capability. BAOs have extensive 
backgrounds and experience in IEDs as well as in Chemical, Biological, 
Radiological, and Nuclear threats. They work closely with local law 
enforcement, bomb squads, and military Explosive Ordnance Disposal 
personnel to satisfy TSA's explosives detection needs.

Visible Intermodal Prevention and Response Teams
    Over this past summer we began to more broadly deploy Visible 
Intermodal Prevention and Response (VIPR) teams. Comprised of TSOs, 
TSIs, and Federal Air Marshals (FAMs), VIPR teams collaborate with 
local law enforcement agencies to intensify the visible presence of 
security personnel at various points throughout the transportation 
system. At airports, we use VIPR teams in locations away from the 
screening checkpoint. VIPR teams have proven that TSA and our 
stakeholders can greatly improve security by altering and enhancing 
security measures at airports.
    This strategy of active, nimble, flexible security depends on the 
quality of the people involved. TSA has had a major focus on improving 
security by improving the capabilities of its people. Better recruiting 
and hiring, better training, better incentive systems, career 
progression opportunity, more involvement in decisions effecting the 
workforce, and more recognition of the critical role played by our 
people--these efforts all have a positive effect on the security result 
TSA delivers. The success of all these programs in increasing the 
layers of security would not be possible without the incredible effort, 
professionalism, and dedication shown by TSA's workforce. Our highly 
trained and highly motivated workforce--TSOs, TSIs, FAMs, and other 
professionals--have proven to be a nimble, adaptable workforce that can 
quickly adjust to counter an emerging terrorist threat. In August of 
2006, TSOs employed new standard operating procedures within hours to 
deal with the threat identified as part of the United Kingdom plot to 
blow up commercial aircraft with liquid explosives. TSA has rapidly 
deployed FAMs to international destinations to support its mission 
coverage based on new threats. We are constantly reviewing and 
adjusting our procedures and strategies to ensure our personnel are 
ahead of the next threat. TSA's workforce has met every challenge in 
the past five years and I am confident they will continue to do so.
    Maintaining a healthy, able-bodied workforce is also critical to 
TSA's mission. We improved workplace safety through a series of 
aggressive initiatives, including nurse case managers, Optimization and 
Safety Teams, automated injury claims filing process, involvement of 
the National Advisory Council in planning and implementing the Safety 
Week Campaign and other aspects of the Safety Program, deployment of 
contract safety specialists to support TSA field operations, and speedy 
investigations to correct safety problems. Through these programs, TSA 
has reduced the rate for employees losing time from duty due to injury 
by almost half from 11.56 per 100 employees in FY2005 to 6.75 for the 
3rd Quarter of FY2007.
    We are also adding significant new technology. A lesson from 9/11 
is that we must be proactive--we must anticipate threats that continue 
to grow in sophistication and complexity. This effort includes 
leveraging the skills of our TSOs with new technology. This next 
generation of technology will assist our TSOs in separating friend from 
foe, increasing efficiency, and helping minimize the impact to 
travelers and businesses:
        <bullet> Advanced Technology (AT) X-ray. We will begin 
        deploying AT X-ray equipment for carry-on baggage. It provides 
        TSOs with a better capability to identify and detect threats 
        through improved imagery and analysis tools.
        <bullet> Checkpoint Automated Carry-On Explosives Detection 
        Systems (Auto-EDS). We are exploring Auto-EDS for inspecting 
        carry-on items. Auto-EDS may provide additional detection and 
        automation opportunities.
        <bullet> Whole Body Imagers. We are pilot testing whole body 
        imagers, such as the backscatter and millimeter wave 
        technologies, to quickly and safely screen passengers for 
        prohibited items without the need for physical contact.
        <bullet> Cast & Prosthesis Scanner. We are testing new cast and 
        prosthesis scanners to provide a safe, dignified, and non-
        invasive way to identify potential threats and clear passengers 
        wearing casts, braces, and prosthetic devices.
        <bullet> Bottled Liquids Scanners. We have begun deploying 
        liquids scanning devices at checkpoints, and are now using a 
        hand-held liquids scanner for non-checkpoint screening 
        locations.
        <bullet> New Explosives Detection Systems. We are evaluating 
        several new products that will greatly increase the speed of 
        handling and screening checked baggage, particularly when 
        integrated into an airport's baggage handling system, while 
        reducing the size of the footprint of the baggage screening 
        location.

Improving Security By Improving the Security Experience
    Despite the critical need for enhanced security measures, such as 
the requirement to remove all shoes and the restrictions on liquids, 
gels, and aerosols, we know we need to improve the checkpoint screening 
process so it is less stressful for the traveling public.
    Working with our stakeholders, we are pursuing programs and 
processes that improve the security screening process. We are moving 
from the legacy approach of simply looking for weapons to a more fluid 
process focused on the goals of: (1) improving detection of explosives; 
and (2) developing the capability to evaluate travel documents as well 
as detect hostile intent or possible surveillance.

Looking Ahead
    Implementation of Public Law 110-53, Implementing Recommendations 
of the 9/11 Commission Act of 2007 (9/11 Act)
    TSA appreciates the leadership of this Subcommittee for the 
exceptionally difficult work in melding together the transportation 
security provisions in the Implementing Recommendations of the 9/11 
Commission Act of 2007 (P. L. 110-53). I also would like to thank the 
Subcommittee staff for its professionalism and the hard work and 
cooperative spirit they displayed in working with the Department of 
Homeland Security and TSA to finalize these provisions.
    A large proportion of the requirements in the 9/11 Act directly 
affect all aspects of transportation security, including strategic 
planning, aviation security, rail security, security of public transit 
facilities, pipelines, over-the-road buses, and trucking security. TSA 
has a big task in continuing the implementation of the 9/11 Act and in 
working with the many stakeholders in the transportation sector to 
assure the level of security that Congress and the 9/11 Commission 
envisioned.
    We will now need to integrate the many mandates in the 9/11 Act 
into our current priorities and resources to enable key initiatives to 
progress without delay while not losing focus on our threat-based 
operations. I also ask the Subcommittee to recognize that many of the 
mandates propose implementation schedules that will be especially 
challenging, given requirements in other laws for sufficient time to 
allow the Federal regulatory process to fully play out. We are working 
with our partners in the Department and other federal agencies to begin 
this process and will report our progress at the request of the 
Subcommittee.

    Screening of Air Cargo
    As you know, the 9/11 Act requires the establishment of a system to 
screen 100 percent of cargo transported on passenger aircraft within 3 
years. As we proceed towards meeting the cargo screening requirement, 
TSA will stress effective security management of the air cargo supply 
chain. This process will require substantial collaboration with 
stakeholders. This Subcommittee was a leader in including key language 
in the bill that authorizes TSA to develop and implement a process to 
certify the security methods used by shippers as a means of complying 
with the screening requirement. This is a critical element in enabling 
the improved security for air cargo on passenger aircraft that Congress 
requires. I am grateful to the Committee for its recognition that 
better screening occurs when shipments are screened and secured at 
various points along the supply chain. Waiting until the freight is 
dropped at the airport, often in large pallets, to begin screening 
would result in less effective screening as well as defeat the whole 
purpose of the air cargo system that strives to provide expeditious 
delivery of goods from origin to destination. We expect to work closely 
with all aspects of the air cargo supply chain to develop an effective 
and robust air cargo security program in accordance with the bill's 
requirements while continuing the free flow of commerce that our 
economy relies upon. TSA will build upon our established programs: air 
cargo security regulations; Security Directives; the Known Shipper 
Management System; and increased use of TSA-certified explosives 
detection canine teams and Transportation Security Inspectors for 
Cargo.
    In addition, the $80 million dollars appropriated to TSA this year 
for air cargo security as part of the FY2007 Emergency Supplemental 
Appropriations Act (P.L. 110-28) will contribute to our increased 
efforts through the hiring of at least 150 additional cargo inspectors 
and expansion of the National Explosives Detection Canine Program by no 
fewer than 170 teams.

    Secure Flight
    TSA has taken a significant step toward implementing the 
recommendation of the 9/11 Commission and the requirement of the 
Intelligence Reform and Terrorism Prevention Act of 2004 to enhance the 
vetting of aviation passengers against terrorist watch lists. On August 
23, 2007, TSA published a Notice of Proposed Rulemaking (NPRM) 
proposing implementation of the Secure Flight program. Secure Flight, 
if implemented as proposed, will bring the process of comparing 
passenger names against the watch list, now performed by aircraft 
operators, into the government, and will align domestic and 
international passenger pre-screening. By establishing a more 
consistent and effective watch list matching process, TSA will 
strengthen a key layer of security and enhance its ability to stop 
terrorists from being allowed through the passenger screening 
checkpoint. The program is designed to better focus enhanced passenger 
screening efforts on individuals likely to pose a threat to civil 
aviation, and to facilitate the secure and efficient travel of the vast 
majority of the traveling public by distinguishing them from 
individuals on the watch list.
    We have taken the time to build the Secure Flight program right, 
and we believe that the NPRM and associated Privacy Act System of 
Records Notice and Privacy Impact Assessment demonstrate that TSA has 
built a program with the operational requirements necessary to enhance 
aviation security while protecting the privacy and civil liberties of 
the traveling public.
    Over the next few months, TSA intends to begin a testing period 
using data from aircraft operators that volunteer to participate. 
During testing, air carriers will continue conducting watch list checks 
for domestic flights, and TSA will compare the results of its watch 
list matching with air carrier results to ensure the validity of the 
Secure Flight system.
    It is therefore extremely critical that Congress provide the 
necessary funding for Secure Flight requested by the President in the 
FY 2008 budget. Without the necessary funding, the program will have to 
scale back benchmark testing with airlines, Secure Flight system to 
airline system testing, parallel operations with airlines, and the 
stand up of the Secure Flight Service Center or Secure Flight 
Operations Center. In short, the program would have a system with no 
ability to connect, communicate, or test with airlines for the purposes 
of implementation. Important contract awards would be postponed. From a 
schedule perspective, rollout of the Secure Flight program would be 
severely delayed. An immediate concern is the significant budget 
constraint imposed on the Secure Flight program due to the enactment of 
H.J. Res 52, providing for continuing appropriations for fiscal year 
(FY)2008. The restrictions on funding under H.J. Res 52 will inhibit 
TSA's ability to implement this critical program to improve aviation 
security and fulfill a key recommendation of the 9/11 Commission. Now 
that we have demonstrated major progress on the Secure Flight program 
through the issuance of the NPRM and associated privacy documents, we 
need your support to fund this vital program.

    General Aviation
    TSA is working closely with the general aviation (GA) community to 
develop reasonable, feasible, and effective security for GA operations 
while ensuring that these measures support continued operations and 
increased growth of the industry.
    TSA is also working with aircraft operators and Fixed Base 
Operators directly to develop voluntary programs of verifying the 
identification of passengers on board aircraft and maintaining facility 
security in and around GA aircraft. TSA is working closely with our 
interagency partners to improve GA security. The U.S. Customs and 
Border Protection (CBP) recently issued a NPRM that will require GA 
operators to submit comprehensive manifest data about passengers, crew, 
and flight information electronically to CBP, as part of its Electronic 
Advance Passenger Information System (e-APIS), at least 60 minutes 
before the aircraft departs for the United States.
    Currently, we only receive very basic information from GA aircraft 
coming into the United States, such as who is and is not a U.S. 
citizen. That is not enough. Having this information an hour before 
departure will give CBP inspectors more time to fully pre-screen 
travelers and crews and take necessary actions to resolve threats.

    Conclusion
    Although the threats and challenges to the security of the aviation 
system are numerous, so are the solutions and efforts of TSA to 
continue to successfully carry out our mission. We will continue to use 
our personnel, information, and technology in innovative ways to stay 
ahead of the evolving threats and facilitate passenger travel and the 
flow of commerce.
    Finally, I want to take this opportunity to thank the traveling 
public and our stakeholders for their continued cooperation which helps 
TSA effectively manage high travel volumes through the screening 
process. I am hopeful that the same level of cooperation from the 
traveling public and our stakeholders will make the upcoming holiday 
travel season a success as well. TSA has shown that in partnership with 
our stakeholders we can implement enhanced flexible security measures 
while maintaining the flow of passenger and baggage screening.
    Madam Chairwoman, thank you again for the opportunity to testify 
today. I am happy to respond to the Subcommittee's questions.

    Ms. Jackson Lee. Assistant Secretary Hawley, thank you for 
your testimony as well.
    I now recognize Director Franklin Hatfield to summarize his 
statement for 5 minutes.

   STATEMENT FRANKLIN HATFIELD, DIRECTOR, SYSTEM OPERATIONS 
        SECURITY OFFICE, FEDERAL AVIATION ADMINISTRATION

    Mr. Hatfield. Thank you, Chairwoman Jackson Lee, 
Congressman Lungren, members of the subcommittee. I am pleased 
to appear before you this afternoon to discuss the role of the 
FAA in supporting the Transportation Security Administration's 
response to aviation security threats and incidents.
    I want to assure the subcommittee that FAA and TSA are 
aligned and work very closely together in terms of 
understanding and implementing our respective roles in 
responding to aviation security threats. The FAA supports TSA 
through a broad range of standing mechanisms, some of which are 
continuous in nature and some of which are activated in 
response to a specific incident.
    We agree with the chairwoman's assessment that FAA's 
primary mission is aviation safety and efficiency, but we also 
agree with the chairwoman's assessment that our support of 
TSA's security role is equally important.
    Accordingly, we work with TSA, the Department of Defense, 
and other key partners to effectively respond to any potential 
threat without compromising the safety of the national airspace 
system, and while attempting to mitigate the impacts on the 
system's efficiency. In the aftermath of 9/11, the FAA 
established the domestic events network, a continuous 24-hour-
a-day communication capability that includes over 100 agency 
partners. Through the DEN, agencies monitor ongoing activity in 
the national airspace system, along with their respective areas 
of expertise, to identify anomalies to determine whether they 
could pose a threat, and to coordinate operational responses to 
defeat any such threats.
    It is our first line of defense that provides ongoing 
information-sharing on a real-time basis. For example, FAA 
manages day-to-day operations of the national airspace system. 
Based on information provided by our air traffic controllers, 
our security watch officer may use the DEN to alert TSA and 
other partner agencies about aircraft that are flying where 
they shouldn't be, or aircraft that are not responding to 
controllers' attempts to contact them.
    In the vast majority of cases, the identified aircraft 
turned out not to be a security threat, but providing this 
early information via the DEN gives our other partners in the 
government the opportunity to input their area of expertise in 
order to provide a more complete picture of what may or may not 
be happening. The level of interest a flight receives would 
obviously be determined through shared information about the 
situation, triggering higher levels of scrutiny as appropriate.
    In addition to the DEN, the FAA supports the TSA in a 
variety of operational elements, including a newly named 
Freedom Center out in Herndon, Virginia. The Freedom Center is 
staffed with TSA personnel as well as representatives from 
various federal agencies, including the FAA, and we have air 
traffic controllers assigned to the facility's National Capital 
Region Coordination Center at the Freedom Center. If an 
incident arises, FAA personnel are immediately available to 
provide their expertise.
    In addition, should the situation warrant, TSA activates a 
telephone bridge with ranking officials throughout DHS. This 
permits DHS to make quick, comprehensive, decisive decisions 
about a particular security threat. Usually--and I say 
``usually,'' and it is almost always--as soon as that bridge is 
activated, the FAA administrator's representative, myself, will 
immediately be joined in the network discussion. In this 
manner, the merits of different options can be discussed and 
informed decisions made and implementation of those decisions 
can be done expeditiously. This means of communication has been 
very effective, and we will talk probably more about that a 
little bit later on.
    We also exchange technology with one another. The FAA 
supports TSA through this shared technology. For example, FAA 
provided the traffic situational display, the TSD, at key 
facilities operated by TSA and other partners. While TSD was 
designed by the FAA as an air traffic management tool, the 
system's ability to share situational information reduces the 
potential for miscommunication between our two agencies, and 
enhances our ability to make a rapid decision in a crisis 
situation.
    We are actively working with TSA now and in the short term 
and in the long term on new technological platforms which will 
support TSA's aviation security responsibilities. We are also 
cooperating with TSA on longer-range plans for the FAA's Joint 
Planning and Development Office, which is currently working to 
integrate security capabilities into the architecture for the 
next generation air transportation system.
    Finally, FAA and TSA partner on all the special events, 
most recently the United Nations General Assembly, the Super 
Bowl, and the upcoming World Series. These are just a few 
examples of the many ongoing interagency efforts designed to 
optimize our nation's security.
    In conclusion, the FAA is committed to supporting fully TSA 
in its efforts to improve aviation security. While we 
continually look to refine and improve these efforts, I am 
confident that both agencies agree that our working 
relationship is a strong one.
    This is the conclusion of my prepared statement. I will be 
happy to answer questions at this time. Thank you.
    [The statement of Mr. Hatfield follows:]

                Prepared Statement of Franklin Hatfield

                            October 16, 2007

    Chairwoman Jackson-Lee, Congressman Lungren, Members of the 
Subcommittee:I am pleased to appear before you this afternoon to 
discuss the role of the Federal Aviation Administration (FAA) in 
supporting the Transportation Security Administration's (TSA) response 
to aviation security threats and incidents. I want to assure the 
Subcommittee that FAA and TSA are aligned and work very closely 
together in terms of understanding and implementing our respective 
roles in responding to aviation security threats. The FAA supports TSA 
through a broad range of standing mechanisms, some of which are 
continuous in nature, and some of which are activated in response to an 
identified threat. FAA's mission is aviation safety and efficiency. FAA 
supports TSA's aviation security mission. Accordingly, we work with 
TSA, the Department of Defense (DoD), and other key partners to 
effectively respond to any potential threat without compromising the 
safety of the National Airspace System (the NAS) and while mitigating 
impacts of system efficiency.
    The FAA is uniquely qualified, trained, and equipped to operate the 
NAS and manage the nation's airspace. This is why FAA retains control 
of the airspace, even when security incidents arise. While other 
entities have missions and skill sets that are essential to responding 
to security threats, the FAA's understanding of the complexity of the 
NAS makes it uniquely suited to recognizing aviation threats and 
identifying the options available based on the facts of a given 
situation without compromising operational safety and unduly impacting 
NAS efficiency and the nation's economy.
    As security has become a greater focus of managing air traffic, and 
responsibility for transportation security rests with the Department of 
Homeland Security (DHS), it is helpful to understand the legislative 
history of why the FAA was given and retains operational control of the 
airspace. The FAA was created almost 50 years ago in 1958 to provide a 
centralized focus for aviation, replacing an ineffective system of 
diffused authorities that had evolved over time. Prior to 1958, the 
functions of the FAA were splintered, with the Civil Aeronautics 
Authority (under the Department of Commerce) possessing day-to-day air 
traffic control responsibilities; the Civil Aeronautics Board 
possessing accident investigation and safety regulatory 
responsibilities; and an Airways Modernization Board having the 
responsibility for planning and developing a system of air navigation 
facilities. On top of that, there was an inter-agency Air Coordinating 
Committee which reviewed all matters involving use of the airspace. 
This approach to managing the NAS was clearly inefficient and 
ineffectual.
    The legislative history of the Federal Aviation Act of 1958 (FAAct) 
makes it clear that Congress wanted one independent agency with 
``plenary authority'' over the nation's airspace. The FAA Act was 
intended to address two fundamental deficiencies in the Federal 
Government's aviation responsibilities, one of which was a ``lack of 
clear statutory authority for centralized airspace management.'' When 
it was unclear which civilian agency or the military had authority over 
air traffic, airspace and other aviation safety issues, the confusion 
led to aviation accidents, including mid-air collisions. The current 
statutory framework for the Administrator's airspace authority and the 
accompanying legislative history confirm that the FAA continues to be 
the sole authority for airspace management, air traffic regulatory 
authority, and use of the airspace.
    To more fully understand how FAA supports the security 
responsibilities of the TSA and other agencies on a daily basis and in 
response to a perceived threat, I will review the communications and 
technological initiatives that are currently in place and how they 
work. I will also briefly summarize the ongoing government exercises to 
ensure that all the requisite individuals throughout government know 
what is expected of them should a crisis arise.

Communications
    In the aftermath of 9/11, the FAA established the Domestic Events 
Network (DEN)--a continuous, twenty-four hour a communications 
capability that includes over a hundred agency partners. Through the 
DEN, agencies monitor ongoing activity in the National Airspace System 
(NAS) along with their respective areas of expertise to identify 
anomalies to determine whether they could pose a threat and to 
coordinate operational responses to defeat any such threats. The DEN 
enables all of the key aviation security stakeholders to connect the 
dots and ensure that responses reflect the risk-based decisions of the 
Government. It is a first line of defense that provides ongoing 
information sharing on a real-time basis. For example, FAA manages day-
to-day operations in the NAS. Based on information provided by 
controllers, our watch officer may use the DEN to alert TSA and other 
partners about aircraft that are flying where they shouldn't be or 
aircraft that are not responding to controllers' attempts to contact 
them. In the vast majority of cases, the identified aircraft turn out 
not to be a security threat, but providing early information to the DEN 
gives other parts of the government the opportunity to input their 
areas of expertise in order to provide a more complete picture of what 
may or may not be happening. The level of interest a flight receives 
would obviously be determined through shared information about the 
situation, triggering higher levels of scrutiny as appropriate.
    In addition to the DEN, the FAA supports the TSA in a variety of 
operational elements, including the Freedom Center (formerly known as 
the Transportation Security Operations Center (TSOC)) in Herndon, 
Virginia. The Freedom Center is staffed with TSA personnel as well as 
representatives from various partner agencies, including the FAA, which 
has air traffic control specialists assigned to the facility's National 
Capital Region Coordination Center (NCRCC). If an incident arises, the 
FAA personnel are immediately available to provide air navigation 
services related input to the interagency response decisions, including 
information on flight behavior (e.g., flight path and communication 
with air traffic control (ATC)); aircraft registration; pilot history; 
and critical safety factors such as the FAA's ability to safely divert 
the aircraft to alternate landing locations while mitigating potential 
threats. These personnel also are able to leverage the FAA's ATC 
capabilities to communicate with the suspect flight and provide 
security driven instructions.
    Should the situation warrant, TSA can activate a bridge telephone 
conversation with high ranking officials throughout DHS. This will 
permit DHS senior officials to immediately understand the situation at 
hand in order to make informed, coordinated decisions from the top for 
their immediate implementation. Usually, if this bridge is activated, 
the FAA Administrator's representative will immediately be joined to 
the network discussion. In this manner, the merits of different options 
can be discussed, informed decisions can be made, and implementation of 
those decisions can occur expeditiously.
    It is important to understand that the range of potential scenarios 
that may unfold means that a standard protocol or checklist is neither 
and optimal or practical solution. When a problem is identified, the 
facts of any given situation will dictate how the situation is handled 
and what decisions get made. For example, if it is discovered that a 
passenger enroute to the United States is on the no-fly list, the 
decision of where and/or whether to divert the flight could be impacted 
by the actions of the passenger in question. Is the passenger 
exhibiting signs of anxiety or restlessness? Or is the passenger sound 
asleep? The specific facts around the situation could lead to different 
conclusions, different decisions and consequently, different results. 
The important thing is that the conclusions and decisions are made at 
the appropriate level of government with all the players in the 
decision making process basing those decisions on the same coordinated, 
integrated, real-time information.
    These means of communicating have proven to be very effective in 
ensuring the level of response is appropriate to the threat at hand, 
while avoiding unduly impacting the nation's aviation system, which is 
already the most complex and busy system in the world, and creating 
unwanted economic consequences.

Technology
    In addition to effective inter-agency communication, new and better 
technology is also an essential tool in the war against terror. The FAA 
supports TSA through sharing technology. For example, FAA provides the 
Traffic Station Display (TSD) system at key facilities operated by TSA 
and other partners. While TSD was only designed to support air traffic 
management activities, the system's ability to share situational 
information reduced the potential for miscommunication or 
misunderstanding among agencies sharing information, which, past 
incidents have demonstrated, is essential in reacting to developing 
situations appropriately.
    We are actively working with TSA now both in the short and long 
term on new, shared and interoperable technological platforms, which 
will support TSA's aviation security responsibilities. We are also 
cooperating with TSA on longer range plans through the FAA's Joint 
Planning and Development Office (JPDO), which is currently working to 
integrate security capabilities into the architecture for the Next 
Generation Air Transportation System (NextGen).

Joint Planning/Coordination Groups
    The FAA and TSA also work in close partnership through a variety of 
interagency planning groups. For example, the FAA and TSA co-chair an 
interagency airspace procedures working group that meets every week to 
discuss, resolve and ensure that positive communication and 
coordination continues between all agencies. We co-chair an interagency 
working group working on improving the Government's ability to counter 
and respond to Man Portable Air Defense System (MANPADS) threats posed 
by terrorists. We partner on event specific task forces such as those 
established to protect National Special Security Events (NSSE) such as 
the recent UN General Assembly. These are just a few examples of the 
many ongoing inter-agency efforts designed to optimize our nation's 
security.

    Exercises
    Improved communication and technology is further enhanced by 
regular joint TSA-FAA as well as national level, Government wide 
exercises. These exercises, which are built around various threat 
scenarios identified by the Intelligence Community and/or real world 
events (e.g., the August 2006 UK terror plot), enable the FAA and TSA 
to explore and refine our cooperation at all levels ranging from policy 
decisions to tactical operations. The FAA and TSA senior officials 
regularly conduct exercises led by each agency's Administrators. The 
last such exercise, held earlier this year in April, enabled us to 
explore and significantly clarify how we would work together to 
effectively respond to a terrorist attack premised on the UK plot 
scenario, in which the terrorists intended to blow up flights from 
Heathrow bound for the U.S.
    In addition to these bilateral exercises, we participate in 
partnership with TSA in broader, Government wide exercises such as Top 
Officials 4 (TOPOFF 4), which is being conducted this week. TOPOFF 4 
will help the participating agencies identify gaps and strengthen 
cooperation on responses to terrorist attacks using Radiological 
Dispersal Devices (RDD) or ``dirty bombs''.
    In conclusion, the FAA is committed to supporting fully TSA in its 
efforts to improve aviation security. While we continually look to 
refine and improve these efforts, I am confident that both agencies 
agree that our working relationship is a strong one.
    This is the conclusion of my prepared statement. I will be happy to 
answer your questions at this time.

    Ms. Jackson Lee. Let me thank you, director, for your 
forthrightness, and really setting the tone for this hearing. I 
think as I look at Assistant Secretary Hawley, and I think he 
lit up when he said ``sharing situational information,'' which 
is key to all of our security.
    At this time, I will remind each member that he or she will 
have 5 minutes to question the panel.
    I now recognize myself for such questions, and as I do so, 
let me ask unanimous consent to place into the record several 
articles, ``The FAA Alerted on al-Qa'ida in 1998, 9/11 Panel 
Said,'' and that is dated September 14, 2005; ``Air Traffic 
Cell Towers: FAA Centers Communication Breakdown Should Worry 
Congress,'' October 14, 2007; and then ``Flyers Beware, 2007 
Said to be Worse Year for Delays, Report Says,'' September 26, 
2007. Without objection so ordered.\1\
    [See committee file.]
    Ms. Jackson Lee. Some would ask why I would raise these 
questions. As I listened to the director from GAO, I heard a 70 
percent compliance. I think it is important to first thank my 
subcommittee members because as fast as we can review and 
schedule hearings, we are attempting to be broad-based in our 
oversight over transportation modes, and we are methodically 
making our way through a number of transportation modes.
    Of course, aviation seems to draw the bounty of attention. 
But this is the reason why, and I will just read this: 
``According to the 9/11 panel, the American aviation officials 
were warned as early as 1998 that al-Qai'da could seek to 
hijack a commercial jet and slam it into a U.S. landmark, 
according to previously secret portions of a report.'' Those 
aviation officials were the FAA.
    And so, we have a calamity of occurrences here, and I think 
Director Hatfield made it very clear. We certainly didn't have 
situational exchanges prior to 9/11 in an effective manner, and 
I question whether or not we have situational exchanges now. I 
hope as we proceed in this hearing, I will be able to highlight 
for the record really the crisis in air traffic controllers, 
both in terms of personnel and equipment. This is a hearing to 
reflect on information, and I have already stated that I 
believe that the committees are certainly attempting to work 
together--TI and the Homeland Security. We recognize that we 
have joint responsibilities.
    So my questions are not in any way to undermine 
jurisdictional territories. But it is important--I can't seem 
to grab enough of the vocabulary--to speak to the need for 
coordination between TSA and FAA, and to really highlight that 
when there is a breakdown in an FAA tower--Memphis Center was 
the one that was referred to, and FAA controllers had to use 
cell phones--the security of America is in jeopardy.
    So I want to first begin with that focus between Director 
Hatfield and Assistant Secretary Hawley. That is, what is the 
status of situational exchange? What impact between the two 
agencies, TSA and FAA--what is the impact of what I think is an 
infrastructure problem, an upgrade problem for air traffic 
controllers as it relates to security? What kind of technology, 
what do we need to put in place to improve situational exchange 
and better exchange so that the pictorial scene that many of us 
saw in the movie that depicted 9/11, when there was certainly 
great heart shown by the air traffic controllers, but there was 
also great confusion, can projecting into the future be solved?
    Director Hawley?
    Mr. Hawley. Yes, I think first of all the real-time 
communication is extraordinary, as Mr. Hatfield mentioned. 
There are FAA air traffic experts at the Freedom Center, which 
is TSA's operations center. We have a variety of formal 
mechanisms and informal mechanisms that go up and down the 
chain. I think one of the most important things to mention is 
that we have shared intelligence analysis sessions at which Mr. 
Hatfield is invited, along with the administrator and deputy 
administrator of the FAA, with me and my deputy to go over all 
the intel at the highest classification level to make sure that 
we are all on the same page, so that if something happens, we 
don't have to explain what is going on; that we maintain real-
time awareness on the intel front, and then we back that up 
with a real-time conversation when something is happening.
    It is a well-practiced thing. We do formal drills, but we 
do so many real world situations that overlap security and 
safety. For instance, if we have a security concern about a 
flight and we are interested in a particular routing, Mr. 
Hatfield with the FAA will think about weather, will think 
about fuel load, will think about impact on air traffic in that 
area. And the two really have to go hand in hand, and we have 
to have the same information and real-time communications. I 
think that is the case.
    Ms. Jackson Lee. I am going to suspend and recess, and it 
is in the middle of my question--Mr. Hatfield, you have not 
answered, and Ms. Berrick--so that members could go vote. There 
are a series of votes. Rather than go until the end, we will 
suspend and the committee will be in recess, and we will be 
back. We apologize to the witnesses, and I will continue to 
hear from you, Mr. Hatfield and Ms. Berrick.
    The hearing is in recess.
    [Recess.]
    Ms. Jackson Lee. The hearing will now come to order. Thank 
you.
    Mr. Hatfield, if you remember, in your testimony you 
mentioned the situational exchange. Mr. Hawley has indicated 
that there are some preliminary systems in place. I want to be 
more pointed. I think we are owed a great deal more affirmation 
and, if you will, detail in this idea of exchanges. So in your 
response, you might want to respond how the FAA is working with 
TSA in terms of the situational exchanges, which I think are 
very important. I would also like you to answer this question 
of the existence of infrastructure and the level of 
sophistication of that infrastructure with respect to air 
traffic controllers that relates to security.
    Mr. Hatfield. Okay, certainly. As I said in my opening 
statement, TSA and FAA work very closely together. Let me 
address that to begin with. In my 40 years as an air traffic 
controller both in the military and the FAA, the primary 
problem when you encounter a security issue is the common 
situational awareness with those other people you are trying to 
talk to.
    On September 11, 2001, I was in New York City as the Air 
Traffic Division Manager for the entire east coast. During 
those first few hours, our major problem was trying to figure 
out what it was we were dealing with. And then when we thought 
we had an idea, reaching out to the Department of Defense or 
another government agency, and then trying to share with them 
our thoughts, and then even to find a way to be talking about 
the same thing.
    So on that morning, a telephone conversation began. It 
started out with me from eastern region to the FAA headquarters 
telling them what was occurring in New York, what my thoughts 
were, where we were tracking planes, what we thought the 
situation was. We slowly added other FAA facilities around the 
country to that. So after about 1 hour, almost all of the FAA 
was hooked up. But it became apparent that there were other 
people that had a different perspective on what was occurring, 
specifically the Department of Defense. So we said, let's pull 
the Department of Defense up on this telcon with us, from a 
security perspective, terrorism, obviously the FBI; let's pull 
the FBI up.
    In essence, chairwoman, that telephone has not been hung up 
since September 11. It has been formalized in the domestic 
events network. It is 24/7. There are over 100 government 
agencies continuously that monitor that telcon from an aviation 
perspective, everyone from the Pentagon police force to the 
Capitol police, 100 government entities.
    As a direct result of that real-time instantaneous 
communication, let me give you a scenario. A scenario might be 
that Albuquerque Center calls us up and says, ``Hey, we are no 
longer talking to United 123, and he is deviating off-course.'' 
Instantaneously, the TSA watch-stander says, ``All right, let 
me give you what information we have on that particular 
airplane.'' The Department of Defense says, ``We are going to 
put some jets at runway alert right now.''
    So all of the various elements in the federal government 
are talking about the same airplane, the same place in time, 
with the same identical information. To me, that is the biggest 
step forward that we have taken in security since September 11.
    Ms. Jackson Lee. My time is far spent. Let me just quickly 
have a quick question. Did you act quick enough on 9/11 and are 
you acting quicker now?
    Mr. Hatfield. It is very difficult for me to judge. Did we 
act quick enough or not quick enough? Did we act quicker than 
anyone would ever have expected us to? That, to me, is 
something that it would be very difficult for me to quantify. 
But I can absolutely say, we are acting light-years quicker 
today than we were on that day and time.
    Ms. Jackson Lee. Well, let me let you think about it.
    Ms. Berrick, what do you think about this situational 
exchange, and if you have any reflection on the 9/11 question, 
or more importantly the technology, and where we are today with 
the air traffic overload that seem to have?
    Ms. Berrick. Sure. With respect to technology, we haven't 
looked at that particular piece, but we did look at situational 
awareness and how TSA and FAA and a lot of other agencies and 
departments work together when there are security threats 
onboard an aircraft while it is in flight. Generally, we found 
that the coordination worked very well. The agencies were 
communicating. The DEN network has been up and running since 9/
11.
    We found a couple of issues where we made recommendations. 
They were related to the agencies' having policies and 
procedures for coordination, because although coordination was 
working well, a lot of it was based on the individuals that 
were in place. They knew each other. They knew how to work 
together and to communicate, but not all of the agencies had 
documented these procedures down so if somebody new came in, it 
would be apparent how to act in certain situations. So we had 
recommendations that agencies document and share these 
procedures.
    And also related to exercises, that the agencies have in 
place exercises where they go through different scenarios and 
talk about how they would deal with these different scenarios, 
which is very positive and we said that that was a very good 
step. It was follow up from some of these exercises that we 
felt more could be done in terms of the agencies' identifying 
what the action items were and actually following up on those.
    But overall, we found that coordination worked very well.
    Ms. Jackson Lee. I will follow up with you. I thank you.
    Let me acknowledge the presence of Mr. Markey of 
Massachusetts.
    And now let me yield to Ms. Clarke, a member of the 
committee, at this time for 5 minutes.
    Ms. Clarke. Thank you very much, Madam Chair.
    I want to direct my questions to Assistant Secretary 
Hawley. It is good to see you back here again. I probably boast 
of one of the most diverse districts in the country. My home of 
Brooklyn, New York contains more people from more countries 
than just about anywhere else in America. This means, of 
course, that many of my constituents travel frequently, making 
great use of New York's busy airports.
    When I travel home each weekend, one of the complaints 
about travel which I hear most is that many people are 
routinely delayed or detained each time they try to fly. 
Earlier this year, the department initiated a DHS TRIP program, 
in part to address these exact types of complaints.
    Can you let me know whether TSA has been able to 
successfully transition into using this new program from 
previously having run its own redress process within the 
agency? And was it difficult for TSA employees to transition to 
the new system?
    Mr. Hawley. It is actually a very smooth transition in that 
we are using the same technology for DHS TRIP as we have for 
TSA Redress. So the process is very similar. The key point that 
you raise is that regular travelers who have names similar to 
those on a watch list are sometimes inconvenienced when they 
try to check in, say, at home or at a kiosk.
    The solution to that is the Secure Flight program that I 
mentioned in my opening. When that comes into place and takes 
the watch list matching inside the government, that problem 
should virtually go away. Until that time, we do depend on the 
airlines' systems to be able to say, ``That is the person who 
went through DHS TRIP.'' So we provide that information to the 
airlines, but the issue is for the airline to be able to use 
that in its boarding process.
    Ms. Clarke. Has using DHS TRIP helped improve the 
efficiency of security screeners at airports, allowing 
officials to spend less time on misidentifications and more 
time looking for actual problems?
    Mr. Hawley. I think it has definitely helped with 
passengers who have one face to DHS--I came into the country, 
and was that a Customs and Border Protection issue or was it a 
TSA issue? So now there is just one place to go. To the extent 
that we resolve the issues up front, it saves everybody time--
customer, airline, and TSA. So the ultimate answer is Secure 
Flight.
    Ms. Clarke. So since the implementation of DHS TRIP, have 
you noticed any improvement in the overall travel experience 
for passengers? If so, has TSA done any analysis on this? Or do 
you have any anecdotal evidence?
    Mr. Hawley. I think it clearly has helped a number of 
people, but it is too sporadic for me to really say it solved 
the problem. It is an effort to communicate with the public to 
make it easier for us to do what we can with the current 
system, but honestly, until we fix the system and get Secure 
Flight in place, it will be patchy at best. Some airlines are 
able to manage it quickly; others, it is more of a challenge.
    Ms. Clarke. And TSA has probably the most experience with 
the DHS TRIP of any agency within the department. Based on your 
experience, has TSA benefited overall from using DHS TRIP? And 
do you feel that other government agencies outside of DHS that 
routinely perform screening of the public could benefit from 
this or similar programs?
    Mr. Hawley. Yes, I think that is a very good point, that 
with the visibility of watch list programs, that it is 
important to the public to be able to quickly resolve 
misidentifications. I think the idea of one-stop shopping is an 
excellent idea and we certainly have learned from that.
    Ms. Clarke. Thank you.
    Ms. Berrick, do you feel DHS has benefited from DHS TRIP? 
And is it a program from which other government screening 
agencies outside of DHS could benefit?
    Ms. Berrick. We actually are looking at that right now as a 
part of the 9/11 mandate. GAO was asked to look at how Secure 
Flight, using their redress process, how that is working and 
will they be able to quickly correct misidentified and 
recognize misidentified passengers. So we don't have any 
conclusions yet. We will be reporting on this in January of 
2008.
    Ms. Clarke. Thank you very much.
    Thank you very much, Madam Chair.
    Ms. Jackson Lee. Let me yield now to the distinguished 
member from New Jersey, Mr. Pascrell, and a beloved former 
member of this committee.
    Mr. Pascrell. Thank you, Chairwoman Jackson Lee. It is 
great to be back. Thank you for letting me sit in on this 
subcommittee, which I am not officially a part of.
    While I was away from this committee, Madam Chairwoman, in 
January we put our heads together and wrote a letter, drafted a 
letter to Mr. Hawley, the assistant secretary for TSA. We 
expressed our deep concern about a number of administrative 
failings and security vulnerabilities at Newark Airport.
    Among those concerns were a series of articles that were 
written in the Star-Ledger, including a report on October 27, 
2006 that showed failure by TSA screeners in 20 of 22 screening 
tests--that is interesting, I have to read things in the paper 
to find out what is going on these days--as well as violations 
of standard operating procedures. In the letter, we asked a 
series of questions about: Have you been able to determine the 
causes for the poor performance at Newark?; Were the policies 
and protocols followed at Newark?; Have subsequent covert tests 
at Newark indicated any changes in the level of performance?
    You sent a response back to that letter in March, addressed 
to me, ``Dear Congressman Pascrell,'' et cetera. Your response 
did not really address your answer to any of these very 
specific questions. So I would ask that you answer this 
committee about TSA's response to this issue in regards to 
these questions which were asked. That is my first question.
    My second question will be on the subject of whistleblowing 
protection.
    Mr. Hawley?
    Mr. Hawley. Yes, sir. On the covert testing results, we 
have done classified briefings on those, and would be happy to 
do one for you as well. That is the forum to discuss the 
specific issues.
    Mr. Pascrell. You don't think the public has a right to 
know at least some very basic principles about the findings at 
any particular airport? Why must everything be the subject of 
classified information? If it was classified, and if I found it 
in the past to be classified, I could find some level of 
agreement. I do not. I think the public needs to know, has a 
right to know what is going on in any airport in this country. 
Don't you agree with that?
    Mr. Hawley. I think on the policy level, yes. As to 
specific vulnerabilities, no. However, I think the points 
raised are good ones. Let me address them without getting into 
the classified part.
    Mr. Pascrell. Sure.
    Mr. Hawley. We fundamentally changed the way we look for 
improvised explosive devices. We moved from training and 
testing of completely assembled bombs, which are a lot easier 
to find, to go down to the small component parts which are, for 
instance, like detonators that would be the size of my pen cap. 
So we went to a much, much, much more difficult regime of 
training and testing. And then we have since then deployed 
5,800 of our covert testing kits. We literally have 2,500 tests 
a day, covert tests a day, 2,500 a day. In that, we look to see 
how we can challenge the system. We use people from the inside 
of the system who know its vulnerabilities, to test it and 
probe it and use it as a training example.
    So I do not have a problem. If the results were the ones 
that you describe--and I am not going to confirm or deny that--
but if they were accurate, it would be evidence of the covert 
testing program. When you get to the whistleblower thing, I 
think it raises another very important point, which is we need 
to be open and transparent with our workforce about our 
failings, about our vulnerabilities, so we can fix them. And if 
there is a concern about harassment or intimidation up the 
chain of command, that is a security issue because it covers up 
things that you need to know about.
    Mr. Pascrell. Before you answer the second question, very 
briefly, are you saying that there have been since the first 
tests in 2006, there have been similar screening tests of 
employees at the Newark Airport, and you have results of those 
tests?
    Mr. Hawley. I don't know specifically. I know they are 
doing these covert tests that I just mentioned today at Newark 
and every day.
    Mr. Pascrell. Okay. I want to get to the second part. Thank 
you.
    The report of screening failures at Newark Airport include 
the troubling news the Newark Airport personnel, including 
TSOs, the officers there, were interrogated by federal agents 
who were investigating the source of these leaked test results 
that reflected poor performance by the Newark screening staff 
in 2006. My impression at that time was they were more 
concerned about the whistleblowers than the deficiencies. That 
was my perception. I could be wrong. Right, Mr. Hawley? Or I 
could be right.
    Mr. Hawley. Both are possible. Yes, sir.
    Mr. Pascrell. Both possible. Okay.
    These screeners and security personnel are our first line 
of defense against terrorism. They are the people on the ground 
who witness first-hand every day the implementation of the 
security procedures we put in place. Their observations, the 
information we gather from them can be an invaluable resource. 
But it seems clear that TSA is more interested in silencing 
them in the interests of not being embarrassed, than they were 
in listening to their own employees.
    Just today in the Star-Ledger, in an entitled editorial, 
``Give Airport Screeners Whistleblower Protection,'' they cited 
very specific examples--Air Marshal Robert MacLean, very 
specific examples in this editorial brought forth by a 
reporter, Ron Marsico from the Star-Ledger. It would seem to 
me, don't you think they should be protected? Don't you think 
employees should be protected?
    Mr. Hawley. Yes, no question.
    Mr. Pascrell. How are we going to get to that point?
    Mr. Hawley. We have those protections today. They are 
slightly different than under the Whistleblower Protection Act. 
I believe we said before Congress in other situations that we 
would not oppose changing to the other system. I agree 
wholeheartedly with the premise of your question, which is 
workplace intimidation, particularly in the security field, is 
a sickness, a vulnerability, and has to be stopped.
    Mr. Pascrell. So we have come a long way in the last few 
months, then, in implementing this.
    Mr. Hawley. No. I think the issue is that if it is 
classified information that is given out publicly, that kicks 
it into a different realm in terms of investigation than merely 
a so-called ``leak.''
    Mr. Pascrell. Are you familiar with the Robert MacLean 
case?
    Mr. Hawley. No.
    Mr. Pascrell. Robert MacLean was an air marshal. He was 
fired for alerting the public that the TSA was going to save 
money by removing marshals from the very kinds of flights 
targeted by the 9/11 hijackers. He was fired for that. You are 
not familiar with that case?
    Mr. Hawley. No.
    Mr. Pascrell. Mr. Hatfield, are you familiar with that 
case?
    Are you familiar with that case, Ms. Berrick?
    Ms. Berrick. No, I am not.
    Mr. Pascrell. You are not familiar with that case. Could 
you get familiar with the case and get back to us about what 
your perception is of this? Because this, to me, is 
unacceptable. I would hope the chairwoman would also agree this 
is unacceptable.
    Two security training officers in Buffalo, New York were 
bounced for telling superiors that bags were being put on 
planes without proper explosive screening. An acting assistant 
federal security director was ousted after she complained that 
her boss was illegally flashing an assault rifle at an Oregon 
airport. You are not familiar with any of those cases?
    Mr. Hawley. No, sir.
    Mr. Pascrell. Well, I wasn't making these up.
    Mr. Hawley. No. I appreciate that.
    Mr. Pascrell. Well, where did they come from? I mean, you 
are not familiar. You are supposed to know these things that 
are violations and deficiencies within the system itself. You 
know, I don't agree--and I am sorry the ranking member, my 
friend, Mr. Lungren is not here, from California--we can't 
accept a half-a-glass. That is not acceptable when it comes to 
the safety of human beings. That is not acceptable. We are not 
talking about other issues. We are talking about the protection 
of those folks who choose to use our airlines. I hope someday 
we will be talking about those who choose to use our mass 
transit system, which 50 times more people use that every day 
as well.
    I thank you, Madam Chairlady, for your indulgence, and I 
thank you, Secretary Hawley.
    Ms. Jackson Lee. We have been somewhat lenient with our 
members. We know that it is difficult to hold these hearings, 
and there are a lot of concerns that members have. I thank Mr. 
Markey for his indulgence, and now I am pleased to yield to the 
distinguished gentleman from Massachusetts 5 minutes for his 
questioning.
    Mr. Markey. Thank you, Madam Chair.
    Mr. Hawley states in his testimony that, ``TSA will build 
upon established programs to comply with the cargo screening 
requirements of the law implementing the recommendations of the 
9/11 Commission.'' This is very troubling because TSA's 
established program, such as Known Shipper, have been widely 
criticized for failing to adequately protect the American 
people from another 9/11-style attack.
    The purpose of the air cargo provision in the 9/11 
Commission Act is to fundamentally change the status quo and 
overhaul TSA's established programs. The status quo is 
unacceptable. I have a pile of reports here that point out the 
problems with TSA's established cargo security programs. GAO 
reported in October of 2005 that TSA's air cargo policies have 
significant problems.
    Today, GAO's testimony identifies some of the same cargo 
security gaps that it uncovered 2 years ago, such as TSA's 
failure to complete assessments of air cargo vulnerabilities or 
critical assets, which GAO believes undermines TSA's ability to 
focus its resources on the most critical security needs.
    My question you first, Ms. Berrick, is has TSA completed 
assessments of air cargo vulnerabilities and critical assets 
such as cargo facilities and airports?
    Ms. Berrick. The report you are referring to was our review 
of domestic air cargo security. We have since done an 
additional report that we issued in April of this year on in-
bound cargo coming into the United States. So we have looked at 
both sides of this, and CBP also plays a role on in-bound 
cargo.
    What we found most recently was TSA is continuing to do 
threat assessments. They are doing vulnerability assessments of 
air cargo facilities. They haven't yet completed these as of 
the date that we did our work in April of this year. So we made 
a recommendation that TSA move forward and work to complete 
those assessments.
    Mr. Markey. So they have not completed them. Is that what 
you are saying, as far as you know at this point as you sit 
here, Ms. Berrick?
    Ms. Berrick. As far as I know, up to the date that we did 
our work and issued our report in April, yes.
    Mr. Markey. Okay.
    Mr. Hawley?
    Mr. Hawley. Well, I think the bottom line is I think we 
have closed the gap that may be perceived between what you 
think on air cargo and what we do, in that we have moved to 
close these vulnerabilities. On the Known Shipper program, I 
would just like to specifically hit that because I do know that 
in the law it specifically calls out and says that you cannot 
count Known Shipper as part of what is in the bill. We accept 
that. We understand that.
    The reason I had in there the part about building on the 
existing was more about the K9 Program and the inspectors, and 
that we don't feel like we should pull Known Shipper out, but 
we are in agreement with, I believe, you, and certainly what is 
reflected in the law here, is that in the system of screening 
that is required under the law, that under the definition it 
makes that clear.
    So I just want you to know that we are under no confusion 
that we cannot accomplish what is in the law by relying simply 
on the existing Known Shipper.
    Mr. Markey. I understand that. But in your testimony today, 
Mr. Hawley, you say TSA will build upon our established 
programs, air cargo security regulations, security directives--
the Known Shipper management system, and so, again, by using 
that terminology and giving that kind of direction to your own 
employees.
    Mr. Hawley. We are just saying we are not going to pull it 
out. It doesn't make sense to pull out that level of security. 
It is not enough by itself, but it does add some value and 
therefore should be retained.
    Mr. Markey. All right. Let me move on. The GAO reported in 
April of this year that air carriers in some foreign countries 
inspect air cargo for potential weapons of mass destruction 
prior to loading the cargo on U.S.-bound flights. But TSA and 
Customs and Border Protection does not require such screening 
for WMDs for flights heading to our country.
    Mr. Hawley, is it still the case that TSA does not require 
foreign airlines to screen their cargo bound for our country 
for nuclear bombs and other weapons of mass destruction?
    Mr. Hawley. They have screening requirements similar to 
what we have in the U.S. I don't believes our specifically call 
out weapons of mass destruction. You are talking about 
radiation portal monitors, probably. But in the course of the 
inspection for the regular TSA assignments, anything that would 
qualify as a WMD would certainly show up.
    Mr. Markey. Ms. Berrick, do you believe that TSA should 
require that such screening for nuclear bombs be done?
    Ms. Berrick. We didn't recommend that TSA require that. 
What we recommended was that TSA consider some of the practices 
that foreign countries were using. One of those was the use of 
radiation detection equipment to screen cargo. Another practice 
was more stringent verification of known shippers. Some 
countries have a very rigorous process for verifying known 
shippers before they recognize them as ``known.'' Some 
countries are using technology more than in the United States 
to screen air cargo.
    So because of these practices, we recommended to TSA that 
they systematically look at what other countries are doing to 
see whether or not they could apply some of those practices in 
the U.S.
    Mr. Markey. Well, let me just say this. I am very concerned 
on an ongoing basis, knowing that al-Qa'ida has placed nuclear 
weapons at the top of their terrorist target list, along with 
aircraft. I just want to make this point, Mr. Hawley, that when 
Congress passed the language implementing the recommendations 
of the 9/11 Commission, it did so with an intention in the 
cargo screening area to fundamentally and dramatically change 
the way in which business was being done.
    Congress did not intend for these regulations to have 
tinkering around the edges. It wanted a fundamental change that 
put in place the kind of air-tight security that Americans 
expect when they are boarding planes. My concern is in reading 
comments in the newspapers and even in looking at some of the 
language in your testimony, that there has not yet been a full 
appreciation for the extent to which I, and I think I can speak 
for the chair of this subcommittee and other members, are going 
to be paying very close attention to the kinds of programs that 
you put in place.
    Mr. Hawley. Thank you. I would just like to say to you 
personally, so there is no doubt, we do understand and worked 
with the committee, and I truly appreciate the opportunity to 
work with the committee during drafting. We fully expect and 
intend to meet the requirements under the law passed by the 9/
11 Commission. We do understand the changes that are included 
here. We are also grateful for the 170 K9 teams added in the 
supplemental. We are continuing to add security for air cargo. 
Let there be no doubt, we intend to fully meet these deadlines.
    Mr. Markey. Well, again, as the author of the language on 
the air cargo issue and on the screening for nuclear weapons on 
ships coming into the United States, I can tell you that I, for 
one, am going to watch very closely to make sure that you have 
put in place the kinds of protections which this law has passed 
to ensure would be done at the Department of Homeland Security. 
I look forward to working with you in the months ahead.
    I want to thank you all. I want to thank Ms. Berrick and 
GAO for the excellent work they have done for the committee.
    I yield back the balance of my time.
    Ms. Jackson Lee. I am going to offer a second round, but 
let me thank Mr. Markey for the line of questioning. I 
appreciate the witnesses in the manner in which they have 
received them.
    I am going to follow up on his line of questioning, because 
I want him to know that this chairwoman joins him in working to 
monitor the work that he has led on. Here is the question, and 
don't think, Assistant Secretary Hawley, that I am not mindful 
of the deadlines that have been put in place, in fact, the 
compromises that have been put in place on air cargo 
inspection.
    But let me ask you today, do we inspect 100 percent of air 
cargo today, Tuesday, October 16, 2007? Does America do 100 
percent today as we speak?
    Mr. Hawley. We are very close to it, in that we have the 
airlines requirement that has been out there for a long time. 
It is a classified number that you know what it is. So there is 
that as the basic starting point.
    Ms. Jackson Lee. But I think, and I will let you answer, do 
we do 100 percent today?
    Mr. Hawley. We are pretty close in that--
    Ms. Jackson Lee. But not 100 percent?
    Mr. Hawley. I don't want to say here today we are meeting 
100 percent. We have 3 years to meet the 100 percent under the 
new law.
    Ms. Jackson Lee. I understand that.
    Mr. Hawley. But the reason I am optimistic on that is today 
we screen 100 percent of freight at the small airports to the 
same standard as checked baggage, so that is 250 airports right 
off the top. We take what the airlines screen, and then we have 
the equivalent of 100 K9 teams dedicated to cargo that go 
specifically at the freight that is not cleared by airlines, 
and that is at the bigger airports. Then we have additional 
security measures in place for items that used to be so-called 
``exempt,'' but used not to have specific security measures to 
them that now have those added on.
    So from the security point of view, we have very definitely 
closed down on vulnerabilities that may have existed a year or 
more ago, and that does not take away from the fact that we 
still have more to do and look forward to doing that.
    Ms. Jackson Lee. Let me ask unanimous consent that the 
hearing be allowed to continue past the time of the losing of a 
quorum. I ask unanimous consent. Do I hear any objection? I do 
know that the ranking member had intended to return and I am 
trying to be respectful to see if that opportunity occurs. I 
thank the committee.
    Let me just state for the record that there is not 100 
percent screening, and I do recognize what the 9/11 bill, H.R. 
1, allowed you. The reason for making that point is the basis 
of this hearing. We are not where we need to be as the 
traveling public continues to travel. So I am obviously trying 
to create a sense of urgency that as we speak today, we have 
the traveling public flying on commercial airlines and there is 
not 100 percent screening, which gives us the added sense of 
urgency, one, to expedite even sooner than the 3-year 
timeframe, which really was a compromise; and two, to recognize 
the need for this hearing and the importance of collaboration 
between the agencies.
    Let me continue my line of questioning to ask again, 
assistant secretary, whether or not one of the issues that Mr. 
Markey is made is a technology question, particularly as it 
relates to nuclear. We have said over and over again to many of 
his inquiries that it is really questionable whether we have 
the technology or questionable whether or not we are 
determining whether or not, and this has to do of course with 
the ship, but radioactive material, for example, that could be 
shipped or could be transported by airlines. It could be in a 
suitcase.
    My question to you, because this is so significant, are you 
engaged with stakeholders in the private sector to solicit that 
expertise to be of help in developing technology that can speed 
along the 100 percent air cargo inspection that we are looking 
to? Since we have engaged previously with the private sector, 
where are we in making sure that we are astutely looking for 
new technologies to assist in moving quickly on 100 percent air 
cargo inspection?
    Mr. Hawley. The process for that is the Science and 
Technology Group at DHS, which has responsibility for new 
technology. So they are very heavily engaged with that, as is 
the DNDO, the nuclear office at DHS. So they have 
responsibility for the new technology. But I do have to add 
that the screening that we do for the regular cargo, as well as 
for checked baggage, is also good security for anything, even 
without the radiation monitor, that would represent a threat of 
any kind.
    So I think we are all striving for more and better 
technology, but the existing process is a good security system 
that would pick up threats of any kind.
    Ms. Jackson Lee. Well, could I ask you on the record to be 
diligent. We have just asked you and Mr. Hatfield and the FAA 
administrator to coordinate. May I ask you to engage your 
colleague, because it has come to our attention that that is a 
very slow process, and that technologies from the private 
sector are moving more slowly than they should. That is why I 
wanted to have on the record that we in fact today do not have 
100 percent screening of cargo.
    Let me quickly ask these questions of Mr. Hatfield. Would 
you go over for us--again I use the term ``quickly,'' and I 
apologize because there are a series of questions that I have--
the general guidelines that the FAA adheres to in responding to 
a terrorist-related incident? And let me appreciate your 
service on 9/11. I could not imagine not being in your shoes 
what that experience was about, or what it was like, rather.
    I will say that we need to do better in hindsight, and you 
just offered an additional thought for this committee, is the 
Department of Defense, because we believe in jurisdiction, but 
we also believe in security. And you have said you added them 
at a later time, and they were certainly a strong component of 
that day. We thank you for your service. I would like to know 
what guidelines you engage in now if a terrorist incident, you 
needed to respond to that.
    Let me ask Assistant Secretary Hawley what and how often do 
you engage with the FAA in tabletop exercises addressing in-
flight security? One of the issues, of course, is to make sure 
that we are addressing security issues, as opposed to 
unfortunate missteps by passengers who may travel in-flight. I 
wanted to know what kind of training do we have addressing in-
flight security.
    Ms. Berrick, you have been kind with respect to how far TSA 
has gone. You said 70 percent, but I am still uncomfortable 
with your answer in terms of whether or not the situational 
exchanges are enough. I will ask you the question. Are we at 
100 percent perfection? Because as you well know, you have 70 
percent, if you will, success, but 30 percent vulnerability. 
That is a terrorist act.
    So I would really like you to be pointed in your answer. I 
think you have on the record that they have made strides, but 
are we at a point where we are at a sufficient level of 
communication? Is it quick enough, frankly? Because terrorist 
acts don't make appointments, and they don't move slowly.
    So if you would, Mr. Hatfield, answer the questions that I 
have just raised with you, and Mr. Hawley.
    Mr. Hatfield. Certainly. Your question is what have we done 
to basically document the procedures and the guidelines that we 
use during a crisis. Our primary tool is the domestic events--
    Ms. Jackson Lee. Within limits, can you address what are 
the guidelines? How do you move forward in responding to a 
terrorist-related incident, obviously, without venturing on 
classified information?
    Mr. Hatfield. I know on the surface that appears to be a 
simple question, but it is not. It is very complex. Any 
situation that we encounter starts out, the vast majority, as a 
nonterrorist threat. It starts out with an anomaly that is 
being observed usually by an air traffic controller, or a piece 
of information that TSA has passed to us about a particular 
airplane.
    The protocols for working aircraft from hijacked aircraft 
to aircraft with lost radios, all of those used to be in a lot 
of different locations. They have all been consolidated and put 
into a training package which is obviously a very sensitive 
thing to be discussing openly. Those procedures are 
memorialized, but a typical scenario develops from one where we 
might have a no-fly individual onboard an aircraft. 
Immediately, the DEN is engaged with the FAA-DOD-TSA.
    At the same time, concurrent with that, Kip Hawley and I 
are on a telephone personally with one another and our staffs. 
He is telling me what he knows about the airplane, and I am 
telling him what I know about the airplane. And we make a 
decision. Are we going to divert the aircraft? Are we going to 
allow it to continue to its destination? Are we going to turn 
the airplane around? Are we going to send it to another 
country?
    It is a number of variables that are very difficult to 
package into a set of guidelines. Is the person asleep? Is the 
target individual on the aircraft awake, agitated, walking 
around? All of those variables are weighed, and a decision is 
made collectively between TSA, FAA, and if necessary, DOD, as 
to the appropriate course of action. Those procedures from the 
domestic events network are documented. Training has been given 
to the air traffic controllers, in follow up to an earlier 
question or observation that you had made. Computer-based 
training, CBI, was administered in February of this year. Round 
two of that training will be administered in November of this 
year.
    So I hope in some way I am addressing your question.
    Ms. Jackson Lee. Let me thank you. I am going to hold. We 
are in our second round.
    Ms. Clarke, would you care for a second round?
    Mr. Pascrell?
    Excuse me, I will be in a third round, so let me ask Mr. 
Hawley and Ms. Berrick to hold those questions that I gave.
    Mr. Hatfield, you have given me a fair answer. Thank you.
    Mr. Pascrell?
    Mr. Pascrell. I would like to ask a question about the 
airport perimeter security, if I may. GAO identified 24 
performance expectations at TSA, of which 17 were generally 
achieved and seven were rated as generally not achieved. The 
performance expectations that were generally not achieved 
included the failure to establish standards and procedures for 
effective airport perimeter security.
    In 2006, it was reported at Newark Liberty Airport, an 
inebriated passenger briefly got onto the tarmac by improperly 
walking down a jetway staircase after arriving from Puerto 
Rico. In addition, two homeless people wanted for parole 
violations in Georgia were able to enter the airport secure 
area by lifting the bottom of a chain link fence and getting 
through that way.
    These are just two reports at one airport which simply 
highlight the vulnerability of our nation's airports to 
intrusion through breaching the perimeter. The Port Authority 
of New York and New Jersey has tried to address this 
vulnerability through a $138 million system that would surround 
Newark Liberty International, JFK, LaGuardia and Teterborough 
Airports with a mix of radar, infrared sensors, video motion 
detectors, closed-circuit TV monitors, and fiber optics as 
well.
    This system would be designed to detect human motion and 
help prevent potential intruders from breaching the perimeter 
of the airport. This system is modeled after others already in 
use in Baghdad and sections of the Israeli border. However, 
apart from the efforts of the port authority, as well as a 
similar system at Logan Airport in Boston, I am not aware of 
any other perimeter defense system at any other airport in the 
United States.
    So my question to you, Mr. Secretary, is if any other 
airports have a similar perimeter security system in place? 
More importantly, where is TSA's plan to address this clear 
vulnerability to the integrity of our nation's airports?
    Mr. Hawley. The issue of perimeter security is addressed 
individually at each airport with their airport security plan, 
where it does specifically address that. I think what you are 
getting at is the issue of the economic model that we are 
operating under, which is the airports themselves are 
responsible for the costs, and it is a shared responsibility on 
security, and that falls in their bailiwick. The federal 
government picks up the cost of the security operations in 
terms of what you normally see at the checkpoints and some 
other things.
    Mr. Pascrell. Well, what about the model? Shouldn't that 
come from the federal government as to what are the minimum 
requirements needed around each of these airports?
    Mr. Hawley. Yes.
    Mr. Pascrell. This is a very serious situation.
    Mr. Hawley. Yes, and that is the case. When you get to the 
more advanced type of equipment, as you are describing, then 
cost does become an issue. I should just say the port authority 
is a fabulous partner in this, and we are working with them 
very closely on all the security matters. The major thing is we 
need to have layers. It is not just the fence. It has to be 
layers all the way through, and you have to have overlapping 
systems where you are not just building a Maginot line, so to 
speak.
    So I would rather have a number of different layers 
conducted by different people with different systems, than to 
just place all my bets on one.
    Mr. Pascrell. Well, how many airports have these?
    Mr. Hawley. This kind of a system?
    Mr. Pascrell. Yes, of the major airports.
    Mr. Hawley. Well, I think there are probably components of 
them. I am not aware of actually what the one you are 
describing is in all of its attributes, but I think the $138 
million you mentioned sounds to me like I would be very 
surprised if any airport has on its own put out that money for 
that kind of a system.
    Mr. Pascrell. So in other words, if the port authority put 
up this money, if other airports don't have that money, then 
they just will not get the perimeter----
    Mr. Hawley. Well, they may be not be able to get that 
particular one in that particular configuration, but what we 
would require, and you just said it a minute ago, was that we 
require the minimum configuration and we have to deliver the 
security that says, just as you describe, that does not let 
terrorist acts occur in this airport.
    Mr. Pascrell. Is that public information?
    Mr. Hawley. The airport security plan is not public 
information, but is something clearly we would be most welcome 
to brief with you anytime.
    Mr. Pascrell. Okay.
    Thank you, Madam Chairlady.
    Ms. Jackson Lee. The gentleman's time has expired. Thank 
you, the few times that we would say that. Thank you for your 
questions.
    Mr. Perlmutter of Colorado. I yield the gentleman 5 
minutes.
    Mr. Perlmutter.  Thank you. I appreciate your letting me 
ask questions here at the end.
    I will start with something that Mr. Hatfield mentioned in 
his opening remarks, and that is the World Series. We have the 
World Series coming to Denver, Colorado. We are very proud of 
that fact. Having the World Series coming to Denver, Colorado 
means there is going to be a lot of pressure on the Denver 
International Airport, the DIA.
    So Mr. Secretary, I have a couple of questions for you to 
start with. The first is, staffing levels. With that kind of a 
crowd coming, and the fact that there will be so much. It is 
not a national security event or national security special 
event, or whatever those are called, but it is close. What 
steps is the TSA going to take to move people through the 
airport? Because as much as you and I have talked about it, 
there has been some improvement, but then we see our wait times 
growing because we are not adding people to the TSA staff. Can 
you please answer that?
    Mr. Hawley. The short answer is whatever it takes to make 
the World Series a success. We do this for the Super Bowl, 
World Series. We bring in extra people. We understand the major 
importance. It is an international event. That is not an issue. 
I think the issue you mentioned after that, which is the 
sustainability and to get the staffing right at Denver, as you 
know that is something that we are triggered on. You may know 
that we have just recently added in the 2008 allocations some 
significant new resources for Denver.
    So the key thing, as you know, is opening early. And so 
yes, we are dialed-in on that. But as far as the World Series 
is concerned, we are going to support Denver totally, except 
that I am a Red Sox fan.
    [Laughter.]
    Mr. Perlmutter. I was going to quote you. I was going to 
put that you were going to support us. I appreciate that.
    Let me move now to something, though, that causes some 
delays from time to time, and that is the no-fly list and the 
Terrorist Screening Center and its lists, whether it is the 
terrorist watch list, no-fly list, selectee list. What steps do 
you know--and this applies to Ms. Berrick, too, if you could 
talk about this--what kinds of scrubbing of the no-fly list is 
occurring so that we don't have misidentifications or delays 
for folks who clearly don't fit the profile?
    Let's take Sam Smith, you know, who had done something bad 
in Northern Ireland 15 years ago, and a Sam Smith who is 10 
years old in Denver, Colorado is being stopped and screened 
twice. How are we dealing with scrubbing these lists or making 
them better and less inconvenient for folks?
    Mr. Hawley. I can answer the first part of that, which is 
we went through every name on the no-fly list with the 
Terrorist Screening Center and cut the list in half. And that 
was part of the effort to prepare for Secure Flight. So that is 
an ongoing effort. We are now addressing the selectee list, 
which will also get at a significant number of people.
    Mr. Perlmutter. Is this something you are doing on an 
ongoing basis, always going back and looking at these lists to 
make sure that they are applicable?
    Mr. Hawley. Yes. And the other piece is that whenever a 
name comes up, because obviously when one pops up, we are 
always look at it for, is this the right level of attention? Is 
it a no-fly? Is it a selectee? I think we had one yesterday 
that was a no-fly, but in the post-mortem we all decided let's 
move it back to a selectee. So that is something we do real-
time. We want to get as many people who shouldn't be on that 
list off that list.
    Mr. Perlmutter. Ms. Berrick?
    Ms. Berrick. Yes. The Department of Justice IG, and in fact 
GAO also just recently issued reports on this topic. We would 
be happy to come and give you a lot of details on those. But 
generally we reported similar information that TSC, working 
with the agencies, including TSA, have done scrubs of the list, 
including the no-fly list.
    We have identified some issues with the scrubbing process 
and still identified some hurdles that TSA had to overcome, but 
generally the list had been reduced and they had been scrubbed. 
It is a continual process that TSC is going through to do that.
    Mr. Perlmutter. Okay. Here is the bottom line for the 
traveling public, and I think for members of Congress. We spend 
billions of dollars for equipment and staffing and zillions of 
dollars in wait-times of passengers. Is all of this worthwhile? 
Or is it window dressing?
    Mr. Hawley. It is critical. I think the whole issue of the 
threat level we are facing and the plots that we know are 
ongoing in the world, and the interest in attacking the United 
States is absolutely critical. I think the experience really 
since June abroad is instructive to us, and last year, the 
liquid plot. These are people bringing liquids on planes to 
blow them up by the dozen.
    So it is absolutely critical. I think that Ms. Jackson Lee 
at the beginning of the hearing mentioned a little bit of the 
fatigue factor of how do you keep up the vigilance this far out 
of 9/11 when the public doesn't see it every day. We sure see 
it and our officers see it. I would just draw attention to the 
toy cars thing that we put out a couple of weeks ago, which is 
this is the first time we have done it.
    In a low-key way, we briefed our officers on the 
intelligence related to that. And we said, ``You know what? 
Let's just say it to the public that we have some information 
on this, that we are taking into account in our security 
measures.'' We are not prohibiting anything. We are not getting 
hysterical over it, but we just want you to know we are paying 
attention, and if you notice something different with the way 
we screen these things, it is for a good reason.
    So I can tell you absolutely for certain it is necessary 
and clearly, as has been pointed out, we can continue to do a 
better job, but we feel it every minute.
    Mr. Perlmutter. Mr. Hatfield or Ms. Berrick, do you have 
any comments?
    Ms. Berrick. I can just add that during the course of our 
work, we always look at the intelligence information for 
different aspects of aviation security, and how TSA uses 
intelligence to drive its security decisions. I would agree 
that there is incredible intelligence information that they are 
using to try to identify where they are vulnerable and what 
actions they should take to address that. So I think that is a 
very important role.
    And then secondly, the security measures also act as a 
deterrent to persons intending to do harm. They see the 
measures that are in place. They see that some of these 
measures are changing. They see that there are layered security 
measures. All of those are obstacles that they would have to 
overcome to act. So I think that serves an important function, 
too.
    Mr. Perlmutter. Mr. Hatfield, any comments? Or do you go 
along with those two?
    Mr. Hatfield. No, sir. I would go along with those two 
comments. Thank you.
    Mr. Perlmutter. Thank you, Madam Chair.
    Ms. Jackson Lee. I thank both Mr. Perlmutter and Mr. 
Pascrell.
    I yield myself 5 minutes for a third round, and cognizant 
of the time.
    This has been a burden on the subcommittee in terms of 
trying to get to a sense of wholeness on the aviation. I am 
going to quickly ask you to quickly answer the questions that 
remained. Mr. Hawley, that was on in-flight security, FAA and 
tabletop exercises. If you could just do that very, very 
quickly, and Ms. Berrick. And then I am going to go into some 
other very what I consider questions that remain on the table.
    If you would, Mr. Hawley?
    Mr. Hawley. We do two formally a year at the administrator 
level--the FAA administrator and myself, as well as our key 
staff, twice a year formally. I would venture to say we 
probably do about one a month of the type that Frank mentioned, 
something that comes up during the day or night. You asked the 
question, how quickly do we respond, and I would say it is 
immediate. We always have a duty officer, either Doug sitting 
back there in the front row, or Frank is on duty 24/7. We 
frequently talk in the middle of the night if required.
    Ms. Jackson Lee. Ms. Berrick, remember I asked you about 
how perfect is the situational exchange, because that is a 
question of life and death.
    Ms. Berrick. Right. You referred to the 70 percent. I just 
wanted to clarify. That is our overall assessment, the degree 
to which TSA has met the requirements that were laid out by 
Congress and the administration, and that is covering all 
aspects of aviation security. Again, the key areas that weren't 
being addressed that we reported on were technologies at 
checkpoints and to screen air cargo. There was also perimeter 
security and access controls. And there was also a system to 
pre-screen passengers on domestic flights.
    With respect to communication and coordination between TSA 
and other agencies, again we reported that from what we looked 
at, it was generally working well. We looked at over a 3-year 
period. There were some breakdowns in communication, but 
generally the process was working well. That has been put in 
place since 9/11. But we did identify the importance of each of 
the agency's involved documenting their policies and 
procedures. I know the FAA has documented the procedures. Some 
agencies don't.
    When we are talking about 15 agencies--DOD was mentioned--
but there are a lot of other agencies involved in this 
coordination effort, too. Even though the people in place may 
know how to respond in situations, they have built 
relationships. If they have to leave those positions, it is 
important that these procedures be documented and memorialized.
    With respect to the exercises, we did review that and saw 
that the agencies were holding exercises to look at different 
scenarios and how they would respond. The one area for 
improvement we saw there was the need to follow up on action 
items from the exercises. So for example, issues may be raised 
during the exercises, but there always wasn't that follow up 
afterward to make sure that the loop was closed so any issues 
raised were addressed.
    Ms. Jackson Lee. If you had to assess how quickly today 
they coordinate, versus before 9/11, do you have that ability? 
How quickly does it occur? There is an incident in the sky. We 
don't know what it is. How quickly can these different entities 
gather and begin to respond?
    Ms. Berrick. I would say it is almost immediately because 
the domestic events network, the DEN, is up 24/7. Everybody is 
tied into it, all the agencies that have roles and 
responsibilities related to coordinating these incidents. So 
information is broadcast over the DEN for all to hear. People 
are brought into have that discussion. They can share 
information.
    In terms of how it is different now versus before 9/11, 
before 9/11 the DEN didn't exist. It was created on 9/11.
    Ms. Jackson Lee. So an incident occurs, and you are saying 
almost immediately the coordination occurs or one agency knows 
about it?
    Ms. Berrick. Almost immediately the communication occurs, 
because all relevant agencies are tied into the DEN, because it 
is a 24-hour network. So they can get information immediately 
as it is relayed to them.
    Ms. Jackson Lee. Let me thank you. I assume the agencies 
are monitoring that, and your one addition is that they need to 
document in more detail on how that is occurring.
    Ms. Berrick. Exactly--how they would respond under 
different scenarios.
    Ms. Jackson Lee. Thank you.
    I am going to do a rapid series of questions. I would 
appreciate if the witnesses would take notes, so that then I 
will yield to you to answer the question.
    Just for you, Mr. Hawley, I have an issue that is similar 
to Mr. Pascrell. Would you please investigate, as I have asked 
you previously, Mr. Roy Ray, a TSA screener--I would like to 
put that on the record--who has had some similar issues that 
Mr. Pascrell has mentioned. His name is Mr. Roy Ray. I would 
like to have that investigated, if I could.
    Let me just say that this committee hearing and the one 
that will come will include, or is including the question of 
general aviation. I want to cite in particular an investigative 
report done by Channel 11 News in Houston that found the 
airport security at small airports to be very lax. In response, 
I wrote a letter to Inspector General Skinner to investigate 
these breaches in security. Further, when I questioned 
Secretary Chertoff he admitted in a hearing that we needed, you 
needed, to turn up the temperature on general aviation.
    Today, unfortunately, it has been 8 months and no 
investigation has occurred. General aviation airports across 
America remain vulnerable as it relates to perimeter intrusion 
and they are still flying in and out, and some of them large 
planes that have the capacity for much damage.
    Moreover, the inspector general's office has claimed that 
they do not have the funds to conduct an investigation this 
year. Why is that? And I will be asking a series of questions 
on that question. Security at small airports continues to be 
unacceptably lax. We would like to know what steps TSA is 
taking.
    Now, we understand that there is a jurisdictional question 
in law, and a question where TSA is not present at general 
aviation airports. I would hope that we are laying the ground 
work--and Ms. Berrick, this question is for you--on possibly 
having expanded legislation to address the question of general 
aviation airports.
    Let me just speak directly to the perimeter question. One 
of the indicia or reports that you gave that said generally not 
achieved had to do with the perimeters, where you asked TSA to 
establish standards and procedures to effective airport 
perimeter security, That is obviously the larger airports; 
establish standards and procedures to effectively control 
access to airport secured areas, not achieved; establish 
procedures for implementing biometric identifier systems for 
airport secured areas access control.
    This could be similarly connected to general aviation if 
you were looking at it, and I don't know if you were, but I 
would appreciate a response. It says that in perimeter issues, 
the TSA has not achieved what it should achieve. That is one 
question.
    The second question goes--Mr. Hatfield, if you would just 
listen--I maintain that you all, the air traffic controllers 
and the FAA as it relates to air traffic controllers--do a 
yeoman's task, a very important task. However, I am disturbed 
by numbers that I would like to share with you. In 1985, there 
were 34,000 air traffic controllers. In between that, there was 
the Reagan issue in 1987. In 1990 there were 36,000. I am now 
looking at a document that says that now today, 2005 and 2006, 
we have approximately 14,000. In fiscal year 2006, we have 
16,000 air traffic controllers. In fiscal year 2004, we had 
17,000, which was already half of the 34,000.
    Now, I imagine that you will give me an answer that might 
suggest that we have great technology and so we don't need it. 
I think it is a travesty. I think the lack of air traffic 
controllers experienced and trained from my perspective, which 
is one of the reasons why you are here, Mr. Hatfield, has a 
definitive impact on the security of this nation and the 
traveling public. I might suggest that you have an answer to 
that, and these are my final questions.
    Let me thank you, Mr. Hawley, for the work you have done 
and tried to do with respect to racial profiling, in particular 
dealing with headdress. I want to make sure that every 
traveling person is given the dignity of who they are and not 
being a terrorist, or not being felt that they are terrorists 
by their, if you will, prayers or their headdress. So I would 
like you to comment on that and how you have been able to 
address that question.
    I would add to this in a very tragic way, a reference--and 
let me make it distinctive so that we don't have a 
misunderstanding of media or anyone else--I would like to at 
the same time have a full report on the situation dealing with 
Ms. Gotbaum. I raise that because there was language that said 
``I am not a terrorist.'' There was also some reporting that 
TSA employees did either encounter or ask questions. I am not 
sure what occurred, but we want terrorists to be found and 
arrested. We want the traveling public to be addressed in 
whatever human condition they need to be addressed in.
    So I would like to ask on the record for a full 
investigation as it relates to any TSA involvement in that 
second incident that I mentioned, and you can respond to the 
issue dealing with the headdress that I believe is an 
announcement that was made today.
    Let me start with Mr. Hatfield on this question of half of 
the size of, as I understand it, of air traffic controllers 
some 10 or so years ago, compared to today of 16,000--a number 
that has been going down. Mr. Hatfield? As it impacts security?
    Mr. Hatfield. Well, you asked this question, chairwoman, 
earlier. I have to tell you it is a very tough question. I have 
never looked at in the terms that you have asked. The way I 
interpret it, how many controllers do you need to make sure you 
have enough controllers so the sky is secure. Quite frankly, 
that is never something I have ever thought about before.
    I think the best way I could answer that is, my core 
mission is safe. Certainly, if I have enough controllers to 
keep the skies safe, then certainly I have enough controllers 
to keep the sky secure.
    Ms. Jackson Lee. And you think you have enough, compared to 
34,000 10 years ago and now 16,000? Haven't you lost a large 
number of experienced controllers?
    Mr. Hatfield. Certainly, I can't contest the fact that 
there has been a loss of experienced controllers in the sense 
that people normally retire. But what I can say is I know for a 
fact that for the last 3 years, the FAA has had a target goal 
of hiring. They have hit it for the last 3 years. I know in 
fiscal year 2007, 1,800 controllers were hired. I also know 
that system-wide right now, we are running with overtime of 
less than 1 percent, which is a pretty amazing statistic for a 
company that big.
    So I will contend that the system is safe, and if the 
system is safe, then certainly the system is secure.
    Ms. Jackson Lee. Let me ask that you give more thought to 
that, and possibly respond in writing. I thank you for your 
answer on that.
    Mr. Hawley?
    Mr. Hawley. Yes. On Mr. Ray, I have had the chance to look 
into that. I believe I am writing you a letter, but I have 
looked into that and can respond to you specifically on that.
    Ms. Jackson Lee. Thank you.
    Mr. Hawley. On the general aviation perimeter--and I will 
put that in with general aviation security generally--we are 
looking at on a risk basis the GA community, and separating by 
the threat presented by aircraft. The critical issue is the 
identity of the pilot. That, to me, is the most important 
thing. There are a lot of other physical security and other 
matters that have to be in there, but understanding so that the 
FAA knows who is the actual pilot in that aircraft positively, 
other than just the honor system, I think is the critical 
point. We are working with our international colleagues to get 
that.
    On the headwear----
    Ms. Jackson Lee. Mr. Hawley, you answered part of the 
question. The Channel 11 investigation in one city, it happened 
to be Houston, showed the rapid and continuous piercing of 
general aviation perimeter, meaning that it is a vulnerable 
target because it has none of the security measures of regular 
airports, even though as you well know, I just noted that you 
generally had not achieved perimeter security on airports that 
are under your supervision. Would you not think that 
legislation might be warranted to include general aviation 
airports in some sort of security control, in as much as larger 
airlines, large airplanes land at general aviation airports?
    Mr. Hawley. We will look at that. I think another key is 
the physical security of the aircraft and the ability to turn 
on the aircraft, basically, if you don't own it, and then there 
is another way to get at some of these problems. Certainly, 
physical security is an important part of which perimeter 
control plays a role as well. That I will have to look at, but 
I will look at that.
    Ms. Jackson Lee. You will provide a report back to this 
committee?
    Mr. Hawley. Yes, ma'am.
    Ms. Jackson Lee. Thank you.
    Mr. Hawley. On the headwear, we had some issues with 
members of the Sikh community who were concerned that the 
effect of TSA screening of headwear would single them out for 
extra treatment. They have entered into a conversation with us 
that I think was very healthy on a number of fronts. It helped 
us set up, and now we have a Diversity Council that we work 
through with these issues. We do understand that the Sikh 
community is on our side. We are on the same side, and we have 
some up with a headwear screening method that meets the 
security and also the dignity and common sense, not only for 
people with religious headwear, but medical or other needs as 
well. So that we have put out today.
    And then the last one, the tragedy in Phoenix, we will 
investigate it. The initial reaction is that there was one 
transportation security officer in Phoenix who had contact, but 
it was only to render assistance when it looked as if the 
individual was having a problem. I believe we have the video 
for that and we will do an investigation, as you suggest.
    Ms. Jackson Lee. I appreciate it.
    Mr. Berrick, if you would conclude by focusing on the 
question dealing with general aviation, on perimeter security, 
and whether or not you have a study that deals specifically 
with general aviation perimeter vulnerabilities.
    Ms. Berrick. Okay, sure. We have looked at both areas. The 
general aviation work we did was 3 years ago when we looked at 
it. At that time, TSA was in the early stages of looking at GA 
security. They had developed a voluntary self-assessment 
vulnerability tool that GA airports could apply, but that was 
in the early stages. Some of the states had more stringent 
requirements for GA airports. Some of the states were pretty 
active. Others were less active.
    There are security requirements for foreign students that 
take flight training at U.S. flight training schools. We looked 
at that process and the checks that are conducted of these 
students. We identified some problems there and made some 
recommendations. The specifics are classified and we could 
certainly brief you on that.
    And then, of course, there are some security requirements 
for larger GA aircraft. We are not doing any follow-up work 
right now on general aviation, although some committees have 
expressed an interest in GAO maybe doing some additional work.
    In perimeter security and access controls, we did a review 
again in 2004. Recently, as a part of our report card on DHS, 
we got updated information from the department on its efforts 
to secure perimeters and access controls. The area where we 
identified DHS was primarily lacking was related to 
technologies, providing information on technologies to the 
airports. There are lots of legislative requirements that 
require TSA and DHS to do that. There is no widespread 
biometric system at the airports, so it is primarily focused on 
technology. And there are some other legislative requirements 
also that weren't met.
    We are actually doing follow-up work now on airport 
perimeter security and access controls for you and for some 
other committees that we have recently kicked off. We can come 
and brief you or your staff at any time on what we are finding 
on that. But that work is underway right now.
    Ms. Jackson Lee. We would welcome that. Ms. Lowey of New 
York has been a champion of that issue. So we would like you to 
finish your work.
    I want to go back to general aviation as I conclude. Is 
there a state that is a model for general aviation security? 
You mentioned that there might be some states.
    Ms. Berrick. There are some states that are stronger. I 
will have to get back with you on the specific names because I 
am not remembering them right now. There were a few states that 
stood out in terms of requirements in locking the aircraft and 
fencing and some other requirements at some GA airports. So I 
can follow up with your staff, if you would like, and provide 
that information.
    Ms. Jackson Lee. In your general assessment, one, I think 
the committee and I will certainly raise this with the chairman 
of the full committee, that we would like to have. As I 
indicated, the inspector general has not responded to the 
inquiry on the vulnerabilities of general aviation airports. So 
we have a real problem.
    My question is, just in the overview that you did 3 years 
ago, and you can reflect on it, do we still have some gaping 
security, if you will, holes in, as you can reflect, on general 
aviation perimeters and general aviation sites in the United 
States?
    Ms. Berrick. I would say based on the work we did 3 years 
ago and some limited updated information, I would say that more 
work is needed to assess what the vulnerabilities are and what 
the options are for addressing those vulnerabilities. Again, at 
the time in terms of doing vulnerability assessments, TSA had 
developed this tool and was sharing it with the operators, but 
that was in the very early stages. So I think more assessment 
and attention is appropriate. I think it would be worthwhile to 
look to see to what degree it is happening today.
    Ms. Jackson Lee. So general airports or aviation sites 
could be vulnerable to terrorist acts?
    Ms. Berrick. I think so, as a lot of other sites and 
locations could be vulnerable as well.
    Ms. Jackson Lee. Let me just, we would appreciate your 
response back on states that might be a model. Frankly, a 
number of us believe that legislative intervention is necessary 
on general aviation airports, and we want to be as detailed as 
we possibly can be in that consideration.
    Let me ask if any of my colleagues have a question. Let me 
thank them very much for their presence here today. Let me 
suggest that any members will have 5 days to submit any 
additional comments for this hearing.
    I want to take the chair person's privilege to particularly 
give these witnesses the award for stick-to-itness and 
presence. This is something that has been mounting. It is very 
difficult to hold hearings and to gather people and to get the 
questions that are necessary for what we are attempting to do 
in securing America.
    So let me thank all of the witnesses for their valuable 
testimony, and the members for their questions. The members of 
the subcommittee may have additional questions for the 
witnesses, and we will ask you to respond expeditiously in 
writing to those questions. I would also ask, because we simply 
sometimes leave questions on the table to the witnesses, and 
sometimes there is a delay. We raised very important questions 
today that have a lot to do with moving forward. We would 
appreciate as expeditious a response as possible in the light 
of what we have posed to you.
    Therefore, hearing no further business, a thank you, and 
the subcommittee now stands adjourned.
    [Whereupon, at 5:02 p.m., the subcommittee was adjourned.]


                     AVIATION SECURITY: A FRONTLINE



                      PERSPECTIVE ON THE NEED FOR



                        ENHANCED HUMAN RESOURCES



                             AND EQUIPMENT



                                PART II

                              ----------                              


                       Thursday, November 1, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
Subcommittee on Transportation Security and Infrastructure 
                                                Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 3 p.m., in Room 
311, Cannon House Office Building, Hon. Sheila Jackson Lee 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Jackson Lee, Norton, Clarke 
Lungren and Brown-Waite.
    Also present: Representative Pascrell.
    Ms. Jackson Lee. The subcommittee will come to order. As I 
do that, let me again thank you for your patience, but also 
your presence here today. I acknowledge the presence of the 
Ranking Member of the Subcommittee on Transportation Security 
and Infrastructure Protection, Mr. Lungren of California, and 
acknowledge the presence of the distinguished--the 
distinguished gentleman from California, and the distinguished 
gentlelady from New York, Congresswoman Yvette Clarke of 
Brooklyn, New York. And I say that because this is an important 
hearing, and sometimes our schedules are not our own, and it 
happens to be that way today.
    And so the subcommittee is meeting today to receive 
testimony on the training of transportation security offices, 
flight attendants and Federal flight deck officers. However, 
before I begin, I ask for unanimous consent ahead of time that 
Mr. Pascrell, a member of the full committee, to sit and 
question the panel during today's hearing. Hearing no 
objection, so ordered.
    I would like to take this opportunity to thank you all for 
joining us this afternoon. I cannot express the appreciation 
because of the responsibility that this committee has. And it 
was designed in particular to delve into areas that heretofore 
had not been looked at as keenly as we might have wanted to do. 
And that is not only transportation security and infrastructure 
protection, but the front-liners that address these particular 
entities.
    As we all know, civil aviation security exists to prevent 
criminal activity on aircraft and in airports. This activity 
includes acts such as highjacking, air piracy, damaging or 
destroying aircraft in nearby areas with bombs, and assaulting 
passengers and aviation employees. Today aviation security is 
high on the list of priorities of air travelers, the Federal 
Government and the international air community. In the earliest 
days of aviation, however, aviation security was only a minor 
concern.
    Since September 11th all of us have changed our outlook and 
perspective, and we have made many improvements in the backdrop 
of 9/11 in the security of our Nation's transportation 
infrastructure. It is a work in progress, but there is more 
work to be done.
    However, our job is far from over. Whether it is more 
improvement to be made or gaps to close in matters of security, 
we must not become complacent. As our enemies adapt, so must 
we, and we did. We now have a Federal screening workforce. We 
screen 100 percent of the checked baggage. We are in the 
process of moving to 100 percent screening of air cargo. And we 
are constantly trying to find new technology to help all of 
these functions; however, it is important to note that there 
are challenges, and that we should address those challenges. In 
addition, we armed pilots and barricaded the cabin door.
    Some may have agreed or disagreed on some concepts, but the 
effort was in place; that we must protect the employees and the 
traveling public. TSA has taken steps to secure the plane and 
the passenger, but has left the system vulnerable to attacks. 
In essence, I believe that our focus has only been on 
protecting aircraft from past attack scenarios, such as suicide 
hijackings and baggage and luggage bombs carried by airline 
passengers, and has not given enough attention to other 
potential vulnerabilities.
    Flight attendants, Federal flight deck officers and Federal 
air marshals are the last line of defense when it comes to 
security of a plane; however, flight attendants do not receive 
any meaningful training to protect themselves or other 
passengers or to thwart a terrorist attack. In the case of the 
Federal flight deck officer, they do receive training; however, 
this training does not provide the Federal flight deck officer 
with the support and mentoring that other Federal officers 
receive to accomplish their respective missions. These officers 
should have the same level of training and support that other 
Federal officers receive so that they will succeed in their 
mission. This includes post-basic training mentoring and 
ongoing training.
    Finally, there is no comprehensive training or explanation 
of what the three components of in-flight security flight 
attendants, pilots and air marshals are trained to do in case 
of an attack. Clearly these three groups must be trained on how 
to work together as a team to be effective as possible, because 
determining how to handle an attempted hijacking should not 
happen at the moment it occurs, but rather during training 
events on the ground.
    As you can see, coordination is extremely important when 
securing our planes. We must make sure that these groups are 
aligned to work very closely in terms of understanding and 
implementing their roles when responding to an aviation 
security, a threat.
    It has also come to my attention that TSA that designs the 
scheme, if you will, of how we handle airport screening and 
where resources are utilized may, in fact, though they are not 
present at this hearing, need oversight by this Congress. There 
is representation that with the movement of TSA screeners, with 
the assignments being given, opportunities that appeared in 
Phoenix and other places where the GAO has made studies about 
intrusion of undetected bombing equipment, that there may be a 
problem that we have to address.
    Additionally, I would like to offer into the record a 
letter sent to me by a member of the air traffic control, 
Houston Air Route Traffic Control Center, and an individual who 
is vice president of the local at Houston ARTCC. I would ask 
unanimous consent. Hearing no objection, it will be submitted.
    Ms. Jackson Lee. But let me just focus briefly as I 
conclude my remarks. The absent individual or entity today are 
the air traffic controllers. We recognize that their vital role 
deals with the safe travel of airplanes throughout the Nation's 
skies, but anyone who focused on 9/11 recognizes their 
frontline responsibility as relates to security as well. And so 
I am going to state on the record that we expect to have the 
air traffic controllers present at a hearing prospectively so 
that we can focus on the needed enhanced security equipment 
that might make them better qualified and equipped to address 
any potential threat that might come.
    The record should note that I am disappointed, this 
committee is, of the lack of recognition of their importance in 
this process, and we hope that that lack of recognition can be 
quickly amended, and that they will be before this committee, 
as will the air marshals, who I know are a component of law 
enforcement present at this hearing. But the comment of this 
particular individual was expressing concern that I will 
utilize further in my testimony or my statement as I question 
the witnesses. But it should be noted that this is in the 
record, and that the air traffic controllers are not present 
today, and we expect for them to be present before this 
committee in the very near future.
    Finally, as Members of Congress, and more specifically as 
members of the Committee on Homeland Security, we have the 
responsibility to make sure our planes and airports are secure 
and also our general aviation airports are secure as well, 
which is an issue that we will be looking at in this committee.
    Throughout these hearings I have reiterated that we are at 
a crossroads where we must take action to find out what is the 
best way to find a safe, secure and functioning aviation 
system. In essence, what are the best practices? And if we do 
not put effective security measures in place, our Nation may 
very well be the victim tragically of another attack, which in 
turn will cause a major economic disruption and avoidance of 
commercial aviation.
    We must continually earn the confidence of the flying 
public in order to ensure that the public continues to enjoy 
the freedom of mobility that flying provides. We must 
demonstrate to them that our Nation's airports are secure.
    Ms. Jackson Lee. The Chair is now pleased to recognize the 
Ranking Member of the subcommittee, the gentleman from 
California, for an opening statement.
    Mr. Lungren. Thank you very much, Madam Chairwoman, and 
thank you for scheduling this hearing.
    I would also like to thank the witnesses and the men and 
women that you represent. We cannot do what we are attempting 
to do in terms of providing safety in our skies and at our 
airports without the great work of the people that you 
represent. We can talk about it, and we can set out rules and 
regulations, and we can hope that people will act the right 
way, but it is your folks that actually make the difference.
    We have said this time and time again here, as have others, 
that since 9/11 we have invested billions of dollars to secure 
our aviation industry. These security investments are necessary 
because of the continuing terrorist threat to our aviation 
security. A good example is the improved screening technology 
we now employ for both checked and carry-on baggage, although 
we know we have got to keep up with new advances in technology. 
It is all part of the Homeland Security mission to develop the 
best technologies, procedures and methods which will deny the 
terrorist his goal of causing, quote, death and destruction in 
America.
    While technologies, as I say, are important, are necessary 
to detecting and preventing terrorist attacks, the technology 
is only as good as our frontline employees who operate it. The 
better trained these employees are, the better our aviation 
security will be.
    The importance of training was highlighted in a recent news 
story on covert testing for bomb parts at several U.S. 
airports. The airport receiving the best grade is just outside 
my district in San Francisco. The reason for their success is 
they test their screeners continuously and use the testing as a 
training tool. The TSA has now adopted this approach in their 
training programs throughout the country.
    Another example of our frontline employees making us more 
secure is the Federal Flight Deck Officer Program, as referred 
to by the chairwoman. Arming our qualified and trained pilots 
has provided another layer of aviation security. Terrorists 
will now think twice before entering the flight deck of any 
aircraft. If they attempt to penetrate the locked cabin door, 
an armed pilot may be waiting to greet them.
    There are other things that have been done, but we all know 
that we can do better, and this hearing is an effort for us to 
get a status report on how well we are doing in training our 
frontline employees, what more needs to be done, and also I 
think to recognize the tremendous role that they play in the 
overall security for our flying public. And once again, I would 
like to thank the witnesses, and I would hope that you would 
let your members know how much Members of Congress appreciate 
what they are doing and what they continue to do for all of us.
    Thank you, Madam Chair.
    Ms. Jackson Lee. I thank the Ranking Member.
    Again, let me acknowledge the presence of Mr. Pascrell of 
New Jersey. We welcome him.
    And let me remind other members of the subcommittee that 
under the committee rules, opening statements may be submitted 
for the record.
    And I join with my colleague Mr. Lungren in again thanking 
you all for the service that you give.
    At this time I would like to welcome our panel of 
witnesses. Our first witness will be Mr. John Gage, the 
national president, American Federation of Government 
Employees, AFL-CIO. In his capacity he stands watch over the 
rights of some 600,000 Federal and D.C. Government employees. 
Mr. Gage leads the Nation's largest union for government 
workers. Mr. Gage has long been involved in the AFGE and the 
labor movement. He has a commitment of over 20 years of service 
as president of AFGE, Local 1923, and as national vice 
president of AFGE's fourth district.
    And we certainly had a long-standing relationship, Mr. 
Gage, and I do thank you for your presence here this afternoon.
    Our second witness is Ms. Patricia A. Friend, international 
president of the Association of Flight Attendants. For the past 
12 years Ms. Friend has become a respected leader in the 
airline industry and throughout the labor movement. Following 
the September 11th terrorist attacks, Ms. Friend was appointed 
by Secretary of Transportation, Secretary Norm Mineta, to serve 
as the DOT Rapid Response Team for Aircraft Security, or serve 
on that committee, a group of industry experts assembled to 
recommend aircraft security improvements. Since then she has 
tirelessly lobbied Congress, the Federal Aviation 
Administration and the public for their support of more 
stringent security measures.
    The final witness of this panel is Captain Robert 
Hesselbein, chairman of the Airline Pilots Association National 
Security Committee. Captain Hesselbein has an extensive 
background in security. He performed airborne counterdrug 
intelligence duties in support of the diverse law enforcement 
agencies and later researched and created the current standard 
crew member procedures for countering a chemical-biological-
radiological, CBR, weapon in flight. Captain Hesselbein has 
flown at Northwest for 19 years, is a graduate of the 
prestigious U.S. Air Force Fighter Weapons School.
    Without objection, the witnesses' full statements will be 
inserted into the record, and I now ask each witness to 
summarize his or her statement for 5 minutes, beginning with 
Mr. Gage from the AFGE.
    Again, welcome to all of you.

STATEMENT OF JOHN GAGE, NATIONAL PRESIDENT, AMERICAN FEDERATION 
                OF GOVERNMENT EMPLOYEES, AFL-CIO

    Mr. Gage. Thank you, Madam Chairwoman and members of the 
subcommittee.
    Among those 600,000 Federal Government workers that we 
represent are included transportation security officers at 
airports across the United States. Many times I have testified 
before Congress of their dedication to doing the best possible 
job they can to thwart air terrorism. Even as they are 
wrongfully denied the fundamental collective bargaining rights 
and labor protections of other Department of Homeland Security 
workers, the Aviation Transportation Security Act mandated that 
TSOs receive 40 hours of classroom instruction and 60 hours of 
on-the-job training before they begin to perform screening 
duties, and 3 hours of training per week averaged over a fiscal 
quarter once they begin working. TSOs also train for 
proficiency tests that they must pass each year to be 
recertified. TSA is required by law to provide remedial 
training to TSOs who do not pass the proficiency tests.
    However, TSOs routinely report chronic understaffing at 
airports, the lack of relevant and low quality of training TSA 
provides, TSA's failure to fully invest in technology to 
facilitate the ability of TSOs to evaluate potential threats to 
aviation travel and TSA's institutional disdain for comments 
and suggestions from TSO that can help spot and prevent threats 
to air travel.
    First, staffing shortages of TSOs have made it difficult 
for workers to carry out their duties much less receive 
statutorily mandated training. TSA has adopted a staffing model 
that it calls its Staffing Allocation Model or SAM. SAM does 
not adequately take into account the statutorily mandated 
training time or other duties TSOs may be assigned, such as 
administrative work or time to master new standard operating 
procedures. Even FSDs have consistently reported to GAO and TSA 
that because of insufficient staffing, TSOs have difficulty in 
meeting the recurrent training requirement within regular duty 
hours.
    SAM also does not take into account the effect of the 
incredibly high TSO attrition rate on its staffing assumptions. 
The first 8 months of 2007 resulted in a TSO attrition rate of 
19.6 percent, much higher than the attrition rate of other 
agencies.
    TSA should simply request from Congress funding to fully 
staff its TSO workforce at every airport. And FSDs should 
establish personnel schedules at each airport that ensure that 
every TSO will receive the training required by law while on 
duty.
    The second concern of TSOs regards the quality of training 
they receive. Much of the training TSOs receive is self-taught, 
using resources and on-line learning centers. TSOs report that 
many of these programs are several years old, and often no 
training instructor is present.
    There are striking inconsistencies in the availability and 
quality in training from airport to airport. One example would 
be the training offered by bomb appraisal officers, or BAOs. 
BAOs are deployed at airports and are specifically trained in 
the detection of explosives. At some airports TSOs report that 
the BAO occasionally builds a simulated improvised explosive 
device, an IED, and runs it through the checkpoint to see if 
TSOs can spot the components. Despite the obvious merits of BAO 
training to the TSO workforce, at other airports TSOs state 
that while they are aware that there is a BAO assigned to their 
airport, the person does not conduct trainings for the TSO 
workforce.
    Over the past few weeks there have been media articles 
referring to the leak of a classified TSA report that found a 
high percentage of simulated explosives and bomb parts that 
were missed by TSOs at three large airports. The reported test 
results are not in and of themselves indicative of individual 
TSO or TSO workforce performance. The report does point to a 
third area of concern to TSOs, that there is an urgent need for 
TSA to make available updated technology for both passenger and 
baggage screening. Unlike the covert test of several years ago 
that involved the detection of fully assembled simulated bombs, 
these tests often involve very small components that are easily 
hidden in items that TSA has chosen not to ban. AFGE TSO 
members report that even in trainings where TSOs themselves 
disassembled a simulated explosive and hid its parts in carry-
on baggage, they were unable to find the parts by sight alone. 
Simply put, TSOs cannot be expected to detect what the human 
eye cannot see.
    The technology that would enable TSOs to detect potential 
weapons not readily apparent to the human eye is available and 
is currently in use in a number of airports. Repeatedly both 
GAO and the DHS inspector general have called on TSA to invest 
in the deployed technology that will assist TSO in performing 
their screening duties.
    Finally, AFGE TSO members report that they have yet to feel 
that they are a partner working with TSA to ensure aviation 
safety. According to the 2006 Federal Human Capital Survey, 54 
percent of the TSA workforce, overwhelmingly comprised of TSOs, 
stated that creativity and innovation are not rewarded at TSA. 
Half of TSA workers report that they do not have a feeling of 
personal empowerment regarding work processes. Clearly many 
TSOs feel the agency ignores or discounts their input despite 
the fact that they serve on the front lines of safety every day 
at 450 airports across the country.
    No worker at DHS should be hesitant to point out a 
shortcoming that could impact public safety because he or she 
feels retaliation from management. This is a very real threat 
to the TSO workforce because TSA refuses to be bound by the 
Office of Special Counsel's recommendations when TSOs are 
retaliated against for blowing a whistle on security breaches. 
AFGE calls or Congress to pass H.R. 3212, a bill introduced by 
Representative Nita Lowey that would provide TSO collective 
bargaining rights and workplace protections, and ensure that 
they are treated the same as other workers at TSA and within 
DHS.
    Madam Chairwoman, the availability and level of training 
and deployment of technology is incredibly inconsistent among 
our Nation's airports. But even if the resources necessary to 
get the job done quickly and effectively and with the valuable 
input from the TSOs doing the tough job of keeping the public 
safe, TSA can further accomplish its mission.
    That concludes my statement, Madam Chairwoman.
    Ms. Jackson Lee. Thank you very much for your instructive 
testimony.
    [The statement of Mr. Gage follows:]

                    Prepared Statement of John Gage

                            November 1, 2007

    Madam Chairman and Members of the Subcommittee: My name is John 
Gage, and I am the National President of the American Federation of 
Government Employees, AFL-CIO (AFGE), which represents over 600,000 
federal government workers, including Transportation Security Officers 
(TSOs) at airports across the United States. I welcome the opportunity 
to convey to you the concerns about training that have been a priority 
issue for our TSO membership since those jobs were federalized over 
five years ago. Many times I have testified before Congress about the 
frustrations our TSO members deal with every day as they do everything 
that they can to keep the flying public safe. I have also testified 
time and again of their dedication to doing the best possible job they 
can to thwart air terrorism, even as they are wrongfully denied the 
fundamental collective bargaining rights and labor protections of other 
Department of Homeland Security (DHS) workers. The apparent consensus 
among AFGE's TSO membership is that the Transportation Security 
Administration (TSA) has made many critical decisions that have created 
or exacerbated obstacles to the ability of TSOs to carry out their 
duties, including the availability and quality of training.
    The Aviation Transportation Security Act (ATSA) mandated that TSOs 
receive 40 hours of classroom instruction and 60 hours of on-the-job 
training before they begin to perform screening duties. After hire, 
ATSA requires that incumbent TSOs receive 3 hours of training per week 
averaged over a fiscal quarter. TSOs are also required to pass 
proficiency tests each year. TSA is required by law to provide remedial 
training to TSOs who do not pass the proficiency tests. The Government 
Accountability Office (GAO) described that at least one of the 3 hours 
is ``to be devoted to X-ray image interpretation and the other 2 hours 
to screening techniques, review of standard operating procedures, or 
other mandatory administrative training, such as ethics and privacy act 
training.'' \1\ Our TSO members have reported to AFGE that other than 
the training they received prior to beginning their jobs screening 
passengers and baggage, TSA has consistently failed to provide the 
training they are required to provide under ATSA.
---------------------------------------------------------------------------
    \1\ GAO-05-457, Aviation Security: Screener Training and 
Performance Measurement Strengthened, but More Work Remains.
---------------------------------------------------------------------------
    TSOs must deal with the consequences of decisions made by TSA 
management, from policy decisions made at TSA headquarters, to 
personnel and scheduling decisions made by the airports' Federal 
Security Directors (FSD). In summary, TSOs point to chronic 
understaffing at airports, the lack of relevance and low quality of 
training TSA provides, TSA's failure to fully invest in technology to 
facilitate the ability of TSOs to evaluate potential threats to 
aviation travel, and TSA's institutional disdain for comments and 
suggestions from TSOs--who stand on the frontlines of air security--
that can help spot and prevent threats to air travel.

TSO Shortages
    TSA has adopted a staffing model that it calls its Staffing 
Allocation Model, or SAM. Under the current SAM, TSA's goal is for 
airports to have a ratio of 80% full-time TSOs and 20% part-time TSOs. 
SAM does not does not adequately take into account the statutorily-
mandated training time TSOs are required to complete or other 
collateral duties TSOs may be assigned, such as administrative work. 
Instead, according to the GAO February 2007 report to Congress on TSA's 
staffing model, SAM assumes staffing levels that ``allow most 
passengers on most days to experience 10 minutes or less wait time,'' 
and ``that training is relegated to times when there is surplus 
staffing and should occur during `less busy times.' '' In other words, 
rather than construct a model that specifically allows times for TSOs 
to receive the training they are required to have under law, much less 
time to master new Standard Operating Procedures (SOPs) and technology, 
this important task is relegated to whatever time is left, even if that 
time is none at all. FSDs have consistently reported to GAO and TSA 
that because of insufficient TSO staffing, TSOs have difficulty in 
meeting the recurrent training requirement within regular duty hours.
    SAM also does not take into account the effect of the incredibly 
high TSO attrition rate on its staffing assumptions. The first eight 
months of 2007 resulted in a TSO attrition rate of 19.6%, much higher 
than the current 2.2% attrition rate of the federal workforce. The 
recent spate of largely cosmetic TSA personnel policy changes have not 
provided the sort of meaningful change required to maintain the 
current, dedicated TSO workforce. Since January, 151 TSOs have left 
Boston Logan, one of the nation's largest and busiest airports. AFGE's 
TSO members report that at many airports the priority of FSDs is to 
provide training for new hires and part-time staff at a cost of $10,000 
per hire. Training for full-time TSOs is an afterthought. The recently 
enacted 9-11 Commission Report Act lifted the artificial and arbitrary 
cap on TSOs. TSA should simply request from Congress funding to fully 
staff its TSO workforce at every airport. The FSD should establish 
personnel schedules at each airport that include accommodations for 
every TSO to receive the training required by law while on duty, and 
also provide opportunities for TSOs to receive training on new 
screening technologies.
    In addition, TSA can do much to retain and invest in the current 
full time TSO workforce by dropping its opposition to collective 
bargaining rights and labor protections for TSOs, by treating them the 
same as other workers in DHS and the federal workforce. By restoring 
fundamental fairness to the workplace and addressing those important 
work-life issues that are pivotal to workers, including training, TSOs 
will be able to perform with confidence and learn new skills that could 
lead to promotions and improve safety.

Quality of Training
    Online Training--Much of the training TSOs currently receive is 
self-taught using on-line resources, or is conducted in the Online 
Learning Center that provides self-guided training courses. Although 
initially TSOs reported that there were some airports that lacked 
access to the high-speed internet capabilities required to run the 
programs on computers, TSOs now report that at the very least the 
equipment is available. However, TSOs also report that many of the 
programs they train on are several years old. Occasionally a Training 
Instructor (TI) is present, but is relegated to being more of a monitor 
who can answer questions, and does not provide instructions or 
elaborate on the online training program. In fact, one TSO told AFGE 
that he had not participated in a training session led by a TI in over 
two years.
    AFGE's TSO members at several airports have also raised concerns 
about the qualifications of some TIs. TSOs state that they are aware of 
individuals who were chosen for the position of TI, but saw no evidence 
that they were given any sort of training for the job. Multiple TSOs 
reported that as with other promotions or desirable jobs within TSA at 
airports, the choices for TI were based on favoritism over merit with 
friendships, cronyism, and cliques taking priority over training or 
experience. According to several TSOs, those chosen by TSA management 
for TI positions had no apparent qualifications for the job, and were 
chosen over other TSOs who had backgrounds in security, law 
enforcement, and the military or had previous teaching or instructional 
experience. Many of AFGE's TSO members came to TSA with those 
backgrounds, and a belief that their previous experience would be an 
asset in this country's war against terrorism. Not only is TSA's 
current policy of favoritism over merit taking its toll on the TSO 
workforce morale, it is also depriving both TSA and the flying public 
of the full utilization of all available assets.
    ``Hands-On'' Training--There is no substitute for practical, hands-
on experience. This is especially true when it comes to the operation 
of the X-ray and scanning equipment currently in use at airports. Many 
TSOs report that they have participated in Threat Image Projection 
(TIP) where TSOs are required to detect images projected on an X-ray 
monitor. TSOs consistently report that TIP and other practical training 
are found mostly at the passenger checkpoint. Despite the fact that 
TSOs assigned to baggage screening use X-ray and scanning machines just 
as their colleagues on passenger checkpoint, they are much less likely 
to receive training on the machines they use everyday. Once again, due 
to incredibly high turnover rates, at some airports, new hires are the 
only TSOs who receive hands-on training.
    There are striking inconsistencies in the availability and quality 
in training from airport to airport. One example would be the training 
offered by Bomb Appraisal Officers (BAO). BAOs are deployed at airports 
and are specifically trained in the detection of explosives. At several 
airports TSOs report that the BAO regularly visits both checkpoint and 
baggage screening and that the BAO occasionally builds a simulated 
Improvised Explosive Device (IED) and runs it through the checkpoint to 
see if TSOs can spot the components. At another airport TSOs state that 
at least twice in the last five years the BAO has conducted a training 
where TSOs built their own simulated IED and tested each other by 
running it through the X-ray machine. This type of hands-on experience 
is invaluable. Yet, despite the obvious merits of BAO training to the 
TSO workforce, at other airports TSOs state that while they are aware 
that there is a BAO assigned to their airport, the person does not 
conduct trainings for the TSO workforce.

Investment in Technology
    Over the past few weeks there have been media articles referring to 
the leak of a classified TSA report that found a high percentage of 
simulated explosives and bomb parts that were missed by TSOs at three 
large airports. AFGE does not accept the leaked results as evidence 
that TSOs are doing anything other than a very good job protecting the 
flying public under very difficult conditions. The reported test 
results are not, in and of themselves, indicative of individual TSO or 
TSO workforce performance. The report should, however, be used as an 
early warning signal of problems that need to be resolved as quickly as 
possible.
    The specific tests were covert where testers attempted to slip 
simulated explosives and bomb parts past passenger checkpoints. Unlike 
the covert tests of several years ago that involved the detection of 
fully assembled simulated bombs, these tests often involved very small 
components that are easily hidden in items that TSA has chosen not to 
ban. AFGE TSO members report that even in trainings where TSOs 
themselves disassembled a simulated explosive and hid its parts in 
carry-on baggage, they were unable to find the parts by sight alone. 
Simply put, TSOs cannot be expected to detect what the human eye cannot 
see.
    The technology that would enable TSOs to detect potential weapons 
not readily apparent to the human eye is available, and is currently in 
use at three airports. According to published reports, TSA has 
purchased 20 of the machines and plans to test them at other airports 
over the next few months. For years, in report after report, both GAO 
and the DHS Inspector General have called on TSA to invest in and 
deploy technology that will assist TSOs in performing their screening 
duties in response to the ever-changing efforts of determined 
terrorists. In a February 2007 report to Congress, GAO wrote, ``TSA 
does not yet have a strategic plan to guide its efforts to acquire and 
deploy screening technolgies.'' \2\ In an October follow-up discussion 
of the issue, GAO found that TSA ``generally'' did not achieve the goal 
of deploying checkpoint technologies to address vulnerabilities.\3\
---------------------------------------------------------------------------
    \2\ GAO-07-448T, Aviation Security: Progress Made in Systematic 
Planning to Guide Key Investment Decisions, but More Work Remains.
    \3\ GAO-08-139T, Aviation Security: DHS Has Made Progress in 
Securing the Commercial Aviation System, but Key Challenges Remain.
---------------------------------------------------------------------------
    In addition, it should be noted that TSA has put tremendous 
emphasis on ``customer satisfaction''. The customer could be either the 
carriers who want their planes to depart on schedule, or the flying 
public, who want to get through the screening checkpoint and on the way 
to their gate as quickly as possible. In fact, the goal of TSA 
(according to SAM) is to ``provide the necessary level of aviation 
security and ensure that the average aviation security related delay 
experienced by passengers is minimized''.\4\ The reality is that there 
are many sources of delay to air travelers, including highway traffic, 
long lines at tickets counters and the sheer volume of passengers. All 
too often though, the blame for passenger delay is assigned to the 
checkpoint screening process. Although a goal of screening is to move 
passengers along as quickly as possible, it is not the only goal. TSOs 
report that they fear they may miss items that should receive 
additional scrutiny because they are under constant pressure to work 
quickly--at times, too quickly. TSA management should work with TSOs to 
test technology and develop protocols that keep the public safe while 
meeting the needs of passengers.
---------------------------------------------------------------------------
    \4\ GAO-07-299, Aviation Security: TSA's Staffing Allocation Model 
is Useful for Allocating Staff among Airports, but Its Assumptions 
Should be Systematically Reassessed.

Lack of TSO Input
    AFGE TSO members report that they have yet to feel that are a 
partner working with TSA to ensure aviation safety. According to the 
2006 Federal Human Capital Survey, 54% of the TSA workforce, 
overwhelming comprised of TSOs stated that creativity and innovation 
are not rewarded at TSA and only 38% of the workforce believed they had 
``sufficient resources'' to do their jobs. Half of TSA workers report 
they do not have ``a feeling of personal empowerment'' regarding work 
processes. Too often TSOs report they were laughed at by supervisors 
when they requested additional training. At many airports, speaking up 
about an alternative process or pointing out a problem was a certain 
path to retaliation, which could include either actual termination or 
harassing the worker until they quit. This attitude among TSA 
management runs counter to the mission of the agency by ignoring or 
discounting the input of over 43,000 TSOs on the frontlines of safety 
every day at 450 airports across the country.
    TSOs have implemented SOPs that sometimes change on a daily basis. 
As the ``face'' of TSA, they have to listen to passenger complaints 
about removing their shoes, emptying containers, removing laptops from 
cases, as well as complaints from parents who don't want to take their 
babies out of strollers to proceed through the detectors. When a new 
SOP is communicated by management, TSOs must almost instantly grasp and 
implement it. Too often TSOs state that they receive no or incomplete 
feedback from supervisors as to whether their implementation is correct 
or not.
    There should be a true and respectful discourse between TSA 
management and TSOs. No worker at DHS should be hesitant to point out a 
shortcoming that could impact public safety because they fear 
retaliation from management. This is a very real threat to the TSO 
workforce, because TSA refuses to be bound by the Office of Special 
Counsel's recommendations when TSOs are retaliated against for blowing 
the whistle on security breaches. TSOs do not have the right to appeal 
serious harmful personnel decisions to the Merit Systems Protection 
Board--even though their managers have that right. AFGE calls on 
Congress to pass H.R. 3212, a bill introduced by Representative Nita 
Lowey that would provide TSOs collective bargaining rights and 
workplace protections and ensure that they are treated the same as 
other workers at TSA.
    The availability and level of training and deployment of technology 
is incredibly inconsistent among our nation's airports. Given the 
resources necessary to get the job done quickly and effectively, and 
with valuable input from the TSOs doing the tough job of keeping the 
public safe, TSA can further accomplish its mission.
    This concludes my statement. I would be happy to take questions 
from the Subcommittee.

    Ms. Jackson Lee. And I now recognize Ms. Friend to 
summarize her statement for 5 minutes.
    We welcome you. We thank you for your service.
    And as I do that, let me acknowledge Congresswoman Ginny 
Brown-Waite of Florida, who has joined us, and a member of the 
committee.
    Ms. Friend, thank you.

   STATEMENT OF PATRICIA A. FRIEND, INTERNATIONAL PRESIDENT, 
         ASSOCIATION OF FLIGHT ATTENDANTS-CWA, AFL-CIO

    Ms. Friend. And thank you, Chairwoman Jackson Lee and 
members of the committee, for giving me this opportunity to 
testify today.
    It was our members, flying partners and friends who were 
among the first victims to die at the hands of terrorists on 
September 11th, all while performing their duties with 
professionalism. Today flight attendants remain the only 
frontline first responders guaranteed to be in the cabin of 
every passenger aircraft.
    Considering those facts, you would think that we would have 
been among the first to be given the tools and training to 
protect ourselves, our passengers and the aircraft. 
Unfortunately that is not the case. I hope that my testimony 
today will convince all members of this subcommittee that a 
glaring loophole in our aviation security remains, and that 
more must be done to close that dangerous loophole. While 
Congress and the administration have taken many steps to 
improve aviation security, flight attendants are still left in 
the passenger cabin with no meaningful training or tools.
    In the immediate aftermath of the attacks on September 
11th, it became clear that the flight attendant antihijacking 
and security training was outdated, inadequate and in major 
need of revision to reflect the current security threats. The 
report from DOT Secretary Mineta's Rapid Response Team called 
for a meaningful and comprehensive update for flight attendant 
security training, as did the staff report accompanying the 9/
11 Commission report. We have repeatedly asked for the 
necessary improvements to our training, including basic self-
defense maneuvers. We are not asking to be certified black belt 
martial arts experts, but simply a basic level of meaningful 
training to help protect ourselves, our passengers and slow 
down the next terrorist attack.
    We also desperately need better training on crew 
communication and coordination among the three components of 
in-flight security: flight attendants, pilots and air marshals. 
Today security training provided to flight attendants consists 
of the advanced voluntary training program provided by TSA and 
a basic mandatory training provided by the airlines.
    The TSA-developed advanced voluntary portion of flight 
attendant security training is conducted several times a year 
over 3 days at various community colleges around the country. 
The voluntary nature of the training requires a flight 
attendant to find 3 consecutive days off from work and to pay 
themselves for the necessary housing during these classes. AFA 
firmly believes that many of the provisions of this voluntary 
program should be integral parts of a basic mandatory training 
program.
    Currently the basic mandatory security training for flight 
attendants is provided directly by the airlines with little 
oversight by the TSA. Reports from our air safety health and 
security representatives indicate that security training has 
been systematically watered down year after year. A summary of 
reports on the status of flight attendant security training at 
a number of AFA-represented carriers is attached to my written 
testimony. A quick review will demonstrate the weakness of 
airline security training programs provided to flight 
attendants as first responders.
    As well as a lack of the most basic meaningful security 
training for flight attendants, equipment for enhancing on-
board aviation security is also lacking. The most basic 
necessity on board a passenger aircraft is the ability to 
communicate quickly, efficiently and clearly between the cabin 
and the flight deck crew. With pilots safely barricaded beyond 
their reinforced cockpit doors, and with instructions to limit 
exposure, it is crucial that a reliable and clear communication 
tool be provided for the aircraft crew to communicate with one 
another. Currently the only communication device available for 
cabin and flight deck crew is the aircraft interphone. This is 
the telephonelike device that I am sure you have all seen the 
flight attendants use on board aircraft. This device is 
unreliable for a number of reasons, but most critically access 
to an interphone may be blocked, or the interphone itself may 
be easily and quickly disabled.
    The events of September 11th clearly demonstrated that a 
more reliable form of communication is needed. AFA, along with 
other unions representing flight attendants at major carriers 
in this country, have repeatedly called for a wireless 
communication device for flight attendants to use on board the 
aircraft. Such a device would provide flight attendants with 
the ability to notify pilots at the earliest possible moment of 
a problem.
    Madam Chair and members of this subcommittee, it is 
unfortunate that I appear before you today 6 years after 
September 11th to tell you that while everything related to the 
experience of air transportation has changed, little has 
changed for the flight attendants' ability to protect you or 
themselves. The 9/11 Commission report highlighted numerous 
acts of bravery on that terrible day. It highlighted the heroic 
and professional acts performed by the many flight attendants 
on those four hijacked flights, even as they watched their 
flying partners brutally murdered. The report drew special 
attention to how the flight attendants on those flights acted 
in the best interest of their passengers and took action 
outside the scope of their training to do what they could to 
relay information and to protect those passengers and 
themselves. I can assure you that the flight attendants I know 
and represent would do the same thing again today when 
confronted with a similar situation. However, I am once again 
pleading with you to help make a repeat of that day a little 
less likely by giving us the tools and training that we need.
    Thank you for giving me this opportunity to testify on 
behalf of the brave women and men who staff the passenger 
aircraft of the U.S. aviation system. I look forward to 
answering any questions that you may have.
    Ms. Jackson Lee. Thank you very much, Ms. Friend.
    [The statement of Ms. Friend follows:]

                Prepared Statement of Patricia A. Friend

                            November 1, 2007

    Thank you Chairwoman Jackson-Lee, and the members of this 
Subcommittee, for giving me the opportunity to testify today. My name 
is Patricia Friend and I am the International President of the largest 
flight attendant union in the world, the Association of Flight 
Attendants--CWA (AFA-CWA). AFA-CWA represents flight attendants at 20 
airlines with over 55,000 members. Our members work onboard airline 
operations from the largest, international flights to small, regional 
service in thousands of communities across this country. It was our 
members, flying partners and friends that were the first victims to die 
horrible, brutal deaths at the hands of terrorists on September 11th 
while performing their duties with professionalism. Today, flight 
attendants remain as the only front line first responders guaranteed to 
be in the cabin of every single passenger aircraft operating in this 
county. Considering those two facts, you'd think that we would have 
been among the first to be given the tools and training to protect 
ourselves, our passengers and the aircraft. Unfortunately, Congress and 
the Administration have failed to take the necessary steps to make that 
possible.
    I hope that my testimony today will help convince all the members 
of this Subcommittee that a glaring loophole in our aviation security 
remains and that more must be done to close that dangerous loophole. 
I'm here to tell you that for the over 100,000 flight attendants in 
this country, very little has changed since the attacks of September 
11th. While this Congress and the Administration have taken steps for 
airline pilots, who are now safely barricaded behind reinforced cockpit 
doors and are in some cases armed with guns, and air marshals are on a 
higher percentage of flights then before September 11th, flight 
attendants are left in the passenger cabin with no meaningful training 
or tools. This is an unacceptable situation and one which we, many 
aviation security experts and the 9-11 Commission have been urging a 
change to for well over six years now.
    In the immediate aftermath of the attacks on September 11th, 2001, 
I was appointed by then Secretary of Transportation, Norman Mineta, to 
his Rapid Response Team for Aircraft Security, a group of industry 
experts assembled to recommend aircraft security improvements. The 
members of this team were appointed in order to bring our collective 
experience together to attempt to address what we viewed as the glaring 
loopholes that were exploited by the 9-11 terrorists. One of those 
identified loopholes was the inadequate and outdated training provided 
to flight attendants. The report for the Rapid Response Team called for 
a meaningful and comprehensive update for flight attendant security 
training to reflect the current threat environment, as did the staff 
report accompanying the 9-11 Commision.
    It was clear that the flight attendant anti-hijacking and security 
training provided by the carriers was outdated, inadequate and in major 
need of revision to reflect the current security threats posed by 
terrorist attacks onboard aircraft. Previous training that called for 
flight attendants to be cooperative with terrorists that were hoping to 
land a plane somewhere to negotiate for the release of hostages was 
clearly no longer the situation flight attendants would face in another 
Al-Qaeda attack onboard an aircraft. The threat posed to flight 
attendants, passengers and the aircraft changed and our training needed 
to reflect the new reality.
    What we have repeatedly asked for is to update our training to 
include a number of important facets. Among them are basic self defense 
maneuvers to allow for us to defend ourselves against a terrorist 
attack. We are not asking, as some have tried to portray it, to be 
certified black belt martial arts experts. We are simply asking for a 
basic level of meaningful training to protect ourselves and slow down 
any terrorist attack. Also included would be training on crew 
communication and coordination. Currently, there is no comprehensive 
training or explanation of what the three components of in-flight 
security--flight attendants, pilots and air marshals--are trained to do 
in case of an attack. Clearly, these three groups must be trained on 
how to work together as a team to be as effective as possible. 
Unfortunately, that is not happening.
    Ever since 9-11, AFA-CWA has been engaged in aggressive and 
repeated legislative efforts to enact legislation to provide the 
meaningful training that we need. Unfortunately, our efforts have been 
thwarted by airline management--which is more interested in the 
financial bottom line rather than meaningful security efforts--as well 
as refusal and outright stonewalling by federal agencies.
    I have prepared an outline for the Subcommittee on our various 
legislative efforts since September 11th, 2001.
Air Transportation Security Act (ATSA)
    Our first legislative efforts were undertaken in Congress during 
drafting and debate of the Air Transportation Security Act (ATSA) in 
the fall of 2001. The final legislation approved by Congress included 
provisions that required the FAA to update and improve flight attendant 
security training requirements. These provisions called on the FAA to 
require that air carrier flight attendant training programs be updated 
and changed to reflect the current security and hijacking situations 
that flight attendants may face onboard the aircraft. It was AFA-CWA's 
intention and belief by ensuring that the FAA approve these updated 
programs, all carriers across the industry would implement similar, if 
not identical, training programs.
    However, in the immediate months after passage of ATSA it became 
abundantly clear that the security training programs being implemented 
by the carriers and approved by the FAA were not adequate or 
consistent. There was a wide variance in the type of training and the 
hours spent on the training. Some carriers were showing flight 
attendants a twenty minute video, while others were conducting two full 
days of mandatory, hands-on training. These discrepancies in the 
security training in the aviation system led to many flight attendants 
unprepared for any future terrorist attack onboard an aircraft. We have 
stated repeatedly that all flight attendants, regardless of the carrier 
employing them, must receive the same level of security training.
    It was at this time that we began to urge Congress to change the 
requirements for flight attendant security training to include a 
provision that mandated a set number of hours for the security 
training. These mandates would have to be enforced so that all carriers 
would be required to provide the same level of adequate security 
training for all flight attendants. AFA-CWA still believes that this is 
the best requirement for training.

Arming Pilots Legislation
    During the spring of 2002, as legislation began moving in the House 
and Senate that would allow pilots to carry fire arms, AFA-CWA asked 
that Congress mandate 28 hours of detailed flight attendant security 
training at all carriers, with the training requirements and guidelines 
to be developed by the Transportation Security Agency (TSA). In the 
House, AFA-CWA worked closely with Representative Steve Horn (R-CA) to 
introduce an amendment in the House Transportation and Infrastructure 
Committee to the Arming Pilots Legislation that would mandate 28 hours 
of detailed flight attendant security training. At the last minute, 
Representative Horn did not offer the amendment after discussions with 
the Chair and Ranking Member in the hope that language would be 
included in the final bill before reaching the House floor. Eventually, 
a provision was included in the final version that passed that House 
requiring TSA to develop detailed flight attendant security training 
requirements that must be followed by all carriers, but not mandating 
28 hours specifically.
    In the Senate, Senators Bob Smith (R-NH) and Barbara Boxer (D-CA) 
included AFA-CWA's ideal provisions mandating 28 hours of detailed 
flight attendant security training in their Arming Pilots Legislation. 
As the Senate debated amendments to the Homeland Security Act on 
September 5th of 2002, we were successful in convincing a majority of 
Senators to support the amendment and succeeded in including the 
provisions in the Homeland Security Act.

Homeland Security Act
    The House version of Homeland Security did not include provisions 
on arming pilots or flight attendant security training. While the bill 
was being finalized in the Homeland Security Act Conference Committee, 
AFA-CWA urged the Committee to support the Senate version of the 
language, but we were ultimately unsuccessful in having the mandated 28 
hours of training included. The final legislation did include language 
that would require TSA to issue a rule mandating a set number of hours 
for extensively detailed flight attendant security training that must 
be implemented by all carriers and mandatory for all flight attendants.
    While not completely satisfied with the final language, we began to 
work closely with TSA and those developing the training curriculum and 
guidelines in order to guarantee that the training requirements and the 
final rule issued by the TSA would be as strong and comprehensive as 
possible.

Airline Management Efforts to Kill Flight Attendant Security Training
    Airline management has been strongly opposed to any efforts that 
would require them to abide by any industry wide training standards or 
a firm requirement on the number of hours required for training. To 
them, it has not been an issue of security, but an issue of bottom line 
profit. They have fought AFA-CWA every step of the way and have even 
attempted a number of back door efforts to completely gut requirements 
for flight attendant security training.
    In the spring of 2003, they attempted to insert a provision into 
the Omnibus Appropriations Act that would make any flight attendant 
security training required by TSA voluntary. They had also worked 
consistently to legislate that any flight attendant security training 
be made voluntary, make the flight attendants pay for the training 
themselves and prevent industry wide standards for the security 
training or eliminate it completely.

Vision 100_FAA Reauthorization
    In 2003, as the House worked on its version of the Vision--100 FAA 
Reauthorization, the carriers continued in their efforts to gut flight 
attendant security training. Early in the process, AFA-CWA was 
approached by certain carriers about possibly reaching a compromise on 
the issue that could be acceptable to all. It was abundantly clear to 
flight attendant labor unions that we could either negotiate with the 
committee on language that we could live with or take our chances with 
airline management forcing through their preferred language. Regardless 
of our support for the current law, it was clear that the Congressional 
leadership of the majority were intending to enact changes to flight 
attendant security training, at the request of airline management.
    In the end, the final language included in the House FAA 
Reauthorization created a two tier approach to training. It created an 
advanced, voluntary training program and a basic, mandatory level of 
security training with the requirement that TSA must develop firm and 
specific guidelines for that training. It was our understanding that 
this compromise was a settled issue. Unfortunately, at the last minute, 
Continental Airlines went to Republican House Leader Tom DeLay and had 
him change one word in the security training provisions. He had the 
provision that said ``TSA shall issue guidelines'' changed to ``TSA may 
issue guidelines''. By changing this one word, he took away the ability 
to force TSA to issue these guidelines. TSA, which has proven to be 
under the pressure of the carriers, would now not be required or 
mandated to issue meaningful guidelines for crucial, mandatory flight 
attendant security training.
    Since enactment of that legislation, AFA-CWA has pursued various 
efforts to improve upon our security training. Unfortunately, we have 
been unsuccessful.

Current Status of Flight Attendant Security Training Programs
    Today, training provided to flight attendants remains 
unsatisfactory. It consists of the advanced, voluntary training program 
provided by TSA and basic mandatory training provided by the airlines 
themselves.

Advanced, voluntary training
    Currently, the TSA has developed the advanced, voluntary portion of 
flight attendant security training. The training is conducted several 
times a year over three days at various community colleges around the 
country and focus on self defense training. At times, TSA has been slow 
in providing information on class locations and dates, depressing 
turnout. It has also become increasingly difficult for our members to 
attend the training as it has become harder for them to find three 
consecutive days to take off from work. Also, with the recent rounds of 
bankruptcies in the airline industry and the resulting dramatic pay 
cuts, our members have found it difficult to pay for the necessary 
housing during these classes. Questions remain about the effectiveness 
of this training when it does not include a yearly recurrent training. 
This is a one time training that does not require a yearly 
``refresher'' course. Further, AFA-CWA firmly believes that many of the 
provisions of this voluntary program should be integral parts of a 
basic, mandatory training program.

Basic, mandatory training
    At this time, the basic mandatory security training for flight 
attendants is provided directly by the airlines themselves, with little 
oversight by the TSA. While Congress established the TSA to develop and 
oversee transportation security programs, according to the September 
2005 Government Accountability Office (GAO) report to Congress on 
flight attendant security training, TSA believes it is the individual 
air carriers themselves who are responsible for establishing 
performance goals for these training programs. Unfortunately, TSA's 
inability to carry out its most basic oversight capabilities has 
resulted in a further watering down of flight attendant security 
training programs over the past several years.
    In fact, reports from our Air Safety, Health and Security 
representatives at AFA-CWA represented carriers of all sizes indicate 
that security training has continually been watered down year after 
year. In fact, one of our members recently reported that instead of 
spending time on required security training, the airline instructor 
released the students in order to ``take an early lunch'', neglecting 
to cover the required program. I have attached a summary of reports 
from our representatives on a number of AFA-CWA represented carriers, 
you can see how the training is again as varied and random as that 
which existed prior to September 11th.
    The 2005 GAO report goes on to state that TSA has failed in its 
basic requirement to provide overall strategic goals for the carriers 
or to develop a framework from which to establish goals for the 
training. While TSA told the GAO that they planed on completing work on 
detailed guidance for airlines two years ago, to our knowledge, they 
have continued to fail in this most basic requirement.
    Furthermore, TSA has been given the ability to periodically review 
and audit airline training programs. It is unclear how frequently TSA 
is actually undertaking this requirement. In fact, as the September 
2005 GAO report stated, ``although TSA officials stated that TSA 
inspectors reviewed all 84 air carriers' revised security training 
curriculums in response to January 2002 guidance and the corresponding 
standards, TSA was only able to provide us documentation related to 11 
reviews.''
    Also, the Vision 100 FAA Reauthorization included a provision that 
required the TSA to consider complaints from flight attendants when 
determining when to conduct a review and audit of a carrier's security 
training program. TSA representatives told the GAO that they ``were not 
aware of any instances in which crew members had complained to TSA'' 
about the training programs. I can attest to the fact that this is not 
accurate. AFA-CWA members have written TSA to complain about the 
watering down and inadequacies of their training programs. Either TSA 
officials do not read their mail, or they were not truthful with GAO 
investigators.
    The September 2005 GAO report is full of promises from the TSA to 
develop reporting guidelines, databases for the tracking of carrier 
training programs, a handbook to document procedures for TSA inspectors 
and reorganizing inspection staff into a newly created Office of 
Compliance. I urge this Committee to conduct the proper oversight to 
see if TSA has truly and completely followed through with their 
promises to the GAO over two years ago. While taking these steps still 
leaves the current security training woefully inadequate, it could help 
provide a level of consistency that is currently lacking in the 
industry.
    I regret to inform the members of this Subcommittee that due to TSA 
inaction and lack of oversight, airline managements' desire to 
streamline and cut training programs and lack of--to date--
Congressional oversight, flight attendant security training programs 
are no more effective today as they were prior to September 11th.

Lack of Equipment to Enhance Aviation Security in the Aircraft Cabin
    As well as a lack of the most basic, meaningful security training 
for flight attendants, equipment for enhancing onboard aviation 
security is currently lacking. The most basic necessity onboard a 
passenger aircraft is the ability to communicate quickly, efficiently 
and clearly between the cabin and flight deck crew. With pilots safely 
barricaded behind their reinforced cockpit doors, and with instructions 
to limit exposure, it is crucial that a reliable and clear 
communication tool be provided for the aircraft crew to communicate 
with one another in an emergency situation.
    Currently, the only communication device available for cabin and 
flight deck crew is the aircraft interphone. This is the telephone 
device that I'm sure you've all seen the flight attendants onboard the 
aircraft use to make announcements and to communicate with the cockpit. 
This device is inconvenient for a number of reasons. First, an 
inoperable interphone is not a reason to prevent an aircraft from 
departing for a scheduled flight. Second, the interphone is located in 
the galleys of the aircraft--all the way in the aft or in the front--
making it very difficult to run to in an emergency situation if flight 
attendants are located throughout the cabin of the aircraft.
    It should also be noted that when various federal agencies 
conducted a mock terrorist attack onboard an aircraft in June of 2005, 
referred to as ``Operation Atlas'', one of the first things that the 
mock terrorists did was to cut the phone cord on the aft interphone, 
thereby restricting communication between the cabin and cockpit. Many 
crucial minutes passed before the cockpit crewmembers were even aware 
that anything had happened, giving the terrorists plenty of time to 
kill and injure various crewmembers and passengers. While this was a 
mere ``mock'' hijacking, such a possibility exists today.
    AFA-CWA, along with other unions representing flight attendants at 
major carriers in this country have repeatedly called for a cost 
effective, wireless communication device for flight attendants to use 
onboard the aircraft. Such a device would provide flight attendants 
with the ability to notify pilots at the earliest possible moment of a 
problem. The technology is available today and has even being factored 
into the designs on the newer aircraft coming off the assembly lines at 
Boeing and Airbus. There are several different vendors in this country 
that have prepared just such a cost effective and functional device 
that could easily be integrated into the aircraft operating systems and 
could be installed on all U.S. commercial aircraft in a relatively 
short period of time. AFA-CWA believes that it is well past time that 
hands-free, discreet, wireless devices should be made mandatory for all 
flight attendants.
    The need for such a device is not a new one that has only emerged 
post 9-11. In fact, in 1999, the White House directed the FAA to 
establish the Commercial Aviation Safety Team (CAST) to investigate 
numerous turbulence injuries that were occurring onboard aircraft. That 
year, the CAST Committee began working on a bi-directional wireless 
communications system for pilots and flight attendants. The system was 
needed because at times of spur-of-the-moment turbulence, the pilots 
could not ensure that flight attendants would hear a public address 
warning over the cabin intercom. In addition, numerous cases of flight 
attendant and passenger injuries due to turbulence could not be 
communicated to the pilots because the flight attendants were 
unconscious on the floor with no means of communicating. Studies 
reviewed by CAST showed that wireless notification would result in huge 
savings for air carriers with fewer flight attendant on-duty injuries. 
The business case based on this is available.
    The events of 9-11 clearly demonstrated that a more reliable form 
of communication, other than cabin interphones, is needed. Other 
methods of determining the cabin status such as video cameras have been 
tested but are laced with problems and concerns about their usage. A 
wireless system allows for integration of the air marshals and provides 
a compromise to the countries that do not want lethal weapons or air 
marshals onboard the aircraft.
    In fact, Congress itself has recognized the possibility that this 
technology presents. The Aviation Transportation Security Act (ATSA) 
directed the FAA to ``revise procedures'' for communicating between the 
cockpit and aircraft cabin. Then in March 2002, the International Civil 
Aviation Organization (ICAO), recommended that all international 
carriers provide flight attendants with a discreet, wireless 
communication device. In December 2002, the Homeland Security Act gave 
the TSA the ability to require discreet, wireless communication devices 
for flight attendants. And the Intelligence Reform and Terrorism 
Prevention Act of 2004 included the requirement that the TSA conduct a 
study on the technology and ability to install such a wireless 
communication system.
    Unfortunately, as with our training, neither TSA, nor the FAA have 
taken any actions to try and provide such a communications system, even 
after repeated requests from Congress that something be done. In fact, 
the FAA has taken the position that there is no need for additional 
technology or communication devices onboard the aircraft. They believe 
that teaching flight attendants and pilots a secret knock, followed by 
a code word is sufficient enough method to communicate that an attack 
of some sort is taking place. I am not joking, even though I sincerely 
wish I was.
    Madame Chair and members of this Subcommittee, it is unfortunate 
that I appear before you today, six years after September 11th, 2001--
six years after our colleagues were among the very first victims on 
that day--to tell you that little has changed since that day. I wish I 
could tell you differently, but I can't. We have tried repeatedly to 
get Congress, the TSA and our employers to take the action necessary. 
Those efforts have been repeatedly thwarted. While air marshals are on 
more flights and pilots are barricaded behind reinforced doors and 
provided with lethal weapons to protect themselves those most at risk, 
and those most able to act in the aircraft cabin to defend their 
passengers and the aircraft, have been provided little tools. I want to 
ask Congress--even if a cockpit is protected and the pilots land the 
aircraft successfully, while everyone in the passenger cabin is dead, 
have the terrorists still not achieved their goal to wreak havoc and 
bring terror back into our lives?
    The 9-11 Commission report highlighted numerous acts of bravery on 
that terrible day. It highlighted the heroic and professional acts 
performed by the many flight attendants on those four hijacked flights 
even in the light of seeing their devoted flying partners brutally 
murdered. It drew special attention to how the flight attendants on 
those flights acted in the best interests of their passengers and 
``took action outside the scope of their training'' to do what they 
could to relay information and to protect those passengers and 
themselves. I can assure you that the flight attendants I know and 
represent would do the same thing again today when confronted with such 
a situation. However, I beg you to please help make a similar repeat of 
that day a little less likely, by giving us the tools and training we 
need.
    Thank you for having the opportunity to testify today and I look 
forward to answering any questions that you may have.

    Ms. Jackson Lee. And if I might, as I introduce, thank you 
for your important testimony, just to indicate that anyone who 
focused on 9/11, as we all have done, and certainly we respect 
all of the law enforcement and frontliners in transportation 
security, allow me to acknowledge in particular the flight 
attendants for the role that will maybe go untold on 9/11 as 
they continue to put passengers first. And we thank them very 
much for all that they have done.
    I would like to now yield to and recognize Captain 
Hesselbein to summarize his statement for 5 minutes, and we 
thank him very much.
    Welcome, Captain Hesselbein.

  STATEMENT OF ROBERT HESSELBEIN, CHAIRMAN, NATIONAL SECURITY 
     COMMITTEE, AIR LINE PILOTS ASSOCIATION, INTERNATIONAL

    Mr. Hesselbein. Thank you. And good afternoon, Madam 
Chairwoman and distinguished members of the subcommittee. On 
behalf of the 60,000 ALPA members who fly for 42 airlines in 
the United States and Canada, I want to thank you for this 
opportunity to provide a frontline perspective on aviation 
security training and equipment needs.
    For such a broad topic, I have decided to narrow my remarks 
to just two of the association's security priorities. I would 
like to address the training and support gaps in the Federal 
Flight Deck Officer Program, and also the need for secondary 
barriers and procedures to protect our flight decks.
    Let us start with the Federal Flight Deck Officer Program, 
or as we call it the FFDO Program. The first class of 44 FFDOs 
graduated from training in April 2003. Since then many, many 
thousands of airline pilots have been trained, deputized and 
now serve as Federal flight deck officers. But there are 
several things that are hampering the recruitment and retention 
of FFDOs. They must often risk discipline by their employers to 
attend training. They must pay all out-of-pocket expenses to 
attend training as well. And to practice and requalify, they 
have to spend their own money, and then they must perform their 
duties with no postgraduate mentoring and no minimal 
supervision. They are expected to accomplish their duties and 
succeed in their assigned missions, but they do it with a 
fraction of the support structure enjoyed by other Federal law 
enforcement officers.
    Many employers will not permit pilots to take unpaid leave 
to attend FFDO training. Unlike military leave, there are no 
legal devices that require employers to allow their pilots to 
leave for required training. In fact, some airlines create 
obstacles for pilots to attend this valuable training.
    After graduating from basic training for which they 
personally pay up to $500 in housing, meals and transportation 
expenses to attend, an FFDO is deployed on mission status 
without the guidance of a field training officer or frontline 
supervisor. All that the FFDO has for support is a TSA phone 
number to call if any issues arise, access to a protected Web 
site for routine scheduling, and they also can access a Web 
site for administrative information.
    Furthermore, there is no partner system in place to mentor 
incoming FFDOs, and no routine supervised training beyond a 6-
month proficiency demonstration until their third year of 
mission status. At that point they are provided with 2 days of 
recurrent training.
    Speaking of which, the Federal Air Marshals Service 
announced that as of April 25, 2007, all FFDOs must attend a 2-
day recurrent training event in Atlantic City, New Jersey, at a 
certain interval within their FFDO career. Because of the very 
limited training dates and locations, pilots must often travel 
hundreds, if not thousands, of miles to attend, again at their 
own expense. This function may cost pilots upwards of $800.
    In a time of significantly reduced pilot salaries and 
terminated pension plans, we are concerned that the FFDO 
Program's attrition rate will grow, and fewer pilots will make 
the personal sacrifices needed to keep the program alive. One 
solution is to add more training locations and use current 
Federal air marshal facilities for their training.
    We believe Congress can take a few simple steps to ensure 
that FFDOs remain an effective force in protecting our skies. 
First of all, enact legislation that gives FFDO trainees the 
same leave rights as those citizens performing military 
service. Second, we must ensure that pilots who enter the 
system have ongoing and frequent access to standardized 
training that includes protocols, procedures and training 
scenarios that coordinate with our Federal air marshal 
counterparts and, especially, reimburse the FFDOs for their 
reasonable out-of-pocket training and travel costs.
    Speaking of cost-effective measures, ALPA believes that the 
flight deck's secondary barrier and associated procedures will 
provide the biggest bang for the taxpayer bucks in terms of 
aviation security on the flight deck. To that end ALPA has 
worked closely with Congressman Steve Israel on the development 
of a bill, H.R. 3925, that would mandate the installation of 
secondary barriers in all Part 121 aircraft.
    While the reinforced door is a vital element in flight deck 
protection, it is not fully sufficient to protect the flight 
deck from a well-coordinated, efficient assault executed when 
the door is open. An inexpensive secondary barrier, along with 
access procedures, will ensure that door transitions are made 
safely, securely and in minimal time. Importantly, two U.S. 
major airlines have already developed and installed these 
secondary barriers on their airplanes, and others seek agreed-
upon design standards for their manufacturing installation as 
well.
    The industry seeks standardized procedures to complement 
these use of secondary barriers to complement the wall 
fortifications. The few seconds that a secondary barrier will 
buy during a hijacking event are worth their weight in gold if 
they prevent hijackings. The barriers are especially needed on 
all cargo aircraft as well, which do not even have a flight 
deck door between the cargo and the crew.
    In summary, all FFDOs must be effectively trained and 
supported to remain a successful part of the security process. 
Inexpensive secondary barriers that have a high benefit for a 
very low cost should be considered and installed. We urge 
Congress to support both of these initiatives.
    Thank you very much, and I would be happy to answer any of 
your questions.
    [The statement of Mr. Hesselbein follows:]

             Prepared Statement of Capt. Robert Hesselbein

                            November 1, 2007

    Good afternoon. I am Bob Hesselbein, Chairman of the National 
Security Committee of the Air Line Pilots Association, International 
(ALPA). ALPA is the world's largest pilot union, representing more than 
60,000 pilots who fly for 41 airlines in the U.S. and Canada. ALPA was 
founded in 1931 and our motto since its beginning is ``Schedule with 
Safety.'' We are pleased to have been asked to testify today on the 
important subject of human resources and equipment as used to enhance 
aviation security.
    There are obviously a great many subjects that could be addressed 
within this general topic, but today I would like to focus on just two: 
Federal Flight Deck Officer (FFDO) training and support needs, and 
secondary barriers on flight decks.

Federal Flight Deck Officer Program
    ALPA was the first organization to call for the creation of the 
Federal Flight Deck Officer (FFDO) program, which became a reality when 
the Arming Pilots Against Terrorism Act (APATA) was enacted as part of 
the Homeland Security Act of 2002.
    The first class of 44 Federal Flight Deck Officers graduated from 
training in April 2003. Since then, thousands more have joined their 
ranks and are recognized as key components in the U.S. government's 
layered approach to protecting the aviation domain. Because the 
majority of these federal law enforcement officers are ALPA members, 
the Association has a vested interest in the integrity and viability of 
the program and remains engaged in a close working relationship with 
the Transportation Security Administration (TSA) and the Federal Air 
Marshal Service (FAMS) to ensure the program's continued success.
    The FFDO program is unique in that it capitalizes on the 
willingness of volunteer candidates to protect a critical component of 
the nation's infrastructure. In order to become an FFDO, a pilot must 
successfully pass background, psychological and physical requirement 
vetting, and then complete a rigorous initial training curriculum at 
the Federal Law Enforcement Training Center (FLETC) in Artesia, NM. 
Upon so doing, the pilot is deputized as a federal law enforcement 
officer and, under color of federal law, is empowered to use lethal 
force to protect the flight decks of passenger and all-cargo transport 
category aircraft. No other such program exists within the federal law 
enforcement domain.
    From the outset of our support for the FFDO program, we have 
emphasized that the initiative must select, train and deputize 
qualified candidates who are chosen from the airline pilot population. 
We applaud TSA's significant efforts to develop and deploy the FFDO 
program, and the FAMS' contributions in maintaining and managing it. 
These successes notwithstanding however, it must be noted that FFDOs 
are not provided with post-basic training opportunities beyond the need 
to demonstrate semi-annual weapons proficiency and a brief two-day 
refresher course after three years of duty.
    ALPA has brought this inadequacy to the attention of the TSA/FAMS 
upon numerous occasions. Although armed pilots have shown tremendous 
professionalism in the performance of their duties and provide the most 
wide-spread armed federal security coverage in United States airspace, 
we remain concerned that their training and mentoring falls short of 
what other federal officers receive to accomplish their respective 
missions. It is clear that no other federal law enforcement officers 
are expected to succeed in their assigned missions without a support 
structure which includes post-basic-training mentoring and ongoing 
training.
    As an example of this shortcoming, the FFDO's duty to protect the 
flight deck clearly supports the mission of the Federal Air Marshal 
Service. However, armed pilots are not trained to work in coordination 
with FAMs and are generally unprepared to deal with an onboard security 
event requiring FAM intervention. Determining how to handle an 
attempted hijacking should not happen at the moment it occurs, but 
rather during training events on the ground. Response protocols, 
procedures, and training scenarios should be coordinated between FFDOs 
and FAMs in advance--the middle of a crisis is not the time to make 
introductions and determine each other's unique roles. The federal 
government conducts interagency crisis management exercises on a 
regular basis. It is only reasonable, therefore, that armed FFDOs 
should know what to expect from FAMS in the event of an attempted 
assault on the cockpit, and what the FAMS will expect of them.
    FFDOs, by the very nature of their work, operate individually and 
with little direct supervision. Nearly all communication between them 
and FAMS program managers is accomplished by secure e-mails which 
generally incorporate basic advisories or scheduling details. Clearly, 
this missed opportunity for distance learning, information sharing and 
mentoring is a program shortcoming. FFDOs should be provided mission-
related educational materials using secured-access libraries. In 
addition, training opportunities should be provided at local FAMS field 
offices.
    Another significant issue which serves as a deterrent to pilot 
participation in the program relates to the need to compensate 
volunteer FFDOs for out-of-pocket expenses that they incur during 
initial, re-qualification and recurrent training events. These costs 
include hotel, meal, travel, ammunition and incidentals, which can add 
up to hundreds of dollars for an individual pilot. ALPA believes the 
government should assist the FFDOs by reimbursing them for such 
expenses for the following reasons:
        <bullet> The program is a key component of our nation's layered 
        aviation security system. Its value has been attested to by 
        multiple components of the federal government, to include the 
        Department of Homeland Security, the Transportation Security 
        Administration and the Federal Air Marshal Service. Because 
        global intelligence efforts continue to indicate that aviation 
        remains a key target for terrorism, this reality must not be 
        underestimated. The program was overwhelmingly approved by 
        Congress because of its demonstrated need and because of the 
        responsible vision that was articulated for developing and 
        deploying it.
        The presence of FFDOs on commercial flights is a component of 
        the system utilized to schedule Federal Air Marshal flight 
        coverage and by the North American Air Defense Command (NORAD) 
        in the decision-making matrix related to handling security 
        events involving transport category aircraft. FFDOs are tracked 
        by the government not only when they are piloting aircraft, but 
        also when they are in transit, while deadheading, or commuting 
        in the aviation domain in order to utilize all resources to 
        best advantage.
        <bullet> Initial training and re-qualification costs deter FFDO 
        program applications. FFDOs frequently incur significant out-
        of-pocket expenses to attend basic and re-qualification 
        training. Average travel, food and lodging costs incurred for 
        basic training vary from $300 to $500. Additionally, mandatory 
        twice-yearly firearms re-qualification costs an average of $75 
        per event for most FFDOs. However, because of a lack of re-
        qualification sites in Alaska and Hawaii, FFDOs domiciled in 
        those states must travel to the continental U.S. twice yearly 
        to fulfill training requirements, which may require the pilot 
        to use several days of personal time. As a result, these FFDOs 
        incur lodging and food expenses averaging $150 per re-
        qualification event. Because FFDOs are not reimbursed for such 
        costs, application rates are negatively impacted. Re-
        qualification sites are needed in the states of Hawaii and 
        Alaska.
        <bullet> Recurrent training requirements have increased FFDOs' 
        costs. After three years of service, FFDOs must attend a two-
        day recurrent training event in Atlantic City, NJ. For most 
        FFDOs, attendance at two full days of training requires a 
        commitment of four days of their time, plus associated travel, 
        hotel and meal costs estimated at $800. The FFDO program will 
        likely lose some current participants and potential candidates 
        as a direct result of the fact that only one training site will 
        be used for this purpose. In times of significantly reduced 
        pilot salaries, terminated pensions, and difficulty in 
        obtaining leave for training, the impact on FFDOs is 
        significant. To alleviate this problem, additional, 
        strategically located recurrent training sites are needed. The 
        FAMS has indicated its awareness of this problem, and should be 
        provided with sufficient resources to address it.
        <bullet> The FFDO program is efficient and cost-effective. It 
        supplements the FAMS and provides a high degree of deterrence 
        at a small cost to the US government and taxpayers. The 
        government should recognize the value that is derived from the 
        program and do all within its power to support and grow it, 
        rather than letting it languish and diminish.
        <bullet> FFDOs have no external means for raising funds. Unlike 
        other individuals who volunteer to assist a government entity 
        by performing a dangerous duty (e.g., volunteer firefighters), 
        FFDOs have no external means of raising funds to cover their 
        personal expenses. They are not allowed to hold fundraisers, 
        solicit funds, or even identify themselves to the public.
        <bullet> Financial demands are causing FFDOs to reconsider 
        their participation in the program. FFDOs are volunteers who 
        provide a reliable level of security for the domestic aviation 
        industry at no cost to air carriers and at minimal cost to the 
        government. By their own choice, they subject themselves to 
        significant government regulation, supervision, personal 
        expense, liability and risk. The more demands for personal 
        sacrifice they are subjected to, the greater the risk that 
        their willingness to participate will diminish or evaporate. 
        This fact is now being demonstrated as FFDOs learn that they 
        must pay significantly in terms of dollars and personal time to 
        attend recurrent training. Even before the announcement was 
        made about the new recurrent training requirement, some FFDOs 
        had reached a point of departure from the program because the 
        personal cost in time and money had become too great.
    Clearly, Congress did not intend for the FFDO program to mature in 
a fashion that would cause current FFDOs to decline further 
participation, or to discourage prospective candidates from applying. 
However, the program has reached this stage because some pilots are 
simply unwilling to fund this layer of national security from their own 
pockets any longer.
    FFDOs provide a direct service to the nation and the aviation 
industry. The government should recognize the special nature of this 
program and ensure its ongoing viability by funding personal costs 
incurred by FFDOs related to training.
    The Association has worked continuously to suggest areas of 
additional ``fine tuning'' to the FFDO program since its inception, 
initially with TSA and more recently with the Federal Air Marshal 
Service (FAMS) since it assimilated the program two years ago. We have 
outlined in a white paper on the FFDO program 12 specific areas in 
which the program may be enhanced. We recommend that Congress legislate 
these improvements.

Secondary Barriers
    Airplane cockpits are vulnerable to breach and seizure during 
fortified cockpit door opening and crewmember transitions during 
flight. Flight and cabin crewmembers are not rigorously trained, 
however, to prepare and protect the integrity of the flight deck during 
the door opening and closing process, and what training is provided is 
not standardized between airlines. To remedy this shortcoming, ALPA is 
actively promoting the installation of flight deck secondary barriers 
to protect against an attack. These barriers, which have already been 
installed on some aircraft by two major airlines, are lightweight 
devices mounted on the passenger cabin side of the flight deck door and 
serve to deter individuals from congregating near the door, attempting 
to open the door, and help to identify those who may intend harm to the 
flight. The barrier is not intended to prevent access to the flight 
deck door, but it does provide a delay which helps give the flight and 
cabin crew invaluable seconds to react to a threat. The barrier is used 
in conjunction with the proper training of crewmembers and a 
standardization of procedures and protocols to ensure full security.
    Reinforced, or fortified, cockpit doors have added a valuable level 
of protection to airliner flight decks never before provided. A 
secondary barrier, accompanied by standardized procedures and protocols 
for protecting the cockpit door during those times it must be opened in 
flight, would significantly augment the fortified door and add an 
important layer of security to prevent hostile takeover of the cockpit.
    ALPA has expressed and coordinated its support of a secondary 
barrier with ALPA member airlines, other associations and non-member 
airlines, and with TSA and the FAA. We have found there to be a 
consensus among all those contacted that the secondary barrier is a 
valid proposal and that such a security enhancement would bring added 
value to aviation security at a reasonable cost.
    ALPA has worked closely with Congressman Steve Israel (D-NY) on the 
development of a bill, HR 3925, that would mandate the installation of 
secondary barriers on all Part 121 aircraft. ALPA fully supports this 
bill and calls on Congress to enact it promptly.
    In July of this year, ALPA published a white paper titled Secondary 
Flight Barriers and Flight Deck Access Procedures, A Call for Action 
which provides further details about this important equipment. That 
paper urges Congress, FAA, TSA, and industry to support secondary 
flight deck barriers and provide accompanying flight deck access 
procedures on all airliners by January 1, 2010. These barriers should 
be built to a standard that will delay an attack on the cockpit by at 
least five (5) seconds, thereby enabling crewmembers to close and 
secure the reinforced cockpit door.
    Again, we appreciate the opportunity to testify today and would be 
pleased to address any questions.
    [For additional see Appendix.]

    Ms. Jackson Lee. Let me thank you and all the witnesses for 
their testimony.
    At this time I remind each Member that he or she will have 
5 minutes to question panel one. I now recognize-- which is the 
panel for today. I now recognize myself for questions.
    Let me just have this question for each of you. You have 
made and provided this committee with a litany of concerns, 
which is why we are having this particular hearing and why I 
noted the absence of the air traffic controllers, who I believe 
are very much a part of helping to secure America. But the 
question that I want to ask each of you is that the various 
need for improvement, the various issues that you have raised 
that suggest a need for improvement, in your answers tell me 
whether or not you feel that this impacts on the security of 
America? And that is why we are here.
    And so, Mr. Gage, you mentioned the lack of relevant 
training, the low-grade nature of the training, and the fact 
that technology is not used at the level that it should. And I 
think a point that is very stark, the 19 percent attrition 
rate. So let me ask the question on how all of that, from your 
perspective, impacts on the security of the aviation traveling 
public.
    Mr. Gage. I think it impacts on it very negatively, and I 
think these are all choices that TSA has made. When training is 
old, it doesn't keep up with really the issues at the 
workplace, that training is useless; when training is 
inconsistently applied, when there is not enough staff. There 
was one of our screeners who asked why he hadn't been trained 
in a month, his training he is supposed to receive every week, 
and the supervisor basically just laughed. And it shows that 
the pressures that the TSA puts the workers as well as the 
supervisors under, it just does not take into account the 
risks. And I think it is a choice that TSA made. Even in 
technology, I don't believe they have stepped out on technology 
that could be most effective.
    So I think all these things add up to a workplace where 
instead of having good, solid workers who really see what their 
job is about and how important it is to the country, we have a 
revolving door. And I think that is probably the result of many 
of these choices that TSA has made.
    Ms. Jackson Lee. Thank you very much.
    You are remembering in your testimony, as you mentioned, 
the leak results of the covert testing on simulated bombs and 
bomb parts. Would you just quickly tell me what you think TSA 
could have done better to prepare the TSOs for future tasks? 
And with that I am going to submit into the record a statement 
by the Federal Law Enforcement Officers Association that 
recounts a number of incidents regarding the lack of detecting 
bomb material coming through the checkpoint.
    Mr. Gage. I think clearly that is a matter of technology. 
In my statement it said you can't hold a screener responsible 
for what he can't see with the current technology that is 
employed. And as I said, too, that even when our screeners 
became innovative and were placing components of an explosive 
device, very, very difficult to pick up and align at a 
checkpoint or even in the baggage area. So I think on that, 
technology clearly has to be purchased, has to be employed and 
has to meet the threat.
    Ms. Jackson Lee. Thank you.
    Ms. Friend, your membership are clearly on the frontline as 
well. And you indicated meaningful tools and the idea of 
training. For example, are you concerned that defense courses 
for flight attendants will place a burden on them to engage 
physically? Also, the pure communication tool, and I agree with 
you, it is clear that that one communication system is very 
vulnerable. Does the plight of your flight attendants today 
impact on security, and what is the most crucial need that you 
have today for flight attendants?
    Ms. Friend. Thank you.
    The aviation security system that we have developed over 
the past 6 years is a layered approach starting from the no-fly 
list to the security checkpoint to the reinforced cockpit 
doors, the FFDO Program. But the reality is when those layers 
fail, there is no one in the cabin of that aircraft except for 
the flight attendant, and as it should be.
    I don't mean to be critical in this response, but the 
pilots, armed or not, are not coming out of that cockpit to 
help, and they shouldn't, because it is critical that we 
protect the cockpit. But those of us who have become the last 
line of defense, the human shield, if you will, against the 
invasion of the cockpit, have no training on how we can best 
protect ourselves in a situation like that. We have--we are 
missing the most basic of tools to let the cockpit know that 
there is a serious security breach in the cabin of the 
aircraft. The only hope for any of us in that aircraft is to 
get that airplane safely on the ground. The sooner the flight 
deck crew knows that there has been a breach and that they must 
get the aircraft on the ground, the sooner that we can all be 
rescued. In the meantime, we are at the mercy of the 
individuals who have managed to breach this layer of security.
    Ms. Jackson Lee. You think the state of affairs impacts on 
the security of the passengers?
    Ms. Friend. Absolutely, absolutely. Without being overly 
dramatic, we may, in fact, with a barricaded cockpit door get 
that aircraft on the ground. The question is how many 
fatalities will exist in the back of the aircraft by that time.
    Ms. Jackson Lee. Let me just say that we are writing 
legislation, this committee is, in addressing that question. 
Let me thank you for your testimony.
    And it is my pleasure now to yield 5 minutes to the 
distinguished gentleman from California Mr. Lungren.
    Mr. Lungren. Thank you very much, and I thank the three 
witnesses for appearing before us and their very interesting 
testimony.
    Let me ask you this. We have problems. We are not perfect. 
We need to do more. But I would just ask the three of you, we 
have not had another instance since 9/11 in which someone has 
captured an aircraft and done what the terrorists did. Is that, 
in your judgment, pure happenstance, or are some of the things 
that we have done since then, have they been effective; and if 
they have been effective, which things that we have done with 
respect to your employees do you think have been effective?
    Mr. Gage.
    Mr. Gage. No, I don't think it is happenstance. I think 
that they are doing a very good job. I think everybody takes 
their job seriously. But at the same time, Congressman, I think 
that it could be more coordinated. I think that the training 
can be more consistently applied. I think that you shouldn't 
short-cut training, especially--for instance, a new standard 
operating procedure may come out, and the employee has no time 
to review it, has no time to see it, yet he is tested on it. 
And it just seems that--I think the training aspect, and to 
make this a more professional workforce, would go a long way to 
reducing the turnover, which something has to be done about the 
turnover and the way these people are treated on the job 
without any voice at work and with a performance system that 
just doesn't encourage creativity or innovation or even--or 
reward, I think, good solid work.
    Mr. Lungren. And a system of feedback in which the ideas of 
the frontline people is actually taken into serious 
consideration.
    Mr. Gage. That is true.
    Mr. Lungren. Let me ask you this. In terms of training, if 
you do testing properly, if you use testing as a training tool, 
that can be very effective. That is, if you have continual 
training in which you find where there are some holes, and then 
you use that to point out to your employees where, in fact, the 
shortcomings were, and use that to reenforce the training 
either that they have or new training that they are then 
receiving, it actually is part of the training as opposed to 
just a gotcha program?
    Mr. Gage. I don't disagree with that at all. But, for 
instance, our screeners are subjected to--one part of their 
certification is a contractor, a Lockheed--Martin. I don't know 
what they are doing there. But they come in, and our people are 
supposed to pat them down, and if they touch too softly, or if 
they touch too hard, something goes to their supervisor which 
affects their evaluations, affects their certification. They 
have no say in it. They don't even know what this person is 
looking for. But it is a negative. It is not really training 
there. It is totally gotcha.
    Mr. Lungren. I understand what you are saying.
    Ms. Friend, the question about what has been effective, if 
anything has been effective, from your standpoint and the 
standpoint of the people you represent.
    Ms. Friend. Clearly, as I said, we have set up this 
aviation security that is layered, and so far it is working. 
But we do know that those who would recreate an event as 
spectacular as that of September 11 are constantly probing the 
system. So the fact that they haven't yet found a weakness that 
they can exploit on a particular day doesn't mean that they are 
going to stop trying.
    Mr. Lungren. Let me ask something on that, and that is that 
we know that the American people today would react differently 
than they would have before 9/11, because beforehand we were 
told, sit in your seats, don't do anything, you will be in for 
a long ride, but eventually they just want to go somewhere. Now 
we know they want to use the aircraft as an instrument of 
destruction. So you have your passengers who are going to react 
differently and aid attendants if they need it. Is that taken 
into account in terms of the training?
    Ms. Friend. No, it is not. And I say that simply because we 
have not seen incorporated into our training a module or a 
portion on how do you manage that reaction. I mean, it is a 
question, I suppose, of crowd control. I mean, you don't want 
an out-of-ontrol mob. And you will have some passengers on 
board who will want to help, so help me understand how best to 
use that willingness to help, and don't expect me to just stand 
back and let the mob take over.
    Mr. Lungren. Mr. Hesselbein, in terms of the pilots who are 
the flight deck officers that we have in the program now, do 
they receive training about how they exit the cockpit, when 
they exit the cockpit, what they look for, how they use--where 
they place their weapon during that period of time, all those 
sorts of things? Is it that detailed such that they feel 
confident when they are taking their breaks and where they 
place the weapon and when they are supposed to use it and all 
that sort of stuff?
    Mr. Hesselbein. Congressman, without getting into the----
    Mr. Lungren. I don't want you to get into the absolute 
details. I am asking you is it that comprehensive so that we 
would have some confidence in these officers?
    Mr. Hesselbein. We have great confidence in the training 
the officers get in the understanding that their jurisdiction 
is a small flight deck area, and they are trained to protect 
that area and that space alone, and they are very well trained.
    I would like to address just a couple other comments that 
were thrown out as well from other members of the board, and I 
would like to reinforce that. First of all, there have been 
almost 60 hijackings since 9/11 across the world, so hijackings 
will continue. And the success of 19 individuals in 1 morning 
is certainly a motivator for those who choose to do great 
damage to attempt to do it again despite our effort.
    In regards to passenger responses of Flight 93, we cannot 
presume that all passengers will have the time or opportunity 
to do what the people on United 93 did. They had the 
opportunity to gather their wits about them, communicate over 
the telephone, find out what was happening that day. Then and 
only then they organized in the back of the plane to do the 
honorable and brave effort that they made in Shanksville, 
Pennsylvania.
    I would like to point out that the fortified flight deck 
door provides hijackers with a benefit that the people on 
United 93 didn't have. The hijackers inside a fortified flight 
deck would be protected from those who attempt to overrun the 
airplane. So we still have the same challenges we faced on 9/
11; however, at all levels our security has greatly improved 
from what we had that morning.
    Ms. Jackson Lee. I thank the gentleman.
    I am trying to acknowledge or will acknowledge 
Congresswoman Eleanor Holmes Norton, a member of the committee. 
And we will yield now 5 minutes to Congresswoman Clarke of 
Brooklyn, New York.
    Ms. Clarke. Thank you very much, Madam Chair, Ranking 
Member Lungren.
    Madam Chair, I would like to receive unanimous consent to 
receive the statement of Marcus W. Flagg, president of the 
Passenger Cargo Security Group and the Federal Flight Deck 
Officers Association, who unfortunately was unable to be here 
to testify today.
    Ms. Jackson Lee. Without objection, so ordered.
    [The information follows:]

                             For the Record

  Prepared Statement of Marcus W. Flagg, President of Passenger-Cargo 
    Security Group, and The Federal Flight Deck Officers Association

    Chairwomen Jackson-Lee, Congressman Lungren, Members of the 
Subcommittee:
    I am pleased to provide testimony before you this afternoon on the 
Government Accounting Office report, discussing Federal Coordination 
for responding to In-flight Security Threats. I am a United States 
Naval Academy graduate, a former Navy fighter pilot and a graduate of 
the Naval Post-Graduate School on Aviation Safety. I am also currently 
an airline pilot with UPS Airlines. On September 11, 2001, my father 
RADM Bud Flagg USNR and my mother Dee Flagg died aboard American 
Airlines flight #77, when it was commandeered by terrorists and crashed 
into the Pentagon.
    Since 2001, I have been proactive in improving aviation security to 
help protect our country against terrorism. I currently serve as 
president for two aviation security organizations. In 2005, I co-
founded the Passenger-Cargo Security Group (PCSG), which is a non-
compensated, not-for-profit trade association formed by commercial 
pilots from passenger and all-cargo airlines. These pilots fly for 
several different airlines, and are considered experts in aviation 
security from their work together on various airline security projects. 
PCSG continues to work with regulators, and members of Congress, and 
has provided testimony in the past for both the Senate and House.
    I also serve the not-for-profit and non-compensated Federal Flight 
Deck Officers Association (FFDOA) as its president. FFDOA represents 
Federal Flight Deck Officers (armed pilots), which now represent the 
third largest Federal Law Enforcement organization in the United 
States. The FFDO program is an extremely viable, cost effective, and 
successful element of our national aviation security effort today.

Security Philosophy
    PCSG believes in integrated security solutions that work together 
as a ``system of systems'' providing the maximum deterrent against 
terrorist attacks at the lowest possible expense. Flight crews are a 
key element in an integrated security system and are an asset that has 
yet to be fully exploited. Aircraft on the ground should be protected 
with security measures that begin in the cockpit and radiate outward to 
the airport parking lot and beyond. This clearly requires the 
cooperation of several different entities. Once a flight is airborne, 
only on-board assets can affect the positive outcome of a security 
breach. Therefore, it is crucial that flight crews have the training 
and information necessary to influence a safe outcome. The lives of 
hundreds of innocent Americans on-board the aircraft and thousands on 
the ground hang in the balance. Nothing can be made terrorist-proof, 
but intelligent and coordinated programs can provide a powerful 
deterrent to those who might attack the aviation interests of our 
country.

Cockpit Defense
    Federal Flight Deck Officers (FFDOs) are the first line of 
deterrence and the last line of defense. This is the most cost 
effective security measure we have to date. FFDOs are trained to stop a 
threat using the full spectrum of the force continuum. While the 
training is consistently reported as excellent, serious questions 
remain about the Transportation Security Administration's (TSA) 
administration of the program. Including the complete omission of the 
FFDO program in Secretary Hawley's most recent testimony dated October 
16, 2007. The FFDO program is a growing federal officer corps, but many 
more pilots are needed. Those volunteers will not be forthcoming unless 
fundamental changes in carriage, liability, time for training without 
airline obstruction, and international coverage are made to the 
program.
    Officer safety should be ``number one'' without question, as well 
as the safety of passengers. No one in law enforcement handles a 
firearm as many times a day as an operating FFDO per the TSA Standard 
Operating Procedure (SOP). This is a formula for an accidental 
discharge. The transporting protocol will lead to the loss of firearm 
retention, directly contradicting sound law enforcement practices, and 
the participating FFDOs should be commended for superior performance 
against a poorly constructed SOP. The politicizing of procedures and 
defiance of law enforcement lessons-learned places FFDOs and others in 
the airline environment at risk, as well as poses a liability on many 
fronts. The FFDOs should use transporting a locked firearm as an 
option, but otherwise carry their firearm on their person. The 
September 2001, FBI Cockpit Protection Plan provides a 6-day course to 
arm 60,000 pilots in two years using full time carry protocol.
    A FFDO as a flying pilot would defend the aircraft from the cockpit 
only, and not exit the cockpit door. If one or more FFDOs are riding as 
passengers in the back of that same aircraft, they may be the only law 
enforcement on board (including cockpit crew). They should not be 
restrained by the government from defending the cockpit in the event of 
a terrorist attack regardless of the side of the cockpit door they are 
seated. The absence of this element of the program is very damaging on 
more than one front. On September 11th, a Federal Officer was on board 
United Airlines flight # 93. Unfortunately, due to the FAA and his 
agency policy, his weapon was located in the belly of that aircraft. 
Threat assessment aside, the inability to operate internationally 
translates into many FFDOs who may not operate domestically, since they 
fly mixed schedules. This specifically takes trained FFDOs out of the 
system. Currently, FFDOs operate four times the coverage of the Federal 
Air Marshal Service at 1/25th the cost.
    Cabin crewmembers should also be trained in defensive tactics (DT). 
Airline managements have resisted this valuable training and prefer to 
view cabin crews as mere food servers.
    Proper employment of defensive tactics could provide cockpit crews 
with critical time to prepare a cockpit defense plan and land the 
aircraft. Currently, the TSA has developed an outstanding Crew Member 
Self Defense Training (CMSDT) program that all crewmembers may take as 
often as they like. TSA should mandate the airlines to provide CMSDT to 
crewmembers, and enable each airline to teach this course at their crew 
domiciles. As a volunteer program that requires crewmembers to pay for 
their own travel and hotel expenses on their own time, mitigates the 
value of this excellent course.
    The cabin crew should also have a remote means of communicating 
with the cockpit crew in the event of a security breach, in addition to 
their present antiquated primary and secondary communication methods. 
The Airline Transportation Association (ATA) lobbying efforts defeated 
legislation mandating such a system. The ATA also lobbied against 
cameras in the cabin of passenger airliners, a method to help provide 
the cockpit crew with vital information. These systems cost less than 
the entertainment systems that many airlines have installed.
    The Federal Air Marshal (FAM) program, although another excellent 
layer of security, has serious shortcomings, not the least of which is 
an agency of insufficient size. The Federal Air Marshal Service also 
manages the current FFDO program. An improvement to this viable program 
would be more involvement and cooperation in training with FAMS and 
FFDOs. This would require additional funding to support and train the 
FAMS/FFDO team concept. Presently, FAM Field Offices cannot accommodate 
FFDOs who wish to use the FAM facilities to improve their skills and 
teamwork.
    Of all the proposed aviation security enhancements available today, 
``flight deck secondary barriers'' represent the single most effective 
additional layer to protect the flight deck from another potential 
hijacking. Congress mandated the installation of flight deck hardened 
doors in 2001, but at the time didn't anticipate the need for a 
secondary barrier. PCSG and almost every other industry group have 
since come to the conclusion that a hardened door alone does not 
provide a predictably reliable barrier to an attack. In order to 
effectively protect the flight deck during times that the door is 
opened in flight, the crew needs a protected space behind the flight 
deck door, and a few seconds to respond to an attempted breech.
    Secondary Barriers, such as those currently installed on some of 
United Airlines airplanes, provides crews the essential space and time 
to accomplish a door transition. Secondary barriers are extremely 
inexpensive when compared to other security systems, can easily be 
installed, and can be easily incorporated into current flight deck 
access procedures as currently modeled by United Airlines and other 
carriers. Most importantly, like the mandated hardened flight deck 
doors, a Congressional mandate of secondary barriers would result in a 
significant layer of aircraft security in minimal time. In order to 
expedite this security enhancement Congress should fund the cost of 
installing secondary barriers, including reimbursement of carriers who 
are already beginning to install this much needed aviation security 
enhancement.
    A major problem for all three layers of security is that there is 
no integration of training, or at the least, a clear understanding 
among each group on how to work together. These three systems have been 
``stove piped.'' In addition, the TSA does not require crewmembers to 
receive operational Security Directives or Information Circulars. The 
TSA provides this information to airline corporations and lets them 
decide who the ``need to know'' employees are. Very few airlines have 
chosen to share this vital information with cockpit and/or cabin crews. 
A notable example of the failure to disseminate information to airline 
crews was the Richard Reid ``shoe bomber'' incident. Previously, 
crewmembers were not told of an existing threat to passengers involving 
explosives in shoes. It was not until after this event that American 
Airlines elected to change their policy. Other airlines provide only a 
minimal and cryptically scrubbed version, usually in an untimely 
manner. It is unconscionable that the TSA leaves this crucial 
information to individual airline policy or negotiations, and does not 
require delivery of the operational information to pilots and cabin 
crews.
Cargo Security
    Dramatic growth and maturity for the all-cargo airline has occurred 
over the past 30 years. In their earlier days these airlines were not 
very big, and operated at night beyond the view and consciousness of 
the general public. Today, they are large global airlines that operate 
around the clock, flying the same aircraft in the same flight 
environment as the passenger carriers do.
    For years all-cargo airlines were exempt from many of the 
government safety and security regulations required of passenger 
carriers. One such example involves a critical airborne Traffic 
Collision Avoidance System (TCAS) that was required of passenger 
aircraft, but not mandated on cargo aircraft until 13 years later. This 
lack of uniform safety standards continues today as illustrated by 
their being no requirement for airport Aircraft Rescue and Fire 
Fighting (ARFF) to be provided for the all-cargo aircraft, nor for the 
first responders to conduct any training on all-cargo aircraft. 
Hardened cockpit doors are non-existent on cargo aircraft, although 
mandatory on passenger aircraft. The TSA has stated that all-cargo 
aircraft have the highest risk for hostile takeover. Hardened cockpit 
doors should be mandatory on all current and future all-cargo aircraft. 
All-Cargo carriers routinely receive exemptions from government 
regulations imposed on passenger carriers. Unfortunately, this same 
double standard is placing all Americans at risk.
    A new Full All-Cargo Aircraft Operator Standard Security Program 
(FACAOSSP) does mandate security training to crewmembers of all-cargo 
airlines. However, the original requirement was reduced at behest of 
the Cargo Airline Association (CAA) and ATA by fifty percent and is 
clearly insufficient in regards to training initial crewmembers. Many 
all-cargo airline corporations have fought against the training for 
their pilots claiming the cost is too great. When pilots have 
petitioned their companies to work with them to develop programs, 
airline managers have told them they would refuse to incorporate such 
training unless it is regulated by the government. It would seem 
obvious that an all-cargo B-767 can cause just as much damage as a 
passenger B-767, whether hijacked or detonated over a populated area. 
This is a fact that has been lost on airline managements with an 
economic bias, keeping them rooted in the old ways of doing business, 
hoping nothing will happen again, and believing they are not 
responsible for security.
    There has been no positive response as to when the All-Cargo Common 
Strategy will be accessible to the crewmembers. This working group 
ended almost two years ago.
    Government regulation and planned programs fall short of what is 
required to shore up this weakness in our aviation security. 
Unfortunately, our government and airline managers are ignoring the 
fact that China and two major European cities have been using 
electronic inspection equipment successfully for the last five years. 
These foreign airports have demonstrated dramatic statistics of reduced 
contraband, smuggling, and terrorist related shipments. These tools 
would enable the United States to be proactive, versus doing little to 
nothing, and are not cost prohibitive either in acquisition or in 
throughput.
    Airport security standards have seen minimal enhancement for the 
all-cargo operation. While minor improvements are underway for larger 
airports, many smaller airports are not required to have an airport 
security program, and are still not required to make any changes even 
though they host large jets and are located near major populated areas. 
Once again the excuse given is the fear of ``financially 
overburdening'' the all-cargo airlines. Additionally, the TSA does not 
want to establish new rules that may be difficult to understand by 
people that never had to follow them at unregulated airports.
    PCSG believes in ``one level'' of security for cargo on passenger 
and all-cargo aircraft.

Crew Screening
    Physical screening of crewmembers prior to flight is conducted as 
part of the TSA program for providing airport and flight security. 
Designed to prevent another 9/11-type attack, this method of screening 
crewmembers can never prevent such a disaster. Legitimate crewmembers 
must obviously have access to aircraft in order to fly them, and 
therefore do not require a screening routine designed to stop potential 
terrorists at the passenger screening portal. Therefore, for crewmember 
screening to be meaningful, the process must be able to confirm or deny 
the identity of an individual as a crewmember so as to prevent 
unauthorized access.
    PCSG calls on the TSA to conduct this security function in a manner 
that will truly protect the civilian population. Crewmembers are the 
most vetted employees in the civil aviation system with countless 
checks on their abilities and backgrounds. Pilots have their hands on 
the controls of what is now considered a potential weapon of mass 
destruction, so in effect, physical screening is meaningless. 
Crewmember screening must simply address the issue of confirming access 
authority. There are several off-the-shelf systems available that are 
capable of such a task, including biometric solutions and database 
solutions already approved by the TSA and FAA. In addition to Cockpit 
Access Security System and Department of Justice INS FASTPASS, 
countless other crewmember screening systems have been proposed to the 
TSA. Current practices which screen crewmembers in the same manner as 
passengers waste valuable resources that could be put to better use 
elsewhere. The TSA currently screens more than 2,000,000 pilots 
monthly.
    Two years ago, on May 13, 2005, I provided testimony to this 
committee on Aircrew Screening. The TSA once again promised the 
Transportation Workers Identification Card (TWIC) would be the solution 
to all credentialing. This program has had marginal success and is 
proof positive, that one size does not fit all, especially when it 
comes to aviation. Canada has implemented a workable biometric ID 
program. Even Walt Disney World has biometrics for its season pass 
holders. If the Mouse can do biometrics, surely the Government can 
also.
    A National Law Enforcement Biometric Identification Credential was 
produced to confirm positive LEO status anywhere in the country. This 
program could be piggy-backed for airline pilots instead of waiting on 
the TWIC program.

Passenger Screening
    PCSG recognizes the nature of a changing threat, and the necessity 
for a proactive approach to mitigate that threat. There are solutions 
for passenger screening that rely on physical security, technology, and 
the human element. PCSG believes that the TSA has made large 
investments in time and money building a system that looks for 
dangerous ``things'' instead of dangerous people. We are convinced that 
this approach is fundamentally flawed.
    The current state of passenger screening in the United States has 
made some limited improvements over the screening methods from pre-9/
11. More ``process'' has been added in an effort to create a serious, 
but not necessarily more meaningful, screening environment. The 
selectee process is significantly flawed and the secondary screening 
provides little if any advantage over the initial primary screening.
    One of the most serious drawbacks to the present system is that the 
TSA has been pushed and pulled in different directions by many 
competing interests. The airlines continue to use (and have sole 
authority over) the subjective CAPPS I (Computer Assisted Passenger 
Pre-screening) system for ``profiling.'' Unfortunately, the airlines 
scrubbed everything useful from the original CAPPS I program out of 
fear of discrimination law suits. In an effort to make it without bias, 
they have made it ineffective. The criterion to become a selectee has 
little bearing on potential terrorist activity, and with a significant 
percentage of passengers selected it has more of a harassment effect 
than to serve as a true security feature.
    The TSA has attempted to take control of the CAPPS program with a 
second-generation format. This program was hailed as having the ability 
to fix many of the problems that presently exist and to be operated by 
the government, instead of each individual airline. At present CAPPS II 
is mired down with serious problems and the TSA has no solution in 
sight.
    There is a system that exists that would provide a dramatic 
improvement in anti-terrorism mitigation, and provide an additional 
bonus of customer satisfaction. It is known as Behavior Pattern 
Recognition (BPR). The TSA currently uses a trimmed-down version of BPR 
called Screening Passengers by Observation Techniques (SPOT). The SPOT 
program only teaches TSA Security Officers how to detect one of three 
main elements that make BPR work. The other two elements are delegated 
to the airport law enforcement officers, who clearly are the backbone 
of airport security. As trained law enforcement officers, they have the 
bearing, temperament, and most importantly, the authority of law to 
conduct this important security feature, although they are not 
presently required to receive BPR training. If the full BPR were to be 
used by TSA Security Officers as a major screening method, experts 
report that selectee counts would be reduced from the current high 
numbers, down to a very low percentage. Additionally, that 
significantly smaller number would receive a more thorough and 
meaningful secondary screening than presently exists. This serious, 
behavior-focused program is specifically designed to look for traits 
exhibited by those with threatening intent.
    Pilots, flight attendants, and certain airline employees are 
excellent candidates to receive training in the SPOT or BPR program 
since the majority of their time is spent throughout the airport 
environment. Once again, this is an untapped potential that TSA will 
not address.
    At the passenger screening portals, the ability to keep threatening 
intentions and material, such as explosives, off the aircraft cannot 
depend on the current x-ray machines and TSA screeners alone. Chasing 
every tool a terrorist may use is sadly ineffective.
    As we look at technology, we recognize it has a necessary and 
evolving role in the passenger screening effort. A properly-run BPR 
program in combination with K-9's, or their technological equivalent 
(such as fluorescent polymer), can be very effective at mitigating many 
types of ``carry on explosives'' and other threat behavior; ``looking 
for bombers, not for bombs''. Magnetometers, or metal detectors, have 
been staples of passenger screening for decades. Both walk-through 
portals and hand wands continue to be useful tools, but portals are 
becoming enhanced to be trace explosive detectors also. Some airports 
are installing such devices, commonly called "puffers", since they 
blast a puff of air as a passenger passes through in order to collect 
and test for explosive elements. The use of x-ray technology can be 
added to these portals, but many passengers have privacy concerns over 
the display of their body images. These images can be "cartooned" so 
actual body types are not displayed.
    Screening devices for carry-on bags have enhanced features (that 
have been in place for many years), but the government is preparing to 
further enhance these units with existing bomb detection technology. 
Detectors are in development for liquid explosives, but they are 
presently too slow and lack sufficient accuracy. Bomb sniffing dogs (K-
9s) have their limitations, but are very accurate, and also serve as an 
outstanding interim fix while we wait for future technologies currently 
in development. Closed Circuit Television (CCTV) is a good tool for 
tracking and documenting activity in the entire airport environment, 
from the parking lot to the airplane.
    Physical security is being adjusted at many airports. This will be 
an essential design feature for future airport projects. Parking lot 
locations, terminal stand-off features and materials, as well as 
electronic ``one way'' gates to help prevent portal breaches, will be 
among the approaches to this important element affecting passenger 
screening.

MANPADS
    Man Portable Air Defense System (MANPADS), otherwise known as 
shoulder-fired missiles, pose a clear threat to commercial aviation. 
Over the past twenty years, numerous aircraft have been fired upon by 
MANPADS in countries outside the U.S. The proliferation of MANPADS has 
escalated to the point that there is now serious concern of an attack 
in the United States.
    Economic realities may prevent retrofitting the entire U.S. airline 
fleet with the most expensive MANPAD countermeasures. Of primary 
concern is the Civil Reserve Airline Fleet (CRAF). These large jets are 
U.S. registered airliners (both passenger airlines and all-cargo 
airlines) that fly in support of our U.S. troops abroad. At present 
they are the most vulnerable, and should be outfitted first. Also, 
different manufacturers provide different successful solutions. MANPADS 
is not an airport perimeter issue. The operating envelope of this 
weapon system could enable an attacker to be ``away'' from the airport 
environment.

TSA
    It has been over six years since September 11th. The TSA was formed 
to standardize aviation security. This is not the case. Each airport is 
its' own domain, isolated in its' exclusive security plan. Consistency 
throughout the system is non-existent. Every year, the TSA testifies 
about airport access and employee problems, but does little to address 
this serious problem. Past TSA congressional testimony always claim 
credit for working towards solutions, but is shallow on achievement. 
Why? Because the TSA has ceded its' authority to allow the airport 
security directors to run the show. Additionally, the TSA has become an 
inflexible bureaucracy, resistant to new ideas from stakeholders. 
Meetings and working groups are used to reinforce their existing 
policies and to placate the GAO reports. TSA is a reactive regulatory 
agency unwilling to provide proactive changes. TSA officials, for the 
most part, do not have an aviation background nor do they understand 
the industry they are attempting to protect.

Summary
    Aviation continues to be the favorite target of terrorists. This 
threat is real and evolving therefore we must stay one step ahead of 
the terrorists. Any attack on aviation would ground the nation's 
airline fleets with a resulting economic impact estimated by the 
Department of Transportation to be $10 billion U.S. dollars per week. 
This figure, of course, does not account for the potential tragic loss 
of human life in the air and on the ground.
    Pilots and cabin crews are active participants in aviation security 
and will live and die by TSA decisions and policies. Every day, pilots 
and cabin crews operate in an environment with no margin for error. 
Since man began flying, aviation has been inherently dangerous, and 
today's airline pilots know that the FAA rules and regulations are all 
written in blood.
    Many resources from various elements of security must work together 
to best mitigate a terrorist threat. In the event of terrorist action, 
once airborne, the only viable resources are on the aircraft.
    Madam Chairwoman, and members of the Subcommittee, I thank you 
again for the opportunity to provide testimony today. I am happy to 
respond to any questions which the subcommittee may have.

    Ms. Clarke. Thank you, Madam Chair.
    I would like to direct my first question to Mr.Gage. From 
your testimony it appears that the transportation security 
officers have many issues with regard to how they have been 
treated by TSA. Generally speaking, what impact do you believe 
this has had on morale, and has this treatment led to a high 
level of turnover in the ranks?
    Mr. Gage. I have to believe it does. Of all the government, 
Homeland Security has the worst rating for morale in the 
government. And in Homeland Security the TSOs have the worst 
morale. So this is the worst of the worst that we are talking 
about. And clearly, as I said, it is a choice TSA management 
makes. They don't have to deal with folks like this. They don't 
need this repressive system. They don't need almost a 
militaristic type of view for simple sicknesses or child care 
leave or those type things that I think build a professional 
workforce and one that has good morale. And I think good morale 
is crucial in this job. I think teamwork and morale is 
absolutely crucial.
    Ms. Clarke. Thank you, Mr. Gage.
    Ms. Friend, in your testimony you discuss the need for 
coordination between flight attendants, pilots and air 
marshals. What type of coordination do you envision and do you 
believe is the responsibility of the airlines and the DHS to 
facilitate this?
    Ms. Friend. Each of us has training, and we know what our 
reaction would be to any emergency situation, but we don't 
train together, so we are not always assured of knowing what 
the other group--how they are going to react, and that is a 
situation that can have really disastrous results.
    If I may, I will just give you one brief example of it that 
happened fairly recently on a flight. The aircraft, as they 
were taxiing out, one of the flight attendants identified an 
object that had all of the components or appeared to have all 
the components of a bomb. The flight attendant reacted 
appropriately. There was a Federal air marshal on the flight; 
notified the cockpit, notified the Federal air marshal. The 
flight deck pulled the aircraft off to the side, made an 
announcement to the passengers without unduly alarming them 
that there was a situation they needed to check into, and then 
announced that while we were waiting here, it would be okay to 
use your cell phone.
    The Federal air marshal reacted immediately, jumping to his 
feet, pulling his weapon, saying no one can use your cell 
phone, because the Federal air marshal was fearful that someone 
would use a cell phone to detonate this device.
    It is a situation that could have been prevented with 
better communication and better training for the groups 
together.
    Ms. Clarke. And then my follow-up to that is do you believe 
that it is the responsibility of the airlines and DHS to 
facilitate this? Who would you see as the entity that would 
ensure that this happens? Because clearly what you have 
described is something that anyone would envision if such 
integral partners are being trained in isolation of each other.
    Ms. Friend. Well, it would require the cooperation of DHS 
and/or the TSA, because the Federal air marshals are not under 
the direct supervision of the airlines. So it would require a 
coordinated effort.
    It would also require an economic investment, which has 
been the problem, is that there is a reluctance to make that 
economic investment in better and more comprehensive training, 
at least for the work group that I represent.
    Ms. Clarke. Thank you very much.
    I would like to ask also, would there be any benefit in 
further coordinating with the TSOs since all of you share the 
same goal of protecting the public as they travel through the 
skies? Have you given any thought to that, Ms. Friend?
    Ms. Friend. I'm sorry, would you ask me that again?
    Ms. Clarke. There is one group that we all acknowledge is 
part of the continuum of safety in our airports, and that is 
the transportation security officers who oftentimes are near 
the frontline, right?
    Ms. Friend. Right.
    Ms. Clarke. Would you see any benefit to them also 
coordinating with the others in terms of protecting passengers 
and crews and all of that?
    Ms. Friend. Well, it is always helpful for every layer of 
the security system to understand what the role is of the other 
layer. But we do not have--I mean, the direct contact we have 
with the TSOs is during our process through the security 
checkpoint during which we are really not much different from 
the average passenger clearing security. And I am not aware 
that we really have any significant issues with the TSOs. I 
think we have a very amicable relationship, as far as I know.
    Ms. Clarke. Thank you very much, Madam Chair.
    Ms. Jackson Lee. I thank the gentlelady.
    Now it is my pleasure to yield 5 minutes to the 
distinguished gentlelady from the District of Columbia, Ms. 
Eleanor Holmes Norton.
    Ms. Norton. I want to thank the Chair. And I particularly 
thank you for this hearing. I am on the Aviation Subcommittee, 
and I find this hearing of value.
    Some of the issues recur. Let me ask Mr. Gage in particular 
about a statement that appears on page 3 of his testimony about 
the TSOs' high attrition rate. You describe it as incredibly 
high. I think that is not an overstatement; in the first 8 
months of 2007, an attrition rate of 19.6 percent, much higher 
than the current 2.2 percent attrition rate of the Federal 
workforce. This kind of instability is associated with low-
level jobs, not security jobs. And I would be interested in why 
you think there is this incredibly high turnover rate, which I 
take it is people leaving or resigning.
    Mr. Gage. Voluntary as well as involuntary. I mean, there 
are quite a few people that get fired there, too.
    Ms. Norton. Why do they get fired?
    Mr. Gage. What?
    Ms. Norton. Fired for a cause?
    Mr. Gage. Well, some of the reasons are pretty weak, and 
there have been quite a few cases that are being turned over. 
But I think the whole--the pressure of the job, the structure 
of the job itself, which has been flexible, the fact that the 
staffing levels are so low, which really puts additional 
pressures on the workers in regards to taking leave, with 
regards to getting their training, just the general pressure, 
the overall pressure of the job. This staffing problem is going 
to have to be addressed, because it causes an additional 
staffing problem with people& additional people leaving.
    So fully staffing the TSOs I think would go a long way and, 
also, I think just treating people more professionally would go 
a long way to--most of these people have had other careers, 
professional careers. Some are teachers, and they are just not 
used to being treated in the way that they are without having 
any say, afraid to make any type of suggestion or comment for 
fear of reprisal.
    So I think there is a whole general attitude there that 
needs to be cleaned out, and some of the choices that TSA has 
made on how to run this important piece of business just has to 
be re-evaluated and modernized.
    Ms. Norton. Well, you indicated somewhere in this 
testimony, as I recall it, that when a TSA employee reports an 
issue, a security issue, that--oh, here it is. It is on page 6.
    Much of your testimony, it is just inconsistent with what 
we have to demand as that of security. The high turnover, 
something has got to be done about that. That is why so much 
training, as you report in your testimony, has to go with new 
people, just to keep the new people going so you can't train 
the people who are already there. That is not what we expected 
when this was transferred to the Federal Government. It has 
been inconsistent with the way in which other Federal employees 
respond and are treated.
    You say, though--and this really caught my eye--TSA refuses 
to be bound by the Office of Special Counsel recommendations 
when TSOs are retaliated against for blowing the whistle on 
security breaches. I need to know more about that because, 
obviously, that could conceivably concern security.
    Mr. Gage. TSA is not bound by virtually any of the 
safeguard-type of provisions.
    Ms. Norton. Having whistleblower protection?
    Mr. Gage. That is right.
    Ms. Norton. There is no whistleblower protection?
    Mr. Gage. There isn't.
    Ms. Norton. Madam Chair, there are two points right there. 
One, turnover, as long as you have got something, these people 
going in and out, I don't know how we can consider that this is 
a workforce for security. And if you cannot blow the whistle 
when you see something--of course, they don't have any union in 
the first place--without fear of losing your job, I guess the 
best thing to do is just let it go by. Very disturbing.
    Ms. Jackson Lee. We are not ending your time. I am dismayed 
to indicate that we need to clear the room. There is a package 
unidentified, unless someone in this room can identify it. So 
we have to clear the room, suspend the hearing for just a 
moment and ask all individuals, as I have been instructed by 
the Clerk, to clear the room just for a moment.
    [Recess.]
    Ms. Jackson Lee. Let me ask for a zero on the clock. Thank 
you.
    To the witnesses, if there is ever anything that you get 
here in Washington, in a complete opposite of what people 
perceive as real-life experience, and so you are in the 
Homeland Security Committee, and you just had real-life 
experience. We are glad, however, that it resulted in a false 
status. So thank you very much.
    I am going to proceed with my line of questioning, and I 
will yield myself 5 minutes as we conclude this hearing.
    Congresswoman Eleanor Holmes Norton was really tracking a 
line of questions, Mr. Gage, that I think are enormously 
crucial. And before I do that, let me ask unanimous consent to 
submit into the record the Federal Law Enforcement Officers 
Association, and I can do this because a quorum has been 
established. Hearing no objection, it has been submitted into 
the record.
    Ms. Jackson Lee. This recounts for us one sentence: ``A 
recent news report showed that 75 percent of fake bombs or bomb 
parts got past TSA screeners at Los Angeles International 
Airport and 60 percent got past TSA screeners in Chicago 
O'Hare.''
    Even though this data may have been in place for a period 
of time, I think it speaks to Mr. Gage in terms of his points 
regarding training and also technology.
    So I want to go to Mr. Gage again to ask, what are the 
issues--as I survey our TSA screeners, one, I want to thank 
them for their service for fear of them thinking that that is 
not our intent here today. But I do notice or do get an 
opportunity to hear of long hours, of painful working 
conditions, some airports don't have rest areas, and those are 
basics, but they all contribute to the way one does one's job.
    But the other question, Mr. Gage, is professional 
development. The ability--I asked the question of TSA itself. 
What is a route--what is the professional route for a TSA 
screener? That always gives one the ability to stick in there.
    I cite the huge hours, though a different circumstance, of 
interns--of medical interns, residents who work unbelievable 
hours, hours not seen in any other professional capacity. But, 
in any event, they stay the course because they are going to be 
a doctor. So that seems to be a concern. Will you share with me 
your thoughts about that?
    Mr. Gage. Yeah. I think the avenues of promotion are very 
limited. I guess you could possibly become a trainer or a 
supervisor, and I think that is about it, which is--and for the 
vast majority of the workforce, there simply isn't any 
profession promotional potential, and I think that is going to 
really force this into an almost part-time workforce, which I 
think would be a disaster.
    Right now, there is 20 percent or so that are part time. 
And as full--time people or people looking for a career, 
certainly the money is not there and the promotional 
opportunity is not there, and I think that is just going to 
require or force airports to be hiring part-time people, and I 
think that just exacerbates the whole problem.
    Ms. Jackson Lee. Thank you.
    Let me see if I can explore this question that I had for 
Ms. Friend. Tell us again--I think it is really crucial, and we 
expect to have the air marshals before this committee and air 
traffic control. That is different. But I think it is important 
not to highlight some unfortunate circumstance, but 
coordination is key. And an airplane is like a closet. There is 
nowhere to go. And maybe even worse because, obviously, a 
closet might have a door. But say a locked closet. There is 
nowhere to go.
    And the answer that you presented was stark, which is a 
flight attendant giving basic instructions from his or her 
experience and a law enforcement contravening it but then 
creating what I think might be a scene of tension or confusion 
for the passenger.
    Speak to this coordination question again, particularly 
flight attendants who really are the people movers. They are 
moving about. They are also looking at behavior of passengers. 
Speak about coordination and the importance of training flight 
attends.
    Ms. Friend. Well, I mean it is critical that each of us who 
play a role in onboard aviation security have a complete and 
thorough understanding and expectation of what the other two 
parties' role is. I mean, I think that is just plain common 
sense that I know what the Federal air marshals' expectations 
are, what their instructions are in certain circumstances and 
that the air marshals know what mine are and that the flight 
crew know what to expect from each of the other two pieces in 
the cabin. Otherwise, we end up getting in each other's way and 
not accomplishing anything, I mean, and not accomplishing our 
goal, which is to protect the travelling public.
    If I have to stop or if the air marshal has to stop or if 
the captain of the aircraft has to stop and say, okay, what are 
you going to do now, then we lose valuable time. We need to 
each understand what each other's role is and get out of each 
other's way, to be frank with you, and let each of us do our 
job.
    Ms. Jackson Lee. Wireless communication, a lot of people 
would raise the question. Of course, they would raise the 
question, what would be the revenue source for that as we look 
at the legislation, write the legislation? We know we will 
craft a revenue stream, and we would hope for the cooperation 
of the airlines, since we----
    I remember very distinctly cooperating after that tragic 9/
11 event, recognizing the financial hit they had taken. This 
Congress rose, if you will, to answer the call. And wireless 
communication, to me, eliminates the sitting duck status of a 
flight attendant using this heavy equipment at the front and 
maybe at the back while everyone is watching and certainly 
those who would be interested in doing harm. Why don't you 
share how you see the wireless being helpful?
    Ms. Friend. Right. I mean, I can give you an example of 
that. In a simulated terrorist attack, the first thing that 
those individuals acting as the terrorists did was cut the wire 
on the interphone so that the flight attendants could not 
communicate with the cockpit. That is just logical. But as far 
as the venue stream or funding mechanism, I really believe that 
the airlines themselves should be responsible for providing 
that as a piece of safety and security equipment onboard the 
aircraft, just as they are required to provide fire 
extinguishers and first aid kits and external defibrillators.
    I think the problem here is that the airlines themselves, 
the people who manage or mismanage this industry, do not--they 
look at security concerns as sort of extraneous to the service 
that they provide. When, in fact, ensuring that the people that 
they are selling tickets to and promising to transport safely, 
that is a part of the service that they have contracted to 
provide to the travelling public. And so I think that they 
should be fully responsible for that piece of safety equipment, 
just as they are other pieces of safety equipment.
    Ms. Jackson Lee. Very instructive. Let me finish.
    Captain Hesselbein, one of the things that struck me was 
the leave time to, in fact, comply with requirements for your 
pilots to comply with a law that was passed by this Congress. 
What has been the problem with just doing this through 
personnel, through a personnel structure that if you have a 
specific training that could be used for your job that you have 
that time to be trained or to be retrained? What is the problem 
that you are finding?
    Mr. Hesselbein. The problem is that many employers find 
their pilots resource is scarce at the present time. There are 
also those who do not believe that there is a role for an armed 
pilot in the flight deck. Those two, combined with the fact 
that there is no law in place that allows them to take leave, 
causes the problem.
    I spent many, many years in the Air National Guard; and 
during my time there before I retired, it was a very good thing 
to be able to walk in to my employer with a set of orders 
saying, I have to leave my place of employment for 60 days to 
deploy to one place or another, and the employer had to permit 
me to leave my employment to serve my country and then return 
to my job.
    FFDOs are serving their country when they go to train to 
protect their flight decks. They should have that same right.
    Ms. Jackson Lee. I think this has been enormously 
instructive; and let me just add, in conclusion, just to recite 
from a letter that I offered into the record from Mr. Chris 
Paris, again, focussing on air traffic control. And it really 
adds to the testimony that has been given here today. It really 
speaks to missing elements that each of your constituents have 
that keeps them from performing at an excellent rate their jobs 
and that impacts on American security.
    It relates to this story coming from Houston. There is a 
bar by the FAA from having utilization of defibrillators in the 
air traffic control unit. Now I would not suggest that everyone 
is under tension, enormous tension. But I imagine that there 
would be a few air traffic controllers who do their job very 
well but would tell you that it is very seriously, a very 
serious, if you will, tension-filled responsibility. I think 
when I visited with some of them, they indicated they are to be 
on a certain number of hours and off just because of that. So 
the FAA bars defibrillators from being in the center.
    And, unfortunately and tragically, a tribute to this 
gentleman whose name has been printed here, John Sanfelippo had 
a heart attack as an air traffic controller, no defibrillator, 
and tragically 14 minutes before attention could come to him. 
And, of course, tragically he lost his life. I put his name 
into the record simply because it has been given to me.
    But this hearing was to find out what you needed and how 
this committee could respond to your needs. It is also to thank 
you on behalf of our ranking member and the members of our 
committee and just to indicate that a number of members had 
overlapping responsibilities, and I thank the members for their 
presence here today. So my gratitude for the witnesses for 
their valuable testimony and the members for their questions.
    The members of the subcommittee may have additional 
questions for the witnesses, and we will ask you to respond 
expeditiously in writing to those questions as they are 
submitted.
    And I would, again, emphasize that the partnership of 
security in America has to be with people and tools, people and 
travel modes, people and equipment; and your presence here 
today reinforces that.
    I thank you for your testimony. We look forward to working 
with you and curing some of these problems.
    With that, hearing no further business, the subcommittee 
stands adjourned.
    [Whereupon, at 4:25 p.m., the subcommittee was adjourned.]


                         Appendix:  Attachments

                              ----------                              

Attachment A
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Attachment B
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
